<html>
<title> - USAID RESOURCES AND REDESIGN</title>
<body><pre>[Senate Hearing 115-791]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-791

                       USAID RESOURCES AND REDESIGN

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                               JUNE 20, 2018

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-341 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------





                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey




                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Menendez, Hon. Robert, U.S. Senator from New Jersey..............    15

    Prepared statement...........................................    15


Green, Hon. Mark, Administrator, United States Agency for 
  International Development (USAID), Washington, DC..............     2

    Prepared statement...........................................     4

              Additional Material Submitted for the Record

Responses to Additional Questions Submitted for the Record to 
  Hon. Mark Green by Members of the Committee

    Questions from Hon. Marco Rubio, U.S. Senator from Florida...    32

    Questions from Hon. Benjamin L. Cardin, U.S. Senator from 
      Maryland...................................................    69

    Questions from Hon. Todd Young, U.S. Senator from Indiana....    78

    Questions from Hon. Tim Kaine, U.S. Senator from Virginia....    89

    Questions from Hon. Edward J. Markey, U.S. Senator from 
      Massachusetts..............................................    95


Material Submitted by the U.S. Agency for International 
  Development (USAID)

    Administrator's Action Alliance for Preventing Sexual 
      Misconduct (AAPSM).........................................    97

    USAID Staff and Implementing Partner Reporting of Sexual 
      Exploitation and Abuse.....................................    99

    Reporting Harassment at USAID................................   101

    USAID's Policy Against Sexual Exploitation and Abuse.........   102

    USAID's Anti-Harassment Policy...............................   105




                                 (iii)

 
                      USAID RESOURCES AND REDESIGN

                              ----------                              


                        WEDNESDAY, JUNE 20, 2018

                               U.S. Senate,
                    Committee on Foreign Relations,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Flake, Gardner, 
Young, Menendez, Cardin, Coons, Murphy, Kaine, Markey, and 
Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. I am going to go ahead and call the meeting 
to order. Menendez has been held up. So I think he may make a 
statement when he gets here.
    But we welcome you here. We are sorry to be starting a few 
minutes late. Two votes were called that were unanticipated.
    The United States Agency for International Development is 
the agency that carries out the lion's share of U.S. 
humanitarian and development foreign assistance.
    We have invited USAID Administrator Mark Green here today 
to review the agency's programs and resources, as well as the 
proposed redesign of the agency.
    Some on the committee will, no doubt, use their time to 
highlight the President's fiscal year 2019 budget request, but 
given that Congress decides funding levels, despite the 
request, really the President's request is not relevant to what 
we will be doing. And I do not mean that with any disrespect. 
So I hope that the hearing will focus on more relevant issues, 
since it will not be part of what Congress takes up.
    However, I would like to take this time to applaud the 
administration for requesting to eliminate funds for the Title 
II Food for Peace program as authorized in the farm bill in 
favor of a more efficient emergency food security program, or 
EFSP. I appreciate the administration acknowledging how 
absurdly inefficient the Title II of the farm bill is with only 
30 cents on the dollar going to food itself, while retaining 
the EFSP that gives us the flexibility to work in areas that 
Title II assistance simply cannot reach, areas that are 
directly tied to U.S. national security.
    Finally, I want to thank Administrator Green for the 
outstanding level of consultation with our committee on USAID's 
pending transformation plans. It will be helpful to discuss how 
the plan realigns USAID structure to better focus on core 
competencies of the agency, such as our humanitarian programs 
that aid the unprecedented millions now displaced by ongoing 
human conflict.
    As part of the rollout of the transformation, USAID just 
released its new metrics for the journey to self-reliance, a 
promising initiative to reconnect our development programs with 
the whole point of why we do them, helping countries grow past 
a reliance on foreign assistance.
    There has also been some discussion regarding democracy 
planning, and given your extensive background directing such 
programming, we should hear today how the proposed structure 
and metrics will favor democracy and good governance.
    With that, we look forward to your testimony. We thank you 
for your service. I think on both sides of the aisle people are 
uplifted and proud that you are our USAID Administrator. With 
that, if you would not mind going ahead and giving your 
testimony. Any written documents we would be glad to enter into 
the record.

  STATEMENT OF HON. MARK GREEN, ADMINISTRATOR, UNITED STATES 
      AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Green. Thank you, Mr. Chairman. Thank you for your kind 
words. Thank you also to Ranking Member Menendez and members of 
the committee for this opportunity to summarize my written 
testimony.
    I would also like to explicitly thank all of you for the 
tremendous support that you have shown to USAID and the level 
of communication and consultation that we have had. My own view 
is that this has been a very constructive relationship and we 
have done our best to try to bring your thoughts and counsel to 
the work that we do.
    In particular, although I do not take positions on pending 
legislation, I am delighted at the passage of the Global Food 
Security Act, and I especially appreciate the leadership of 
Senator Isakson and yourself in making that happen. That adds 
great certainty to our work, and we are appreciative.
    Members of the committee, the fiscal year 2019 request for 
USAID is approximately $16.8 billion. We acknowledge that this 
request will not provide enough resources to meet every 
humanitarian need or seize every development opportunity. 
Indeed, no budget request ever has. Instead it is an effort to 
balance fiscal needs at home with our leadership role on the 
world stage.
    Turning to our ongoing redesign, I greatly appreciate the 
thoughts and input that you and your staff have provided. To 
date, our team has had 53 separate Hill engagements and 145 
external stakeholder engagements as we try to shape what the 
USAID of tomorrow will look like. I remain committed to working 
closely with you to ensure that your ideas are reflected in 
this work.
    In terms of our overall programming, as you know, the world 
is confronting humanitarian crises in nearly every corner of 
the globe. And unfortunately, most of them are manmade. Near 
famines continue to threaten Nigeria, Yemen, Syria, and 
Somalia. Again, they are all manmade.
    Ebola has reared its ugly head in the Democratic Republic 
of Congo, killing at least 28 people to date. USAID and other 
agencies have been mobilizing to contain the outbreak and the 
news is promising on that front.
    As you may know, I recently returned from a trip to 
Bangladesh and Burma, a trip that has special relevance on 
today's World Refugee Day. As the world knows, Burma's Rohingya 
community has been the victim of an ethnic cleansing campaign. 
But, Mr. Chairman, I must say that that term does not fully 
capture what I have seen or the continuing suffering of the 
Rohingya in Burma and Bangladesh. The world owes Bangladesh a 
huge debt of gratitude for its willingness to temporarily host 
hundreds of thousands of refugees who have fled there.
    But the monsoons have begun in those host areas. While we 
are taking whatever steps we can to assist, sadly the first 
casualties have already been reported. We will continue to do 
our part to help meet their immediate humanitarian needs, 
including in preparation for the cyclone season, which we know 
will be coming.
    We are also forging longer-term plans with the State 
Department and others to try to deal with some of the deeper 
problems that I have seen.
    Of course, Burma is not the only place where religious 
minorities face deep hardship. Last October, Vice President 
Pence announced a new policy to expand assistance to religious 
and ethnic minority communities in the Middle East that have 
been devastated by ISIS and other terrorist organizations. This 
policy is in line with America's long tradition of standing 
with persecuted and vulnerable ethnic and religious minorities. 
Northern Iraq was once home to large communities of Christians, 
Yazidis, and other minorities. Many of them have fled their 
homes or fled their country altogether in the face of violence 
and threats of violence. We are committed to helping create the 
condition for those communities to return safely to their 
ancestral lands. Under the President's leadership, we have 
already channeled tens of millions of dollars to the region. 
However, we know the need is far greater and we must do more to 
meet the urgent needs of these endangered communities.
    At the Vice President's request, I will soon return to Iraq 
to meet with leaders of some of the suffering communities. I 
will then report back with a plan of action to accelerate aid 
to those in greatest need. This is a top priority for the 
administration, and I know it is a top priority for many 
members of this committee.
    The crises that we face, like persecution and threat of 
famine, are not limited to far-off corners of the land. A deep 
crisis is unfolding at this moment just hundreds of miles from 
our own borders. Our fiscal year 2019 budget request includes 
funding for democracy and governance programs in Venezuela that 
support civil society, human rights organizations, and the free 
flow of information. Our focus on Venezuela is more than 
warranted. The situation there is worsening by the week, and 
its effects are impacting the entire region. At the Summit of 
the Americas in Peru, I heard stories suggesting that the 
effects of the flight of Venezuelans are now being felt as far 
north as the Caribbean.
    Last month, we announced an additional $18.5 million in 
bilateral funding to Colombia to provide Venezuelans 
temporarily residing there with urgently needed services like 
school feeding programs, mobile health services, and other 
logistical support. And we know the needs are continuing to 
grow.
    In the midst of all this, USAID is working hard to apply 
the lessons we have learned from our past experiences. As many 
of you are aware, we have encountered challenges with the 
global health supply chain contract, which was awarded just 
before I joined USAID. Since my earliest days of the agency, we 
have monitored performance of the contract to ensure that our 
implementing partners meet the standards and requirements that 
are set forth in that award. I know my team has briefed your 
staff on the project, and we pledge to keep you informed.
    I am also committed to raising standards of accountability 
and apply lessons learned across the board, even hard ones. To 
that end, we have made a concerted effort to address all the 
audits from GAO and the Office of the Inspector General. Just 6 
months ago, we had almost 100 backlogged recommendations. I 
then set an ambitious goal of closing all of them within 6 
months, and I am proud to say that we achieved that goal before 
the end of May. We are fully committed to staying on track with 
these audits going forward and we have put in place a number of 
procedures to help accomplish that goal. We are creating a 
stronger audit function within our office of the CFO to ensure 
that everyone involved has the support they need. We are also 
instituting agency-wide training and performance metrics for 
our leaders.
    Finally, I would like to say a brief word on recent 
published reports of sexual abuse and misconduct by 
international aid workers. Needless to say like you, I am 
deeply troubled by these allegations. Such sexual exploitation 
and misconduct violates everything that we stand for as an 
agency. I have met with partner organizations, and I have made 
it absolutely clear that USAID will not tolerate sexual 
harassment or misconduct of any kind. We have distributed to 
your offices and released publicly in the last 24 hours a 
summary of the aggressive actions that we have taken so far, 
but please know that this is an issue I am personally tracking 
and will stay on top of. Again, I have made clear to our 
partners and fellow donors that we will do whatever it takes to 
uphold our values in the workplace and through our programs.
    Thank you again. And, Mr. Chairman, I welcome this 
opportunity and welcome your questions.
    [The prepared statement of Mr. Green follows:]


                 Prepared Statement of Hon. Mark Green

                              introduction
    Mr. Chairman, Ranking Member, members of the committee, thank you 
for this opportunity to discuss USAID's FY 2019 Budget Request.
    The Fiscal Year (FY) 2019 request for USAID fully and partially 
managed accounts is approximately $16.8 billion. This represents $1.3 
billion more than requested last year. It requests $6.7 billion for 
global health and $5.1 billion for economic support and development. In 
terms of USAID's humanitarian assistance, it requests over $1 billion 
more than last fiscal year's request. In total, it requests 
approximately $3.6 billion for International Disaster Assistance.
                           meeting priorities
    Before I arrived at USAID, I had a chance to meet with many of you. 
We discussed many of the challenges in the world today, and you shared 
with me your priorities. Since then, we've been hard at work at USAID 
to advance our shared those priorities and position the Agency for its 
crucial role in U.S. foreign policy.
    Our work has been informed by many of the travels I have 
undertaken, meeting our teams and partners around the world. I recently 
returned from a trip to Bangladesh and Burma.
    As the world knows, there has been an ethnic cleansing of the 
Rohinghya population. I have now seen firsthand some of what that looks 
like. It is not an experience that can be adequately conveyed by news 
reports or policy briefings.
    The world owes Bangladesh a vast debt of gratitude for its 
hospitality and forbearance with hundreds of thousands of refugees.
    But even there, with the coming of the monsoons, they are one 
cyclone away from a humanitarian disaster in addition to that which 
they faced as they fled violence and persecution in Burma.
    In FY 2019, we have requested funds to explore and implement more 
effective approaches to promoting ethnic and religious tolerance in 
Burma, including in Rakhine and Kachin States, and to help meet the 
needs of minorities in Iraq ravaged by ISIS, including those targeted 
because of their faith.
    I have also traveled to Ethiopia, Sudan, and South Sudan, where I 
saw USAID leading the world's response to the continuing humanitarian 
need in East Africa. In Ethiopia, I saw our efforts to foster 
resilience to help that country withstand the future crises that very 
likely will come.
    I have traveled to Mexico and India, where I met with our partners 
from both the public and private sectors. It was there that I saw 
glimpses of an exciting future for international development, where 
programs are more private-enterprise driven and our role is 
increasingly to use our skills, experience, and innovative know-how to 
help countries chart their own journeys to self-reliance and 
prosperity.
    In Iraq and Syria, I met with some of our military leaders. 
Together, we toured Raqqa, and I learned more about USAID's joint 
effort with the State Department and Defense Department to restore 
essential services to communities newly liberated from ISIS. In 
Switzerland, the United Kingdom, and Germany, I met with international 
partners, including a senior leader from Israel's Foreign Ministry, to 
share some of the new innovations in programing and policy we are 
applying to our work in development and humanitarian assistance, and to 
discuss areas of future cooperation. I also took the opportunity to 
encourage our fellow donors to take on a greater role in helping to 
meet the world's growing needs.
    In Germany, I met with our Mission Directors from the Middle East 
and Africa--as well as their counterparts from the State Department and 
DOD--to discuss how we can strengthen interagency cooperation. At the 
Munich Security Conference, I heard Vitali Klitschko, the Mayor of 
Kiev, speak about Ukraine's fight for freedom and democracy. I was 
reminded that we, too, were once a young nation inspired by the hope of 
a democratic future, but also confronted by numerous challenges as we 
strived to build our republic. As I listened to Klitschko, I was 
immensely proud of the work that USAID does to support people, all 
around the world, like him and the heads of the Euromaidan movement who 
aspire to freedom and citizen-responsive governance.
    In February, we announced USAID's new Mission Statement. It 
includes an explicit commitment to strengthening democratic governance 
abroad--a priority that I know from our discussions you share. This 
commitment has informed USAID's work from our creation; and under my 
leadership, it will continue to do so. Our FY 2019 Request includes 
targeted investments in Europe and Eurasia that will support strong, 
democratic institutions and vibrant civil society, while countering the 
Kremlin's influence in the region. In Venezuela, we will support those 
who are working for a free and prosperous future. We have requested 
robust funding for our democracy and governance programs in Venezuela 
that support civil society, the democratically elected legislature, and 
a free flow of information there.
    I have also met with people from across these United States. In my 
first few months, I have been to New York, Texas, Delaware, Iowa, and 
even my home state of Wisconsin. I have met with the Chamber of 
Commerce Foundation and spoken with business leaders, CEOs of American 
firms. All of them are eager to find ways to align with and enhance 
USAID's work, as well as invest in the rapidly growing markets that are 
most often the targets of our programing. I have met with researchers 
from American universities who are helping us tackle devastating 
challenges like the Fall Armyworm in Africa. I have also met with 
American implementing partners--contractors and grantees, faith-based 
organizations and for-profits--to explore ways we can improve our 
operations.
    On top of all that, I have been ``traveling'' internally, leading a 
broad agency Redesign effort through which we are re-examining nearly 
every aspect of our operations and structures in order to make sure we 
are as effective, efficient, and accountable to American taxpayers as 
possible.
     overview: a fiscally responsible budget for challenging times
    Mr. Chairman, Ranking Member, and Members, this is the first time I 
have had the honor of presenting the President's Budget. However, it is 
not the first time we have met with your offices to review the needs we 
see in the humanitarian and development sectors. We have also reached 
out to you and your staff to discuss our growing work in conflict, 
post-conflict, and otherwise fragile zones. I note that this Request 
would fund important efforts, such as the urgent work we are 
undertaking to help communities newly-liberated from ISIS's evil reign 
by restoring essential services to places like Raqqa.
    We acknowledge that this Budget Request will not provide enough 
resources for us to meet every humanitarian need or seize every 
international development opportunity. In truth, no federal budget in 
recent memory would be large enough to do so, and we would not suggest 
it wise to try to do so. We come to you with a Budget Request that aims 
to balance fiscal responsibility here at home with our leadership role 
and national security imperatives on the world stage.
                    optimizing resources and results
    Mr. Chairman, Ranking Member, and Members, we are committed to 
taking every prudent step to extend the reach and effectiveness of our 
taxpayer resources. We are working closely with the Department of State 
to encourage other donor nations and recipient countries themselves to 
increase their own contributions to the overall humanitarian and 
development effort. This includes efforts at strengthening domestic 
resource mobilization programs so that partners can more effectively 
finance their own development in the future. We are rethinking and 
streamlining our humanitarian assistance. We are taking steps to ensure 
our programs and procedures are more private enterprise-friendly so we 
can better leverage our resources, bring new ideas and partners to our 
work, and increase opportunities for American businesses. Through 
procurement reform, we are striving to become more flexible, and 
responsive and innovative in meeting humanitarian and development 
objectives, so our implementing partners can extend and improve the 
reach of USAID-supported initiatives. We are also striving to more 
closely align our resources with USG strategic needs, and are focused 
on measurement and evaluation to support that alignment. Finally, we 
are using the opportunity of our Redesign to ensure that our programs 
are of the highest quality and fully reflective of America's key 
foreign policy priorities.
                     encouraging others to do more
    As the President has said, ``America first does not mean America 
alone.'' We can and do embrace opportunities to partner with others and 
we expect others to do their part in tackling challenges that affect us 
all. Working with the State Department, we are using every opportunity 
to push our donor partners to do more in helping to mobilize 
resources--including increasing their financial contributions.
    To put things in context, in 2016, the U.S. provided nearly $34.5 
billion in Official Development Assistance (ODA), almost one quarter of 
all ODA. In terms of humanitarian assistance, the U.S. continues to be 
the largest single donor. Our leadership role as a donor is a point of 
pride. It is part of our national character--our readiness to stand 
with other countries and peoples when crisis strikes. But leadership 
also means leading others to do more and setting the expectation that 
other donors will do their fair share to advance shared priorities, 
while also expecting improved performance by implementing partners, 
including the U.N., to maximize the benefit for recipients of 
assistance.
    We've recently seen a number of key allies increase their ODA 
contributions. For example, the Republic of Korea has contributed 
significant amounts to shared priorities like Power Africa, global 
health security, and humanitarian assistance to Syria. It has increased 
its aid budget by 30 percent, a feat recently matched by the United 
Kingdom. Germany has become one of the world's leading humanitarian 
assistance donors, providing a record $2 billion in 2017 to assist 
people from places like Syria, Yemen, the Sahel, and Burma. And India, 
which not so long ago was itself a major recipient of traditional 
assistance like food aid, is boosting its contributions to key 
initiatives. Under Prime Minister Modi, India has become the fifth-
largest donor to development and reconstruction in Afghanistan.
                     domestic resource-mobilization
    Another way in which we are working to make our resources go 
further is through our support for domestic resource-mobilization 
(``DRM'') projects. Through DRM, we help strengthen the capacity of our 
partner nations to finance and lead their own development programs. The 
Budget requests $75 million for strategically-managed DRM assistance. 
From the date of my nomination hearing just over a year ago, and nearly 
every day since, I have said I believe the purpose of foreign 
assistance must be ending its need to exist. Our assistance should be 
designed to empower people, communities, and government leaders on 
their journey to self-reliance and prosperity. These initiatives can 
help our partners to cut down on fraud, corruption, and abuse. They 
will also ensure that our investments produce sustainable results; they 
will ensure that our partners' ability to respond to the needs of their 
citizens will not fade away as our formal government support recedes 
gradually.
    Our DRM assistance in the nation of Georgia is a good example of 
what can be achieved. USAID provided DRM assistance of $12 million to 
Georgia over five years. The result was an additional $3 billion in tax 
revenue since 2004. By 2017, revenue had increased by 900 percent. As 
part of this effort, we helped streamline Georgia's customs process and 
made it easier for new businesses to register. We supported efforts 
that created an electronic tax-filing system and fixed crippling flaws 
in the Georgian tax refund process. We also took steps to help them cut 
down on corruption--encouraging ``zero tolerance'' policies, harsher 
punishments for violators, and new training programs.
    Georgia's investment in their own development also grew. Social-
welfare spending increased by 550 percent. Education investment grew by 
1,700 percent. In other words, through our DRM assistance, we helped an 
important partner accelerate its own journey to self-reliance and 
prosperity.
                 1strengthening humanitarian assistance
    In Yemen, 17.8 million people--the largest number in the world--are 
facing severe food insecurity. We remain deeply concerned about the 
humanitarian situation in Yemen and the risk of an even worse crisis at 
the port of Hudeidah. We the Department continue to call on all parties 
to de-escalate and ensure unfettered humanitarian access to the Yemeni 
people. While this access has been a challenge, U.S. Government 
humanitarian partners are working to reach as many people as possible. 
U.S. partner, the U.N. World Food Program (WFP), distributed emergency 
food assistance to just under 7 million people in April with USAID 
funds-representing more than 99 percent of the agency's targeted 
beneficiary caseload. Providing humanitarian assistance in places like 
Yemen is central to our Agency's Mission, and a clear display of 
American generosity. It is also dangerous work, as witnessed by the 
January terrorist attack on Save the Children's offices in Afghanistan, 
in which four of our partners were brutally murdered, or the 28 aid 
workers who were killed in South Sudan during 2017. Our commitment to 
this work is reflected by the inclusion of our international disaster 
assistance to help alleviate humanitarian crises in our new Mission 
Statement. For years, the responsibilities of the two offices leading 
the bulk of USAID's humanitarian assistance--Food for Peace and the 
Office of U.S. Foreign Disaster Assistance (OFDA)--have sharply 
increased. While they have often coordinated, they have worked in 
parallel, with separate budgets, separate oversight, and different 
strategies. When you would visit a camp in the field, they would be 
together on the ground, serving the same community shoulder-to-
shoulder--one providing food, and the other tarps and blankets, often 
using the same partners.
    Before I arrived at USAID, the Agency commissioned an assessment of 
our humanitarian programming, conducted by an outside firm, but led by 
career staff, which concluded, not surprisingly, there were better ways 
to ensure the nimble, effective, and efficient delivery of our 
humanitarian assistance. The Request before you proposes to fund all of 
USAID's humanitarian assistance from one account, and imagines a day 
when USAID's humanitarian food and non-food functions are consolidated 
into a single entity within the Agency. This will ensure a seamless 
blend of food and non-food humanitarian USAID assistance, better 
serving our foreign-policy interests and people in need. In the end, we 
will have a shared strategy, integrated programs, and joint monitoring-
and-evaluation systems that will provide greater efficiency and 
accountability for the American people. As part of our effort to 
consolidate USAID's humanitarian functions, we will also consolidate 
our whole-of-Agency efforts to strengthen partner resilience for 
improved food security. This will help break the cycle of recurrent and 
protracted crises, and reduce our own future humanitarian liabilities.
              strengthening our private-sector engagement
    Fulfilling our responsibility to taxpayers is about much more than 
asking other donors to increase their contributions, helping countries 
to finance their own development, or streamlining our humanitarian 
assistance. In our case, it also means strengthening private-sector 
engagement through true collaborations. At USAID, we are reaching 
beyond contracting and grant-making. We are exploring the possibilities 
for co-creating and co-financing programs, tools, and initiatives with 
private-sector partners. We're embracing the ingenuity and the 
entrepreneurship that private-enterprise offers, and harnessing the 
efficiencies and effectiveness that private-sector competition and 
market forces can unlock. And this is something private-enterprise is 
eager to do alongside us. Additionally, we will partner closely with 
the proposed new U.S. Development Finance Institution, which will only 
succeed through strong institutional linkages with USAID, to further 
these efforts with financing tools, and have a whole of government 
approach to private sector engagement.
    For example, I recently met with the CEO of a large multinational 
company, and he expressed his eagerness to work with us in countries 
like South Africa, which, in part because of our work, are becoming 
more suitable for American companies to invest. This firm and others 
are eager to invest corporate funds in USAID-led initiatives, as well 
as apply entrepreneurship and enterprise-driven techniques, such as 
impact investing and blended-finance mechanisms, to development 
challenges.
    Another example is the new ``Smart Communities Coalition'' that we 
helped create alongside MasterCard to modernize assistance to refugees 
and internally displaced persons. Traditionally, when a displaced 
family first arrives at a camp or settlement, humanitarian workers do 
their best to see that they are immediately registered and provided 
modest food, water, and medical attention. Residents receive Residents 
receive services from twenty or more different humanitarian aid groups, 
each of which uses their own unique method of tracking who received 
what service when. As you can imagine, this is a recipe for potential 
corruption and abuse.
    Our partnership with the Smart Communities Coalition will transform 
this process for more than 600,000 people. Our implementing partners at 
the camps will harness the Internet and smart-card technology to do 
their jobs more efficiently, and at a lower cost. Displaced families 
will have better access to essential services, such as power. Just as 
important, in these ``smart communities,'' we will be better able to 
track our assistance, decrease fraud and abuse, and provide services 
more quickly and cheaply. This is the power of private-enterprise 
making us better at meeting our core mission.
   procurement reform: encouraging new partners and new partnerships
    Yet another way in which we aim to make our precious funding go 
further is by using innovative procurement tools to increase 
competition among potential partners. In FY 2017, around 60 percent of 
USAID funding went to just 25 organizations. We are exploring new ways 
to harness new partners and ideas, and lower the ``cost'' and barriers 
to entry for potential partners as they come forward. We are 
encouraging entrepreneurship and ingenuity in program design, building 
out technical expertise in areas such as small grants, and embracing 
approaches that allow us to move more quickly in crafting initiatives 
and considering submissions.
    For example, last Fall, when the Vice President announced the U.S. 
government's intent to support persecuted religious minorities and 
other communities in Iraq, USAID was able to move from ``ideas to 
action'' by using a Broad Agency Announcement (BAA)--a tool you have 
supported--that can reduce lead times. This tool allows us to launch a 
competitive process that builds on collaborative research and 
development to address a specific challenge.
    USAID mobilized quickly to respond to this important call from the 
Vice President and members of Congress from both sides and both houses. 
We know that protecting freedom of religion and--as in this case, 
religious pluralism--is of paramount importance. We also know that the 
displaced religious and ethnic minorities will need support as they 
return to their ancestral homelands.
    To do this, USAID has taken a short-, medium-, and long-term 
approach: First, in December 2017, through our Office of Foreign 
Disaster Assistance, we directed $6.6 million to provide internally 
displaced persons (IDPs) in the Ninewa Plains and Sinjar with 
essentials such as shelter, water, and hygiene services. Second, in 
January of this year, we worked with the United Nations Development 
Programme (UNDP) to focus $55 million (of our $75 million overall FY 
2017 contribution) on 11 of the hardest-hit minority communities in the 
Ninewa Plains and Sinjar. We also imposed strict oversight of these 
funds, to ensure that the assistance reaches these communities. At the 
same time, we directed $4 million in health-related programming to the 
same regions.
    We are still working through the procurement process for additional 
funds to support these communities, but I expect to be making an 
announcement by the end of the month naming our partners and projects. 
We're also already planning our future funding, including in fiscal 
years 18 and 19, to continue to support these endangered communities.
    We acknowledge that for victims of genocide, no assistance can come 
fast enough. But we will continue to assist victims of persecution in 
Iraq until it's no longer needed. I give you my word on that.
    As another example, last Fall, I announced the world's first 
Development Impact Bond (DIB) for maternal and child health--USAID's 
second overall DIB, and one of the world's largest. Under this new 
model, private capital funds the initial investment, and USAID pays if, 
and only if, the carefully defined development goal is achieved.
    In this case, we are working to strengthen maternal and newborn 
health care facilities in Northern India. Our partners at the UBS 
Optimus Foundation are raising capital from private investors to 
finance improvements to over 400 private health facilities. Teams at 
these 400 facilities will help appropriately train staff, and make 
life-saving equipment and medicines available. Each facility will then 
undergo a rigorous review process to ensure it has met the appropriate 
accreditation standards. If the facilities meet those standards, USAID 
and our matching partner, Merck for Mothers, will pay the UBS Optimus 
Foundation. The DIB allows us to incentivize results, and lessen 
taxpayer risk.
    I am also working to ensure that our partners operate with the 
highest level of integrity and accountability. We are learning from our 
past experiences. As many of you are aware, we have encountered 
challenges with the Global Health Supply Chain contract and I am 
committed to raising the standards of accountability and apply lessons, 
even hard ones, in the future. And on
    March 9, I met with representatives from InterAction, the 
Professional Services Council, and United Nations agencies to make 
clear to our partners that USAID will not tolerate sexual harassment or 
misconduct of any kind. In addition, our Executive Diversity Council 
recently met to take up this important topic. Coming out of that 
meeting, I directed the Agency's senior leadership team to take 
mandatory sexual harassment training, and asked them to communicate to 
our partners the seriousness with which we take this issue. I also 
formed a new Action Alliance for Preventing Sexual Misconduct, chaired 
by General Counsel David Moore, which will undertake a thorough review 
of our existing policies and procedures to identify and close any 
potential gaps, while strengthening accountability and compliance, in 
consultation with our external partners.
                  redesign: building tomorrow's usaid
    Being good stewards of taxpayer resources cannot be a one-time 
thing, or merely a set of steps aimed at a single budget. We need to 
undertake experience-informed, innovation-driven reforms to optimize 
our structures and procedures and maximize our effectiveness.
    Over the last few months, we have been working to roll out Agency-
wide projects through the Redesign that will help to institutionalize 
some of these ideas. This effort began in response to an Executive 
Order from the President, but, even if that had never happened, I would 
still have argued for the reforms we are planning. Over the last six 
months, I and others at USAID have met with Congressional committees 
and personal offices more than 40 times to discuss our plans. Your 
input, and that of your staff, has been invaluable to our process, and 
I am deeply appreciative of your engagement and support.
    The Redesign includes many of the proposals I have shared today, 
including procurement reform, as well as streamlining our humanitarian 
assistance programing. It also includes working with the administration 
on cross-cutting government reorganization proposals, such as the new 
U.S. Development Finance Institution and the consolidation of small 
grants functions and expertise into USAID.
    We have also made a concerted effort to address all Government 
Accountability Office (GAO) and Office of the Inspector General (OIG) 
audits. Just six months ago, we had almost 100 backlogged 
recommendations. I set an ambitious goal of closing all of them within 
six months. I'm proud to say that by May 28, we achieved that goal. 
With this backlog under control, USAID is fully committed to staying on 
top of these audits. We have put in place processes and procedures to 
ensure we are addressing and implementing new recommendations in a 
timely manner.
    Another example of efforts we are undertaking through the Redesign 
are the metrics that we have developed. If the goal of our development 
assistance is to help partner countries create the commitment and 
capacity needed to take on their own development journey, we should 
focus our assistance on interventions that will best help them get 
there. We have developed metrics that will serve as mileposts to help 
us understand where our partners are going, and what role we might play 
in their journey.
    We will continue to consult with you on all of the work that is 
taking place through the Redesign effort. All of this is in service of 
helping our partners help themselves. All of it is to provide the 
proverbial ``hand-up.'' And all of it points towards a world where 
foreign assistance is no longer needed--a world where people are self-
reliant, prosperous, and capable of crafting their own bright future.
                               conclusion
    Mr. Chairman, Ranking Member, and Members of the committee, I 
believe we are shaping an Agency that is capable of leveraging our 
influence, authority, and available resources to advance U.S. 
interests, transform the way we provide humanitarian and development 
assistance, and, alongside the rest of the world, help meet the 
daunting challenges we all see today. With your support and guidance, 
we will ensure USAID remains the world's premier international 
development Agency and continues the important work we do, each day, to 
protect America's future security and prosperity. Thank you for 
allowing me to speak with you today, and I welcome your questions.


    The Chairman. Thank you very much. I appreciate your 
testimony and service.
    With that, I am going to reserve my time, as I normally do, 
and turn to Senator Coons.
    Senator Coons. Thank you, Chairman Corker.
    And as you may well know, Administrator Green, we are in 
between two votes. So I would expect many other members, 
including the ranking member, will be here at some point when 
those votes conclude. But I am grateful for the opportunity to 
proceed directly to questioning much more quickly than I 
thought I might otherwise.
    It is always good to see you. I am grateful for your 
lengthy service to our country, both as a Member of Congress, 
as an Ambassador to Tanzania, now as USAID Administrator.
    And I want to specifically thank you for your clear voice 
on the human rights crisis of the Rohingya. Later today, on a 
bipartisan basis, the Senate Human Rights Caucus that I co-
chair with Senator Tillis is hosting an event about the 
Rohingya and continuing our effort to try and elevate the focus 
on that.
    And the clarity of your responsiveness on concerns about 
sexual abuse and what is going to be done within USAID, within 
the agency you are charged with leading around that I just want 
to celebrate.
    Let me just say broadly not directed at you, Mr. 
Administrator, that it is very frustrating to me as an 
appropriator responsible for the State Department and USAID 
that the Trump administration once again ignored the will of 
Congress and submitted a budget request nearly identical to the 
previous year, which was last year rejected on a bipartisan, 
bicameral basis. And the budget request--I am concerned about 
the message it sends about the value of democracy because it 
significantly under-invests in democracy, and I think that 
sends a bad message about our values around the world.
    I am going to work with my colleagues on the State and 
Foreign Ops Subcommittee to reject some of these cuts to 
development and diplomacy, and I look forward to working with 
you to make sure that what we do can be well and appropriately 
spent.
    Let me focus my few questions on the Sahel and challenges I 
think we see in a number of places on the continent.
    Last year, the administration pledged up to $60 million in 
support the Sahel G-5 Joint Force initiative on top of other 
security assistance. And in April, I led a bipartisan 
delegation that visited Niger and Burkina Faso, along with 
Senators Flake and Booker, chair and ranking of the Africa 
Subcommittee. And I came away convinced gains made by the G-5 
Sahel Joint Force will not be sustained without comparably 
strong investments in development and democracy.
    Do you plan to increase funding for democracy and 
development programs in the Sahel to address the underlying 
sources of instability and fragility in these five states? And 
have you been consulted in the interagency process regarding 
the development of a comprehensive approach to stability in the 
Sahel that would partner development and democracy programming 
with security programming?
    Mr. Green. Thank you for that question. I share your 
interest and concern for the Sahel. I am planning on making my 
own trip, and Niger is the current country that we are planning 
to visit in coming weeks.
    What we have tried to do so far is to, first off, map all 
of the projects that we have going on in the region--and there 
are many in different sectors--and then try to do a better job 
of pulling them together.
    But you are right on how you characterize the challenges 
that the region faces. It is vulnerable to chronic shocks that 
very quickly bring about humanitarian crisis. We are certainly 
supporting the region through our humanitarian programming. But 
part of this is we all want to get in front of it. So in our 
redesign, as you know, we are trying to strengthen the 
resilience portion of our humanitarian work, and I can think of 
no better place to focus that resilience work than in this 
region. We currently have some important promising programs 
underway. This is a President's Malaria Initiative country, and 
I am looking forward to going to see that in action, as well as 
a Feed the Future country. We are working on strengthening 
democracy and civil society. It is a big battle. There is a lot 
of work to do and a lot of threads to pull together, but it is 
something that is very important.
    I recently met with the Ambassador to Niger. We had some 
conversations. I learned more about the work that is being done 
by the G-5. A lot of the work that they have been doing has 
been security-led, and security is awfully important. But long-
term security requires strength of governing institutions. And 
so that I think is the piece that is important for us to be 
working on.
    I have also heard that a number of countries from the EU 
are strengthening now their development side of work, which is 
good news. So as I head to the region, I plan on working 
closely reaching out to our partners and looking for ways to 
coordinate and leverage each other's investments. 
Interestingly, Brussels is opening a stronger development 
presence there and so is Luxembourg and the Netherlands. So I 
think there are some real possibilities, but as you point out, 
these are in many cases largely ungoverned spaces and there is 
a lot of work that we need to do.
    Senator Coons. Well, I had some lengthy conversations just 
yesterday with Senator Graham and with your immediate 
predecessor, and I have talked to a number of members of this 
committee. I think we should be making an effort towards an 
authorizing structure for a fragile state partnership with some 
of our European allies, hopefully with a strengthened DFI that 
can help crowd in private capital, but frankly led by the 
development mission you are responsible for.
    Let me make two more brief comments, Mr. Chairman, if I 
might. I see the press of other questioners.
    The Chairman. The meeting may end very shortly.
    Senator Coons. Just briefly on Niger, the population is 70 
percent illiterate. 40 percent of female primary school 
students do not reach 6th grade. I hope you will consider more 
dedicated education funding in Niger.
    I also had some questions about opening a USAID permanent 
mission in Niamey because I think it is difficult for staff 
located in Ghana or Senegal to really grasp and engage in terms 
of what is on the ground. And I hope through appropriations to 
give you the tools to do that.
    Let me just ask about rescissions to the Complex Crisis 
Fund because that may be a live issue this week here in the 
Senate. USAID has used the Complex Crisis Fund for 8 years to 
respond to emerging or unforeseen crises in more than 25 
countries. I think it is a valuable prevention tool. The 
pipeline is very small because it gets spent. And as part of 
your transformation efforts, you have proposed creating a 
bureau for conflict prevention and stabilization. But the 
administration proposed rescinding $30 million from the Complex 
Crisis Fund, a proposal we may well vote on shortly.
    Are you concerned about the proposed rescission to this 
fund, and are you concerned that you're prioritizing conflict 
prevention and this new bureau creation at exactly the same 
time we may be zeroing out the primary account USAID uses to 
deal with conflict prevention?
    Mr. Green. Thank you for the question.
    First, as a general matter, obviously we will implement any 
rescissions that are passed by Congress applicable with law.
    Look, we will never have all the resources that we need to 
take on every challenge and seize every opportunity. We will 
work, as best we can, to make the resources that we have go as 
far as they possibly can to deal not only in the immediate 
region of the Sahel but more broadly with a number of 
challenges that we see.
    Senator Coons. Well, thank you. I appreciate your 
professionalism, and you are in an awkward spot in terms of the 
priorities. You know, I will just close by saying, as I 
mentioned in my opening, that I think the President's budget 
request, which proposes a nearly 40 percent cut to democracy 
and governance funding globally and nearly 60 percent to the 
democracy and governance funding in Africa is a profound 
misreading of where we should be prioritizing our investment. 
And I have confidence and optimism that we will both be able to 
provide the resources you need and that you and USAID will do 
an excellent job of leading on this issue. Thank you, Mr. 
Administrator.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I know Senator Coons and myself both were involved in Power 
Africa, and we have had the person who is in charge of that on 
your behalf into the office on a couple of occasions.
    I know there are goals to have 50 million beneficiaries by 
2020, installed generation capacity of 20,000 megawatts. More 
than half of the connections are from solar lanterns, and it is 
projected that about 40 percent of the required target will be 
done by solar lanterns.
    I know that the thrust had been to have power generation 
that was tariffed and sustainable. How do you feel about where 
we are going with Power Africa today? And is the solar lantern 
component something that we feel like is what we are really 
striving to achieve?
    Mr. Green. Thank you, Senator.
    Power Africa is one of those great tools that I did not 
really appreciate until I arrived at USAID. It has helped to 
produce more than $14 million in leveraged investments, 12 
million electrical connections on the African continent, and 
closed 95 projects. So it is a great tool that we have. We have 
recently expanded its reach through MOUs with the Government of 
Israel and the Government of South Korea.
    In terms of the approach to technologies, it is all the 
above. We are technology neutral. So so much of the work that 
we do is private sector-driven. It is the investments that come 
towards us. We work with whatever means we can to close deals 
that will rapidly expand access to reliable, affordable energy 
for African citizens.
    The Chairman. Yes, but are we doing what we set out to do? 
I mean, this was to be something that drove economic 
development, people's ability to have health care, education. 
Or are we just hitting numbers and really not driving exactly 
what we set out to do on the front end?
    Mr. Green. I think we are having enormous success with 
Power Africa. We are looking to ramp it up and expand it even 
more. We have Power Africa 2.0 that we recently unveiled, and 
quite frankly, we are trying to take the lessons learned and 
bring them to other regions' power needs in places like 
Southeast Asia and Asia. So I think it works because it 
harnesses the power of the private sector, but we certainly can 
be more aggressive in how we push things forward. But I do 
think it is making a difference. It is certainly a tool that is 
popular with our partners and leaders on the continent.
    The Chairman. I think it is an incredible effort. I just 
want to make sure we are not just hitting numbers, but we are 
driving what it is we want to really see with so many people in 
Africa not having power.
    Mr. Green. If I can, Senator. Something that is important I 
think to bring up at this point too. Another importance of 
Power Africa is the model that we use in driving it. So as 
everyone on the committee knows, there are a couple of 
different development models that are out there. There is the 
model that we put forward, the model to self-reliance, in which 
we incentivize capacity building and reform in our partners so 
they take on those conditions that block private investment and 
stop them from rising. There is a competitor out there, the 
Chinese model, in which they mobilize lots of resources up 
front oftentimes with unsustainable debt at the back end. And 
the competition is oftentimes China offers easy money, and that 
easy money is alluring many times to countries under economic 
and political pressure.
    And so one of the things that I think we need to do a 
better job of is making clear what the differences are, why it 
makes sense to go with the Power Africa model. It does involve 
institutional reform and change and sometimes tough choices, 
but in the long run, we all know that it brings about 
sustainable development and independence. And we need to make 
clear what the other side offers and the consequences over the 
long haul.
    The Chairman. I know you have been working some with DOD 
and I understand you all have a very good collaboration 
underway. And just for the record, I would love for you to have 
the opportunity to talk a little bit about that and how you see 
that evolving.
    Mr. Green. Thank you. It is another lesson in realization 
since I have arrived at the agency. Our working relationship 
with DOD is tremendous. It is very close. We are in constant 
consultation. From the stabilization assistance review, we do 
stabilization work--we are collocated in parts of the world--to 
the work that we do back here. We have 23 staff who are 
embedded development advisors in the combatant commands. And so 
DOD turns to us all the time for development ideas and counsel. 
In disaster relief, they are the ones who make possible so much 
of what we do.
    Last year, a highlight during a moment of crisis for me was 
the fact that when that second earthquake hit Mexico City, I 
was asked by the White House to be able to mobilize a search 
and rescue team immediately, and thanks to the work that we do, 
our foreign disaster assistance team with DOD, we are able to 
get a search and rescue crew in Mexico City before breakfast 
the next morning, a sign of how closely we work both in the 
humanitarian field and in the stabilization field as well.
    The Chairman. And then again, because I know this is a 
major focus, your transformation efforts. I know you referred 
to that a little bit in your opening comments, but would you 
like--since we have time for you to do so, would you like to 
expand a little bit on what is happening in that regard?
    Mr. Green. Thank you. I certainly would.
    Since the day I arrived at USAID, my top purpose, if you 
will, is to turn to our staff, solicit their ideas, new ideas, 
ideas that have been around for a while, and look for ways to 
essentially build the USAID of tomorrow. We believe that we are 
the world's premier development agency. And the question that I 
posed to my staff is what do we have to do to be the world's 
premier development agency 20 years from now. And that is 
really what we are trying to do.
    We have undertaken 27 projects or identified 27 projects 
into five outcome streams, all led by career staff. And we are 
working to reshape ourselves in line with the challenges that 
we see and also reshape ourselves in our programming in line 
with the tools that we have and the opportunities that we see. 
And so while we are still in the process--we are in the phase 
that we call ``transformation,'' which is really moving from 
whiteboard to implementation--I am very excited about the work 
that the team has done. I am grateful for the input that we 
have received from you and your staff and the staff of this 
committee. We have lots of work to do, but I do believe that we 
are getting to a place that will really extend our reach and 
make us more nimble and really help us apply development tools 
in a more effective, more efficient manner.
    The Chairman. Well, thank you.
    And I will turn to Senator Menendez.

               STATEMENT OF HON. ROBERT MENENDEZ
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. In the interest 
of time, I ask unanimous consent that my opening statement be 
included in the record.
    [The prepared statement of Senator Menendez follows:]


             Prepared Statement of Senator Robert Menendez

    Thank you, Mr. Chairman for holding this hearing. It is critical 
that this committee conduct oversight in our jurisdiction. Again, Mr. 
Chairman, I reiterate that I believe this committee should be holding 
more hearings on any number of pressing topics with witnesses from the 
administration. From North Korea to Russia to a crisis on our very own 
border that is tearing families apart and damaging our moral leadership 
and credibility on the global stage, this committee must do its job.
    Today we will focus on the President's budget--or lack thereof, for 
the United States Agency for International Development as well as other 
development issues.
    Before I delve more into that, however, it would be irresponsible 
in this context not to highlight President Trump's irresponsible and 
uninformed declaration on foreign aid yesterday. He said quote: ``when 
countries abuse us by sending people up--not their best--we're not 
going to give any more aid to those countries. Why should we?''
    I'd like this committee to let that sink in. As if these countries 
were ``sending'' these children, these families, who are in fact 
fleeing for their lives. Why should we send them aid? Why? To support 
their own efforts to lift themselves out of poverty. To support efforts 
to improve security and rule of law so these very people won't be 
fleeing in the first place. I will get more into that during my 
questions.
    Now, I greatly appreciate the Administrator's interest and 
willingness to testify. I know that you, like me, fundamentally believe 
in the core mission of USAID and the power of development, good 
governance, and democracy to lift people out of poverty and ultimately 
promote resilience, prosperity, and security throughout the world. 
Which is why I assess that the proposed FY 2019 budget is, frankly, an 
absolute joke and one that does not even come close to fulfilling the 
objectives of this administration's own national security strategy.
    Adequately funding an independently functioning USAID is essential 
to promoting our foreign policy objectives, delivering emergency 
assistance and ensuring sustainable long-term development to put 
countries on the path to self-reliance.
    I am fundamentally disappointed at the administration's proposal to 
consolidate international development accounts; abruptly close more 
than 20 USAID missions; slow-walk the allocation of congressionally 
directed funding.
    I am also eager to gain a better understanding of your vision of 
redesigning USAID. While the bar of the State Department redesign was 
low, I understand that the process you have undertaken reflects more 
input from career public servants, stakeholders and advocates and I 
appreciate the proactive engagement you personally have had with 
Members and staff.
    However, I still have remaining questions. I worry this redesign 
reflects a shift in the construction of the core competencies of USAID, 
which have historically been--and I believe must remain--building 
institutional capacity, improving good governance, and investing in 
long-term development.
    That said, I am generally supportive of your efforts to support 
countries on their ``journeys to self-reliance.'' Specifically, I have 
long advocated for a full set of tools to advance our country's 
economic statecraft, which is why my staff and I have been so engaged 
with the Chairman and Senator Coons' in their efforts to reform our 
Development Finance Institutions through the BUILD Act. As you know, I 
was disappointed you were not available for our hearing on the bill 
last month and look forward to your thoughts on the impact this will 
have on USAID.
    Finally, I appreciate that in your testimony you note the 
importance U.S. global leadership. Our global leadership stems from our 
values, which should drive our foreign policy efforts, much as they 
should drive our domestic agenda. Furthermore, our development agenda 
must be in concert with broader foreign policy and national security 
goals.
    Our military is the strongest in the world, but history proves and 
its own leaders acknowledge it cannot be the only face of the United 
States abroad. For example, we cannot consolidate military gains 
against ISIS or other foreign terrorist organizations if we are not 
also supporting communities develop sustainable, accessible, economic 
livelihoods, particularly for youth and marginalized communities that 
will ultimately make them prosperous, secure, and resilient.
    We must promote programs that make education and economic 
enterprises more accessible to women and girls. We must utilize our 
incomparable scientific and technological capabilities to partner with 
private investment and local organizations to improve access to 
electricity, water, and vital health therapies.
    Finally, as we appropriately respond to natural disasters with 
humanitarian and food relief, we must invest in addressing the manmade 
causes of forced migration including poverty, violence, and weak 
systems of governance. Tragically, around the world and at our very own 
border we see what can happen when we do not.
    I want to thank you again for coming before the committee and 
generously extending your time, and your staff's time, over the course 
of the past year. As we move forward, I look forward to working with 
you, the administration and critical voices across the international 
development community to diligently ensure USAID has what it needs to 
be successful.


    Senator Menendez. Mr. Chairman, for now, I am going to ask 
the Democratic Leader to object, while hearings are taking 
place, to votes on the floor. Some of us have to cast votes, 
and the reality is that it is unfair to Members to have 
hearings going on while votes are going on on the floor. So 
that will solve hopefully the problem.
    Administrator, I understand that you and other members of 
the cabinet are often playing catch-up to policies announced 
via tweet. But as I mentioned in my opening statement--well, 
the opening statement you did not get to hear--the President 
said he would seek authorization that would cut off aid to 
countries who send asylum seekers to the United States. Do you 
believe the countries in the Northern Triangle are sending 
people to the United States?
    Mr. Green. Senator, I have had no communications from the 
White House on this subject. So I would certainly refer you----
    Senator Menendez. I am asking from your experience. Do you 
believe that countries in the Northern Triangle are sending 
people to the United States?
    Mr. Green. Well, so I would refer you to them with specific 
reference to that statement.
    What I will say is that since the day I arrived and before, 
we have been working to address those challenges in the 
Northern Triangle and in the region which we think may be 
drivers for those especially unaccompanied minors----
    Senator Menendez. I am sorry to interrupt to you because I 
only have limited time, and I do not have a good disposition 
this morning.
    Do you believe that the countries of the Northern Triangle, 
the governments of the Northern Triangle, are sending people to 
the United States, that they are formally sending people to the 
United States? Yes or no.
    Mr. Green. Senator, I believe that there are governing 
challenges in these countries that we can partner with them to 
take on, which will create the conditions----
    Senator Menendez. Do you believe that cutting off aid to 
countries in the Northern Triangle would ultimately benefit the 
United States?
    Mr. Green. I believe that all of our assistance programs 
should serve our national interests. I believe that they do. I 
am certainly open to reviews of our assistance, which we do 
continuously all the time. Again, we work hard to make sure 
that our assistance programs are deployed in ways that serve 
our national interests as well as----
    Senator Menendez. One of the things I have always 
appreciated about you in the past is that you have been a 
pretty straight shooter. One of the things I do not appreciate 
about your answers right now--it sounds like you have been 
engrained with the State Department speak, which is to say a 
lot but say nothing. I asked you a very specific question. Do 
you believe that cutting off aid to countries in the Northern 
Triangle would ultimately benefit the United States?
    Mr. Green. Again, Senator, I believe that all of our aid 
programs need to be focused on challenges that we see and serve 
the best interests of the U.S.
    Senator Menendez. Do you believe that what we are doing in 
the Northern Triangle serves the interests of the United 
States?
    Mr. Green. Our assistance programs?
    Senator Menendez. Yes.
    Mr. Green. At this point I do, yes.
    Senator Menendez. Well, then if you believe that, cutting 
off aid to them would not be a good thing.
    Mr. Green. Well, the particular programs that I am aware of 
that USAID is responsible for--we are obviously not responsible 
for all the programs, but we believe that they are making 
progress and helping to create the conditions----
    Senator Menendez. Do you believe that cutting off programs 
that support economic development and the rule of law reform is 
in the national security interests of the United States?
    Mr. Green. You know, I will defer to the State Department 
and the National Security Council for statements on national 
security interests. What I will say is that the programs that 
we do, we work very hard to make sure that they serve our 
interests.
    Senator Menendez. Let me turn to another. All of those 
answers are unsatisfactory to me.
    Administrator, the committee is soon going to mark up the 
BUILD Act, a bill to reform and modernize U.S. development 
institutions. I am deeply disappointed you were not available 
to testify on something that is so critical to development 
assistance in our country.
    In March, you and I discussed the importance of ensuring 
the new Development Finance Corporation has a strong 
development mandate and that achieving development outcomes 
that improve the stability and sustainable growth of host 
countries where projects are conducted is what guides the 
mission of this agency.
    If the development credit authority is moved from USAID 
into the new DFC, do you believe that the DFC's financial tools 
will still be available to USAID's mission and staff so that 
they can successfully leverage necessary tools in the field?
    Mr. Green. Thank you for the question.
    You are touching upon an extraordinarily important point. 
It is not simply money that flows into a country. It is what it 
goes to and what it is that it funds. And DCA is obviously a 
very important tool. In our structure, it is owned by our 
missions and staff overseas. So what we have said consistently 
is that it is important that tool continue to be available to 
the development experts that we have at USAID out in the field. 
And so what we have done is urge those who are involved in the 
legislation to reinforce the linkages that will enable that to 
happen. So that is how I view this.
    I do believe as a general matter that the concept of a DFI 
is a constructive one, is a good one. I have written in favor 
of it over the years. It is making sure that it is closely 
linked to development that I think will determine its success.
    Senator Menendez. So do you believe that the financial 
tools, as it is structured under the bill, will still be 
available to USAID's missions and staff so that they can 
successfully leverage necessary tools in the field? Yes or no.
    Mr. Green. First off, I know the legislation is being 
considered right now, and I know that there are efforts to 
create----
    Senator Menendez. As written, Administrator. As written. 
Yes or no.
    Mr. Green. Senator, as I understand, the legislation is 
evolving and moving. What we have simply suggested and urged is 
that the linkages are enshrined, institutionalized the best 
they can.
    Senator Menendez. That is the most unresponsive set of 
answers that I have had from someone before this committee. I 
do not know whether you are purposely choosing to be 
unresponsive, but it is out of character for you and is really 
disappointing to me.
    Who is next here? Senator Kaine?
    Senator Kaine. Administrator Green, I want to just continue 
on the Central America theme. As you know, I lived in Honduras 
back in 1980-1981 and with many colleagues on this committee am 
really concerned about the situation on the border now. Today 
is World Refugee Day. June 20 every year, we think about the 
needs of refugees around the world. So it is particularly 
timely with the situation on the border.
    USAID is a key implementer of programs under the U.S. 
strategy for engagement in Central America. And those programs 
in the Northern Triangle include a focus on judicial reform, 
job creation, and violence prevention efforts. I think you 
testified in response to Senator Menendez's questions that you 
believe that USAID's focus on those areas is not only in the 
interest of those countries but also in the interest of 
American policy. Would you agree?
    Mr. Green. Yes.
    Senator Kaine. How do investments in job creation, judicial 
reform, and violence prevention help the U.S.?
    Mr. Green. Thanks for the question.
    In a number of ways. First off, creating economic vibrancy 
and opportunity in those countries is good for commerce. So it 
is good for U.S. commercial and trade interests.
    Secondly, it addresses some of the drivers that we believe 
contribute to irregular migration by creating opportunities 
back home and, related to that, taking on some of the 
challenges like transnational crime and lack of safe areas, 
safe spaces that families often encounter in some of these 
countries. So we think that they are not only in the interest 
of these countries but, again, we think good for the U.S.
    Senator Kaine. So the USAID investments in job creation, 
judicial reform, violence prevention help the stability of 
these countries, El Salvador, Guatemala, and Honduras. But they 
also reduce the pressure to migrate and leave and go elsewhere. 
So they are good for those countries, and they are good for the 
United States, too.
    Mr. Green. I believe so, yes.
    Senator Kaine. And I echo--and it would sound like you 
would as well--the concern that Senator Menendez has. The 
fiscal year 2019 budget proposes 30 percent cuts to these 
funds, a significant reduction in funds that are going to the 
worthy USAID programs that you indicate. And if those programs 
are reducing the pressure for forced migration and increasing 
local stability and economic development, the cuts of those 
funds--I mean, it is just sort of a tautology. Reducing those 
funds are going to hurt these nations and also hurt American 
objectives, including the immigration issue. Correct?
    Mr. Green. Senator, we recognize that tough decisions have 
to be made and that there is a tough balance, needs at home 
versus American leadership overseas.
    Senator Kaine. And so let us talk about balance. I mean, if 
the issue is this challenge of kids coming to the border and 
this is now blowing up to be like the Birmingham children's 
crusade, children who in 1963 were attacked by guard dogs and 
fire hoses, and that grabbed the globe's attention--this is 
achieving that same kind of torque. And if we can slow that 
problem down by investing in these regions so that they can 
reduce violence and grow jobs, why would we want to cut the 
funds that do that, thereby exacerbating the very problem that 
the administration has created by its self-announced policy?
    Mr. Green. First off, as much as I believe in our programs, 
I am not going to tell you that they are the answer, obviously, 
to the challenges that are there. But in terms of the 
effectiveness of those programs, I do believe in them, and I do 
think the programs are producing good results. And we have seen 
it in places like Honduras in terms of the violent crime rate. 
Again, I recognize that in the current budget environment, 
tough choices are being made.
    Senator Kaine. So let me ask you this. Here is a worry that 
I have. If the administration low balls an ask and then 
Congress comes in and puts more in because we think it is 
important, bluntly in some agencies I worry if we put more 
money in, I am not sure that the agency will embrace and carry 
out the mission as Congress desires with respect to funding.
    If we are able to provide more money into these programs in 
Central America to do these worthy things than the 
administration has asked, will you commit to us that you will 
vigorously invest those dollars for those worthy purposes that 
you have described and thereby help us try to deal with the 
root causes of these problems?
    Mr. Green. I will do everything I can to mobilize those 
dollars because I do believe in the programs.
    Senator Kaine. Thank you, Mr. Chair.
    Senator Menendez. Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    In your answer to Senator Kaine, you referenced this budget 
tension between U.S. global leadership and domestic demands, 
but that is actually not the story behind the administration's 
budget because the budget actually calls for a fairly robust 
and impressive increase in military spending, one that this 
Congress has supported. So it is not as if this administration 
is downsizing America's footprint around the world. It is 
simply that they are proposing to downsize your footprint in 
the world and the footprint of the State Department while 
dramatically upscaling the amount of money that we put into the 
Department of Defense's footprint overseas.
    That is something that I simply do not understand because 
as I read the challenges presented to the United States, I get 
that there are certainly conventional military challenges that 
are different today than might have existed 10 years ago. But I 
frankly do not read there to be a larger number of conventional 
military challenges and a smaller number of non-military 
challenges.
    So explain the budget through that prism. I mean, do you 
support the idea that we need to dramatically plus up military 
spending and, in order to pay for it, dramatically reduce the 
spending that is available to you? That just does not seem to 
meet the world that I see, and I do not think it meets the 
world that you see.
    Mr. Green. Senator, I support the President's budget. I 
believe that tough choices are being made. I readily admit that 
we are not able to address every need or opportunity that we 
see out there. Obviously, our nation's national security 
interests, including our hard power needs, are significant. I 
think we all recognize that. And as you would imagine, I also 
believe strongly that the tools that we have and the State 
Department has are important as well.
    And so our job will be for the resources that you 
generously provide, I will make them go as far as they possibly 
can. I will leverage other investments working closely with 
other countries. I will work with the private sector to 
maximize enterprise-driven solutions. I will look to ramp up 
domestic resource mobilization. So I think my responsibility is 
and will continue to be to make these dollars----
    Senator Murphy. I think it is unfair for you to leave this 
committee or the Congress with the impression that this is 
about balancing domestic needs with international leadership 
because it is not that we are spending less money globally, it 
is that the administration is specifically targeting the State 
Department and USAID while proposing massive new amounts of 
money for the Department of Defense.
    I want to talk to you about one specific part of the world 
and that is Yemen. This is now officially the world's worst 
humanitarian crisis. More than 22 million people, 75 percent of 
the population, are living in desperate need of aid and 
protection.
    From testimony given to this committee by the State 
Department, the United States has opposed for a very long time 
the Saudi-UAE coalition's plans to attack Hodeidah, which is 
the site through which most of the humanitarian aid flows. Our 
coalition partners ignored our requests and are presently in 
the midst of launching an attack on that port city which could 
result in the complete cutoff of aid over the course of the 
duration of this campaign, which could last weeks but it could 
last months, leading to the death and destruction of massive 
amounts of that country.
    So what have you recommended to the White House regarding 
the U.S. position on the assault on Hodeidah? And would you 
recommend that the UAE halt its operations--this is primarily a 
UAE operation--to give negotiations a chance?
    Mr. Green. So we have been in constant contact with our 
implementing partners both back here and out in the field. I 
can tell you that as of last night, the World Food Program, 
which is our principal partner there, is still able to deliver 
food through the port of Hodeidah. As you know, earlier this 
year, we funded the four cranes that are expanding the capacity 
of that port. We are watching very, very closely. What we have 
done is the State Department has urged all parties to respect 
the work of the special envoy and also to continue to----
    Senator Murphy. Well, you cannot respect the work of the 
special envoy in the middle of an assault on Hodeidah. There is 
no work being done by the special envoy right now because there 
is an active military campaign. So are you advising the UAE to 
stand down to give the special envoy a chance or are you 
supportive of the assault on Hodeidah?
    Mr. Green. So that is a question for the Secretary of State 
and the Department of State----
    Senator Murphy. Are you concerned about the humanitarian 
consequences?
    Mr. Green. Oh, sure, of course, absolutely. We are 
concerned. In fact, tomorrow I will be meeting with our NGO 
partners again. We are meeting with them all the time doing 
everything that we can to make sure that the State Department, 
the White House, and everybody involved is aware of the 
humanitarian challenges that are there and doing everything we 
can to make sure that those needs are met under extraordinarily 
difficult circumstances.
    But also, I will say the way that you characterized this is 
accurate. I mean, this is a profound humanitarian challenge 
that we are working on right now. We are, I believe, the 
largest humanitarian donor towards Yemen, but this is something 
that we worry about all the time.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you. And Senator Murphy and Young and 
others, thanks for your leadership. I know we have all been 
pressing, and I thank you for taking the lead on a letter 
recently.
    Look, in fairness, this is my observation. The leader of 
USAID has no impact whatsoever on military operations. And 
obviously, these folks have to, quote, support the President's 
budget knowing that it has no relevance to what we are going to 
do. And I understand that. I think we have a USAID 
Administrator that really is seeking to do the things that 
people on both sides of the aisle want to see happen in our aid 
programs, and I thank him for that. And I am glad we are not 
focused much on the budget today.
    Senator Young?
    Senator Young. Thank you, Chairman.
    Administrator Green, it is great to have you here. Thanks 
so much for your service.
    I will just pick up on Senator Murphy's line of questioning 
on Yemen. And I agree with the chairman that you really do not 
have any impact on the military effort there in your current 
capacity.
    But you did mention Yemen in your opening statement, and 
you know that the Saudi and Emirati-led military operations 
have led to the seizure of the airport by the coalition. You 
also know, as anyone who is following this issue knows, the 
importance of keeping open the port of Hodeidah for 
humanitarian shipment to continue.
    From a USAID perspective, what is the key message you would 
like to convey to the combatants with respect to humanitarian 
access and most especially access that is required through the 
port of Hodeidah?
    Mr. Green. Thank you, Senator.
    First off, there really is no replacement or substitute for 
the port of Hodeidah, at least not an effective and economic 
one. So we urge all parties to preserve the free flow of 
lifesaving humanitarian and commercial goods through that port, 
and we think it is key. As I said as you were coming in, our 
best information from last night is that the World Food Program 
is still able to operate in the port and offload food and vital 
supplies, medical relief supplies, and obviously that is 
terrifically important. But we are in touch with our partners 
all the time.
    Also, I know that there has been some prepositioning of 
supplies, again not a substitute, but at least some step to try 
to ameliorate some of the potential fallout.
    Senator Young. This is by the Emiratis. Right? They are 
characterizing this military operation as at once a military 
operation and also it is their belief that they can better 
facilitate humanitarian delivery than the current situation. Or 
is it the World Food Program?
    Mr. Green. Well, again, regardless. We want to see 
unfettered access by humanitarian actors. So right now, the 
ships that I am referring to are World Food Program ships, but 
again, we urge all the combatants to respect humanitarian law 
and maintain that access.
    Senator Young. The last thing on this. You agree, as Deputy 
Assistant Administrator Jenkins testified to us last April, 
that the temporary closure would be catastrophic. To build on 
that, would an extended closure of Hodeidah in your mind lead 
to catastrophic humanitarian consequences in Yemen?
    Mr. Green. It would have humanitarian fallout on a very 
large scale.
    Senator Young. All right. Thank you, sir.
    Back to the issue of U.S. assistance through USAID and how 
we take a different approach than the Chinese are seeming to 
take. In your prepared statement, you talk about assistance as 
empowering people. The focus is on self-reliance and 
prosperity, on developing partnerships so that people can 
finance their own development in the future. The U.S. is 
clearly focused on building longer-term strategic and economic 
relationships with countries, I would say, in contrast to the 
Chinese approach that seems more focused on resource extraction 
and the creation of dependence. Is that a fair 
characterization?
    Mr. Green. Yes.
    Senator Young. If the U.S. is going to compete with China 
when it comes to development, would you also agree that we have 
to do better in catalyzing and facilitating private investment?
    Mr. Green. Yes. I will say in some places they are a ways 
off from getting there and having the environment. But 
absolutely, that is part of the journey of self-reliance.
    Senator Young. Yes. I think that has been a real point of 
emphasis from day one of you assuming this role.
    So in addition to efforts like the BUILD Act, of which I am 
original cosponsor, should we be doing more and what should we 
be doing, if the answer is, yes, we should be doing more, to 
catalyze this private investment?
    Mr. Green. So, yes, we should be doing more.
    There are a number of innovative financing tools that we 
use, everything from development impact funds to co-creation 
with the private sector through what we call a grand challenge 
mechanism or a broad agency announcement. The biggest thing 
what we can do is I think identify for our partner countries 
the capacity needs that they have and the commitment shortfalls 
that they are showing and help to incentivize the kinds of 
policy reforms that you and I would agree and experience shows 
us are necessary for the private sector to invest in a real 
meaningful way. And sometimes that means tough choices for 
them. And so I think that we need to be there helping them. 
Oftentimes it is technical assistance. But really tackling 
those policy barriers is oftentimes the most important thing 
that we can do. And then the private sector enterprise-driven 
solutions are much easier to catalyze.
    Senator Young. Just one quick follow-up. The United States 
is the largest shareholder in the World Bank more than any 
other country. Are we doing enough to leverage that status and 
USAID objectives on the other hand so that we can make sure 
that everything that USAID is doing is being multiplied by, 
supported by the World Bank?
    Mr. Green. So we can always do more and we can always do 
better. But we do have a close working relationship. At the USG 
level, much of it is with Treasury. Treasury essentially has 
the axis point in the relationship. But I have met with Jim Kim 
and we do talk about broad development challenges and 
opportunities and even humanitarian response. We can always do 
more, but I think we have a good productive relationship.
    Senator Young. Thank you.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. I have already gone.
    The Chairman. Senator Booker?
    Senator Booker. Thank you very much.
    I am grateful you are here, Administrator.
    Just real quick. I just came back from Afghanistan a few 
weeks ago, and it came out in one of our hearings here that we 
are spending about $45 billion a year in military operations 
there. The USAID was supposed to receive about $650 million. It 
is only going to receive about $500 million as we look ahead. I 
guess I was surprised by what I was hearing on the ground by 
military leaders telling me there is only so much that they can 
do, almost talking about a bit of a stalemate, but how 
important it is to build institutions there, how important it 
is to build self-reliance there, the kind of things that the 
military is not doing, which makes me think that USAID's role 
there is really pivotal. But it seems like, again, this is a 
theme in lots of the areas I have been visiting and looking at 
where we are ratcheting up our military expenditures but really 
ratcheting down our investments in helping these places like 
Afghanistan build to the point where they can be self-reliant.
    Can you tell me your thoughts on that?
    Mr. Green. Sure. First of all, my office will get back to 
you with more granular information just to respond particularly 
on the numbers side. But you are right on the importance of the 
work that we do there.
    So our strategy in Afghanistan, which is part of the larger 
South Asia strategy, is to help foster energy independence, 
which is terribly important to Afghanistan and its future, also 
strengthening inclusive growth so that the economic growth is 
not just for the powerful few but the benefits are spread more 
broadly, and in particular, investing in women and girls who 
have oftentimes been marginalized from the workplace and the 
boardroom, as well as politically.
    Most immediately it is the elections and the conduct of 
credible elections is awfully important there I think to give a 
renewed sense of mandate to the government. It is a hardworking 
environment, but obviously a successful, forward-leaning, 
forward-looking Afghanistan is in our interests.
    Senator Booker. And I appreciate that and got to see 
firsthand the impact of the work that you are doing. I guess 
what I do not understand is why are we ratcheting down 
investments there, ratcheting up investments on the people that 
are telling me that this is, for lack of a better word, a 
military stalemate. But that is the policy that I am concerned 
with and have great problems with. My time is running out.
    Mr. Green. I take your concerns and we will make sure that 
we get back to you.
    Senator Booker. Thank you, sir.
    And I want to shift--it is really the same concern. You 
know, Senators Kaine and Cardin joined me in a letter to 
President Trump expressing our concerns about the freeze on 
funding when it comes to Syria, when it comes to investing in 
things that provide very basic services to folks.
    And I think the most stunning experience I had again was on 
the same trip to Afghanistan. I stopped in Turkey and I met 
with our Start Forward team that is there. They are the folks 
that implement the Syrian humanitarian programs and incredibly 
important work, I mean, when they are describing in rich detail 
about really keeping people alive, not to mention avoiding the 
impact of radicalization on populations that are now 
particularly vulnerable to that. But they sort of surprised me 
that literally they are going to have to start shuttering their 
operations. And when you talk to the folks who folks are on the 
ground there, you could see that they are stunned that they are 
going to have to basically leave folks to fend for themselves, 
dangerous, hostile, not having the resources they need.
    So I left there very angry. How can my country again be 
ratcheting up our military investments but the basic 
humanitarian investments potentially could stop us from having 
to deal with extremism in that region in the future? How can we 
be ratcheting down on those expenditures?
    Mr. Green. So there are two different pieces to our work in 
Syria. There is the stabilization work that we do, which has 
currently been frozen pending review by the White House, 
although we learned yesterday or the day before, $6.25 million 
was recently released to the White Helmets for the work that 
they do in Syria.
    Then there is the larger portion, the humanitarian side, 
which is not frozen. And we are the largest donor of 
humanitarian assistance in Syria, are doing it in nearly every 
part of the country.
    Senator Booker. You are familiar with the Start Forward 
efforts.
    Mr. Green. That is the stabilization side. At this point, 
it is being held pending review by the White House.
    Senator Booker. I just do want to say in my last seconds 
here I am really pleased that you went to South Sudan. I have a 
lot of great concerns, as I am sure you do, about what is 
happening there, the violence against women, the sheer 
humanitarian crisis that we are having. It is not getting the 
attention and focus I think. But I understand there is a review 
underway regarding the assistance in South Sudan. And just 
maybe you can conclude by letting me know what is your role 
within that review in hopefully informing the kind of 
investments that we are making and stop what I see happening 
again from Syria to Niger, which is a ratcheting down of 
critical investments that are going to really prevent us from 
having military investments in the long run.
    Mr. Green. Senator, I really appreciate your concern. Not 
enough people, quite frankly, pay attention to South Sudan and 
the challenges that we face there. So the review that is 
beginning--we do not have a specific timeline for it yet--is 
very different than the case in Syria. So it is not slowing 
down our assistance. We are continuing to operate. But I think 
the review is appropriate. I worry. We want to make sure that 
our assistance there in no way, shape, or form is reinforcing 
either corrupt behavior or the kinds of behavior and policies 
that you and I both believe cannot continue and go on.
    But the suffering in South Sudan, the need, the near famine 
that we see in many places is horrendous. My conversation with 
President Kir when I was there was entirely unsatisfactory. I 
know a number of members of this committee have also tried to 
push for the peace process. We have heard in the last couple of 
days that there are signs that the two sides may be talking. I 
am skeptical, shall I say. But I do think it is appropriate for 
us to be undertaking a thorough review and make sure that we 
are in the right place in this. And we will make sure and keep 
your office briefed because this is important to you I know.
    Senator Booker. All right. Thank you.
    The Chairman. Senator Flake?
    Senator Flake. Thank you, Mr. Chairman.
    I am glad that that question was asked.
    Welcome, here. I remember traveling to Africa 18 years ago, 
Lesotho and South Africa and Namibia, with you.
    Let me just pick up on some of the Africa issues. We are 
having a transition in Zimbabwe right now. Elections will be 
held July 30th. AID has done good work even in very difficult 
circumstances in Zimbabwe, not being able to work with the 
government in a way that is helpful to the people there.
    Can you talk about some of the opportunities that will 
exist to do more work in Zimbabwe?
    Mr. Green. Thank you, Senator. It is fun to think back on 
those trips we did together.
    So in Zimbabwe, so much of it comes down to these elections 
and whether or not they are credible elections. That will 
certainly shape our relationship a great deal.
    I am like you. I am very hopeful. This is a country of 
enormous capacity and tremendous needs. And with the right 
leadership, willing to take on some of those legacy policy 
problems, I think there is real possibility there. But I think 
until these elections occur and our credible reflection of the 
people, it is hard for us to be able to seize these 
opportunities.
    We have been working there for a while, continue to, but we 
have not been able to do it on the scale that we would like 
largely because of the governing partner that we have had in 
the past.
    Senator Flake. Well, thank you. And I appreciate the 
chairman's help and others' on making sure we get our Zimbabwe 
ambassador there prior to the elections. It is extremely 
important to be represented fully.
    Can you give a little status update? You mentioned in your 
testimony Kenya's partnership and their work on the Power 
Africa initiative. Can you talk about some of the other 
countries that we are working in and give us a status update on 
Power Africa?
    Mr. Green. So Power Africa continues to be successful in 
catalyzing and closing private investments. One of the areas 
that I am looking at as we go into what we are calling Power 
Africa 2.0 is making sure that we are incentivizing the 
necessary policy reforms in each country. It is not about just 
closing deals that are available. It is also about 
incentivizing and reinforcing the policy environment in 
countries such that the private sector can take over, so that 
there are bankable deals. Sometimes these involve tough 
choices. Reliable energy at market rates. Oftentimes countries 
especially with populist leaders are loathe to allow rates to 
float. And yet, what American company is going to make an 
investment over the long haul if they are going to see rates 
that are frozen?
    Our challenge is often that China offers a very different 
model with lots of money up front, with fine print that lead to 
unsustainable debt, and lines on extractives that we think--you 
and I think--rob these countries' citizens of their birth right 
of their natural resources. It is a model we are competing 
with. We need to do a better job I think of making clear the 
difference and what it will mean for the young people of 
Africa.
    Senator Flake. Do you have the tools that you need in your 
position to bring this about?
    Mr. Green. You know, I cannot answer that. I like the tools 
I have, but I think until I spend more time on the ground in 
Africa seeing what other things may be available I am heading 
into the region. I am heading to Niger in coming weeks, which 
is I think a country of enormous promise, and so taking a look 
there.
    Again, I think for the dollars we invest, Power Africa 
continues to produce a remarkable return, and it is I think 
very, very helpful. But I would like to ramp it up because I 
think it is important as we have this competing model coming 
from China. I think it is important that we show what American 
private enterprise and investment can bring.
    Senator Flake. It has been my experience in these countries 
that they would prefer to do business with us, and they would 
prefer to have a closer relationship if possible. But China is 
certainly aggressive in these countries and the model does not 
do much for the people of those countries in the long term.
    So thank you, Mr. Chairman.
    The Chairman. Senator Menendez?
    Senator Menendez. Administrator, let me try aspirationally 
to see if you can be more responsive in this round of 
questions.
    Do you believe USAID and your position are adequately 
written into the corporate structure of the new Development 
Finance Corporation?
    Mr. Green. So we have argued for strong linkages. Whether 
those are done in legislation or done in the implementation 
rules, to us the key is having those linkages as far out into 
the field, which is where I think the best development comes 
from. In the interagency, we have been assured that those 
linkages will be there, and that is what is important to us. We 
want to make sure that our professionals in the field who right 
now own DCA from our perspective continue to have that ability 
to be the pipeline for projects, good, sound development 
projects, and however that is crafted, that is what is 
important to us.
    Senator Menendez. So I understand your aspiration, but it 
doesn't speak to me whether or not you think it is written into 
the corporate structure. I either would say yes, it is, no, it 
is not, or it is not sufficiently written. I think that would 
be the answer.
    Let me ask you then, what assurances do you have or need so 
that USAID's on-the-ground expertise, which is I think what you 
were just referring to, informs the development objectives 
incorporated into each project proposal the DFC board 
considers?
    Mr. Green. So I understand that as the legislation has been 
moving, there has been the addition of a chief development 
officer, as I understand. We think that is great. We think that 
is a useful innovation in the legislation. We would encourage 
that to be a USAID employee, someone that comes from USAID, so 
that we have a direct linkage that allows us to help create 
that pipeline and bring that knowledge to bear. So that is what 
I would urge I guess.
    Senator Menendez. Let me turn to a different topic. It has 
come to my attention that the State Department's Office of 
Foreign Assistance Resources, otherwise known as the F Bureau, 
is withholding the approval of fiscal year 2017 operation plans 
and spend plans for several USAID programs. These are programs 
that Congress has appropriated funds for fiscal year 2017, and 
the F Bureau delayed obligating to USAID, only later to offer 
some of the funds in the administration's rescission package.
    Can you explain to the committee the extent to which the 
State Department's Foreign Assistance Bureau delayed the 
obligation of fiscal year 2017 funds and how that has affected 
your ability to lead USAID?
    Mr. Green. Senator, the F process is one that I believe has 
been pointed to across numerous administrations. We would like 
to find ways, as I believe State would as well, to streamline 
the process and make it more efficient. It certainly is in need 
of strengthening and streamlining.
    Senator Menendez. So, in other words, I would take that 
answer to suggest that you did not get the monies that were 
appropriated by Congress in a timely fashion that would have 
allowed you to pursue the specific missions that Congress 
intended you to pursue by virtue of those appropriations.
    Mr. Green. We are constantly talking with F Bureau, as well 
as OMB, to help move things along. We will mobilize resources 
as quickly as we get them.
    Senator Menendez. Do you believe any of these delays may be 
related to policy or political disagreements with 
congressionally mandated programs?
    Mr. Green. I have seen no evidence of that, Senator.
    Senator Menendez. What are you doing as Administrator to 
ensure that the funds appropriated by Congress are moving 
quickly to the missions in order that we can make lives better, 
which is what our focus here is?
    Mr. Green. We engage all the time with our counterparts at 
OMB and at State and are in constant touch every other week I 
am--with our mission directors around the world to try to 
provide predictability and to move those resources along.
    Senator Menendez. We understand that USAID and OMB support 
a consolidation of the State Department's humanitarian 
component into USAID. Is that true?
    Mr. Green. I would say that is an overstatement.
    Senator Menendez. That is an appropriate statement.
    Mr. Green. At this point, I believe that State, OMB, and 
USAID are reexamining ways to strengthen our humanitarian 
response given that so many of our humanitarian challenges 
these days are cross-border. Burma and Bangladesh is a prime 
example. The Rohingya in Burma are IDPs and therefore in theory 
part of our portfolio. When they cross the border into 
Bangladesh, they are refugees, therefore State programs, 
although we provide humanitarian support in some ways. So it is 
looking to strengthen and make more seamless those operations. 
That is what we are talking about.
    Senator Menendez. Last question. Do you believe it would 
serve our broader foreign policy objectives to move refugee 
operations into USAID?
    Mr. Green. I think there are a number of choices that we 
should look at in making seamless the relationship between our 
refugee operations and our IDP operations. I think there are a 
range of options that are there that we are looking at and 
talking to State about.
    Senator Menendez. I am going to follow up with a series of 
detailed questions. I hope you will give some responsive 
answers to it. And if I do not get them, then what we do moving 
forward is going to be affected by what type of answers I get.
    The Chairman. Thank you.
    Senator Cardin?
    And I am glad to have some more questions. We did not 
anticipate a second round. We, I know, waited for a while for 
people to come. And I do not think we ought to have votes 
during hearings. I agree. And I am going to object to that in 
the future. But I am going to probably call the meeting about 5 
till 12:00, and I am glad to have some more questions.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    Administrator Green, thank you. I very much appreciate your 
leadership.
    I just want to make a point about how desperately needed 
your leadership is to counter the budgetary anemia of the 
administration as it relates to these programs and the message 
being sent to the international community on so many issues.
    Today is World Refugee Day. The United Nations has released 
its numbers. They are record numbers. 65 million people are 
displaced. Over 22 million refugees. Almost 2 million asylum 
seekers. And then the President of the United States reduces 
the cap on the United States accepting refugees and does not 
even hit those cap numbers. And we are about 83 percent below 
where we were just 2 years ago. So we are not taking in the 
refugees. The administration's budget would cut humanitarian 
assistance. You mentioned the Rohingya, which are in desperate 
need during the monsoon season, of help, and if the United 
States is not in the leadership, the world will not respond. 
Are we responding too slowly?
    So I want to hear your game plan as our number one advocate 
for U.S. humanitarian needs globally and our responsibility as 
it relates to these vulnerable populations within country and 
those that have been forced to leave the country. What is your 
game plan here? How is the United States going to respond to 
this international crisis?
    Mr. Green. Thank you, Senator.
    And you know from our discussions, I share many of the 
concerns that you have raised.
    So important to remind everyone we are, far and away, the 
largest donor on humanitarian assistance and refugees in the 
world. Far and away.
    Senator Cardin. So as you know, there have been suggestions 
made by this administration to take some of those monies and 
put it into law.
    Mr. Green. We are currently providing 49 percent of all the 
humanitarian assistance in the world. On the global health 
side, we are 60 percent of all the funding in the world. And so 
we are, I think, providing significant leadership.
    Senator Cardin. And I acknowledge that. I said the 
administration is trying to change that. But when you look at 
the impact of refugees to countries, we have a minimal impact 
here compared to what is happening in the countries that border 
Syria. Jordan, 750 refugees they have taken in. Lebanon, 1 
million. 750,000. Excuse me. And Lebanon taking in a million.
    So, yes, we have written a check, which is important, and 
the total pie is not adequate enough. So we do not have enough 
global money to deal with this. We have written a fair check. I 
do not deny that. We have not taken in our fair number. I do 
not think anyone could dispute that that looks at these numbers 
globally and see how much the United States of America, the 
most capable country of receiving refugees--how many we are 
taking in.
    So continue.
    Mr. Green. Again, I do not disagree with your numbers.
    I would also point out, as I indicated in my opening 
testimony, that these same challenges are close to home. In 
Venezuela, the last numbers I saw, 5,000 Venezuelans per day 
fleeing the country. We have been providing bilateral 
assistance in Colombia and Brazil to help support the 
Venezuelans who have gone there, as well as to support the 
communities around them. We are starting to hear that the 
flight of Venezuelans is being felt in the Caribbean, concerns 
that I heard when I was down at the summit. These are 
significant challenges, absolutely.
    We will make the money go as far as we possibly can. I 
cannot tell you it is all the money that anyone needs to take 
on all of these challenges.
    Senator Cardin. Again, my comments are not directed at you, 
but my frustration about the Trump administration and where we 
are globally today and the just absolute need for U.S. 
leadership here. And I just want you to know you have friends 
on both sides of the aisle that are with you, and we will do 
everything we can that you have the tools you need in order to 
be able to adequately respond to the challenges imposed 
globally and by the Trump administration's policies.
    The Chairman. Thank you.
    Senator Coons?
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Menendez.
    Administrator Green, I just wanted to speak just a little 
bit further, if I could, to the BUILD Act. I think the ranking 
member has raised real and legitimate concerns and questions. 
You have raised real, legitimate questions about how do we 
ensure that this new development finance institution, if it is 
stood up, is focused on development.
    And so, first, the Obama Global Development Council 
actually recommended that the development credit authority be 
folded into OPIC in order to give it access to resources. Your 
concern that it be led by USAID on the ground, that it be 
connected to development I think is not just a legitimate 
concern but one that I embrace. So to the extent I have 
anything to do with this going forward--the fact that the USAID 
Administrator will be the vice chair of the board, the fact 
that the legislation now has an outside development advisory 
board, I think a needed improvement to it, and the fact that 
the language now provides for a forward transfer of policies 
from OPIC, which will address a number of concerns about human 
rights, environmental labor, small business concerns, I think 
have all improve the bill.
    To the extent as an appropriator and authorizer I have 
anything to do with this issue going forward, I will pledge to 
you both that I will continue to work tirelessly to ensure that 
in its implementation, should this become law, USAID will not 
just be occasionally consulted but be driving the development 
focus of its work and take action, if appropriate, if it is not 
being implemented appropriately. And I just wanted to say that 
because I think the ranking member has raised good and 
legitimate points, and I know you too, not to speak for you, 
have had similar concerns and I think they are legitimate. And 
I think we should work together to make sure that this is 
carried forward as a development finance institution.
    Mr. Green. Senator, I look forward to working with you. 
Your passion for development is clear and longstanding. And I 
am a big supporter of the concept of the DFI. I think it is 
good for us to get additional resources into the system, and 
anything that helps us to catalyze investments for a 
development outcome is a good thing. And it is not the answer 
to all of the challenges we see from the alternative model to 
development, but it does not hurt either. It is certainly a 
step in the right direction. So I look forward to continuing 
our conversation. I really appreciate it.
    Senator Coons. Thank you.
    At the risk of saying one more thing I do not need to, but 
in my questioning of you, in my public statements, in my 
actions on appropriations, I reject the current 
administration's approach to deeply cutting USAID funding and 
think that sustained, broad bipartisan investments in 
development are the best path forward. And I think in 
combination, a robust DFI and a strong and capable USAID is our 
best path. And I hope to contribute to that in some small way.
    The Chairman. Thank you. Look, I think we all understand 
the reason cuts are made, as shown, that the real drivers of 
our deficit are not willing to be dealt with, and we know that. 
And they do not expect any of this to become law. It is just a 
way of acting like we are doing things fiscally responsible.
    Senator Kaine?
    Senator Kaine. Thank you.
    Administrator Green, just a comment. I am on the Armed 
Services Committee, and one of the things I do on that 
committee is listen to our defense leaders as they advocate for 
you. The Sec Def and others 2 years ago, in the fiscal year 
2017 NDAA, supported an effort that was successful to include 
in the NDAA the ability of the DOD to transfer funds to USAID 
and State for sort of post-conflict stabilization activities 
and countering violent extremism activities if the DOD 
determines that the best folks to do it are not the military 
but State or USAID. And we were able to get that authority at 
the request of the Sec Def. My understanding is that has not 
yet been used, but it is there to be used. And I would 
encourage you to dialogue with the Secretary about that.
    The NDAA that we passed off the Senate floor last night, 
which is in conference with the House, has an additional 
authority. It would allow the DOD to provide logistical support 
for USAID or State Department operations in Afghanistan, Syria, 
and Iraq. Again, in the aftermath of, say, the defeat of ISIS 
on the battlefield or the defeat of the Taliban in some part of 
Afghanistan if there is a need for post-conflict stabilization 
activities, we know and the DOD will acknowledge that they are 
sometimes not the best at doing that and that you all have the 
expertise and are able to do it. But they may need to provide 
logistical support to allow that to be done. That authority was 
included in the NDAA version that we passed off the Senate 
floor last night, and I think it will survive the conference 
because I believe there is something similar on the House side.
    But just to let you know that there are these two 
authorities within the DOD budget that would enable them to 
provide support to your efforts, especially in former war zones 
that we are trying to restabilize, and I would just encourage 
you to be in dialogue with the Sec Def's office about that.
    Thank you, Mr. Chair.
    The Chairman. Well, listen, we thank you for being here. I 
know it has been a little unorthodox, but I think you can tell 
by the questions, people care deeply about what you do and what 
we do as a nation in this regard. So we thank you for service.
    We are going to keep the record open until the close of 
business on Friday. If you could respond to questions fairly 
promptly, we would appreciate that.
    Again, thank you for your service.
    Without further questions, the meeting is adjourned.


    [Whereupon, at 11:50 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record


            Responses to Additional Questions for the Record
          Submitted to Hon. Mark Green by Senator Marco Rubio

        For many years, the Iraqi diaspora community, Members of 
        Congress, and faith organizations have been concerned that U.S. 
        foreign assistance to vulnerable minority groups in Iraq was 
        not reaching its intended recipients. The administration has 
        attempted to rectify this. You recently authored an important 
        op-ed indicating that you were directing USAID to redouble its 
        efforts on this issue. You wrote: ``A more flexible budget and 
        eased regulations would make USAID more effective in fulfilling 
        its mission.''

    Question. Would you provide me with an update on this issue? What 
specifically does USAID need from Congress?

    Answer. Consistent with administration priorities, the U.S. Agency 
for International Development (USAID) is deeply committed to assisting 
the world's most-vulnerable people, including members of ethnic and 
religious minorities, such as Iraq's endangered Christian and Yazidi 
communities. USAID responded to Vice President Mike Pence's October 
2017 directive to expand assistance to help endangered, displaced, and 
persecuted religious minorities in Northern Iraq return home and 
restore their communities. USAID is managing $239 million of the nearly 
$300 million that the U.S. Government has directed specifically to 
assist the persecuted ethnic and religious minorities of the Ninewa 
Plains.
    In January 2018, USAID renegotiated the terms of its agreement to 
contribute to the Funding Facility for Stabilization (FFS) managed by 
the United Nations Development Programme (UNDP) so that $55 million 
(out of a tranche of $75 million) would help religious and ethnic 
minority communities in Ninewa Province restore basic services like 
water, electricity, sewage, health, and education. In June 2018, USAID 
began the processes necessary to contribute $5 million in new 
Transition Initiative assistance to fund local partners across Iraq's 
diverse ethnic and religious landscape to promote long-term stability 
in areas liberated from the Islamic State in Iraq and Syria (ISIS).
    USAID also provided $7 million in humanitarian assistance and $4 
million in global health funding to address the immediate needs of 
persecuted ethnic and religious minority communities in the Ninewa 
Plains, including providing emergency shelter and health care, and 
improving access to clean water.
    Additionally, the Agency opened a $35 million Broad Agency 
Announcement (BAA) to support persecuted ethnic and religious minority 
communities in Iraq. The BAA process allows local groups with more-
intimate knowledge of the challenges faced by minority communities to 
influence the design and implementation of projects directly. The 
promotion of the safe return and reintegration of minority communities 
to their ancestral homelands in the Ninewa Plains is a central 
objective of this BAA.
    Of that $35 million, we have to date announced two BAA awards that 
total $10 million: one to a coalition led by Catholic Relief Services 
(CRS), the other to a coalition led by the Heartland Alliance. Through 
these awards, USAID will address some of the critical long-term 
barriers that have been preventing displaced persons from returning 
home, such as access to livelihoods and ensuring conditions exist to 
support social cohesion. CRS and the Heartland Alliance will each work 
with coalitions of local Iraqi groups and faith-based organizations 
that are already active in the Ninewa Plains and Sinjar. In the near 
future, USAID expects to announce more awards from this BAA process.
    USAID and the U.S. Department of State continue planning to award 
additional assistance in the coming months. USAID appreciates, and 
relies on, the continued support from Congress on issues such as 
budget-flexibility and eased regulations, both for the Iraq portfolio 
and across the globe. We look forward to continued engagement with you 
and your colleagues on these issues.


        As you are aware, recent events in Nicaragua have been 
        devastating. Dozens of people have been killed by the 
        Government, lawlessness reigns in many parts of the country, 
        and what's left of democracy is quickly deteriorating.

    Question. Is USAID currently working in Nicaragua on democracy and 
good governance?

    Answer. Yes, the U.S. Agency for International Development (USAID) 
is funding programming to support democracy and citizen-responsive 
governance in the Republic of Nicaragua meant to mitigate the continued 
erosion of freedom of expression and freedom of the press and the 
closing of space for civil society in the country. USAID's investments 
in democracy, human rights, and governance seek to accomplish the 
following: help civil society advocate for democratic change, build an 
engaged citizenry, and support independent media. This includes 
programs that support civil-society organizations as they advocate for 
their rights, train independent media outlets to provide high-quality 
reporting, provide democratic leadership, and advance community-based 
advocacy at the municipal level.

    Question. Are you considering allocating or re-allocating funding 
for democracy promotion in Nicaragua?

    Answer. According to the Inter-American Commission on Human Rights, 
state-sponsored violence in the Republic of Nicaragua has left more 
than 212 people dead, 1,337 injured, and 507 deprived of their freedom 
as of June 19. In response, the U.S. Agency for International 
Development (USAID) is providing emergency support and assistance to 
civil-society groups, human-rights organizations, independent media 
outlets, and others involved in peaceful protest.
    To ensure the dissemination of independent and accurate 
information, including regarding abuses and violations of human rights, 
USAID provided immediate funding to journalists from 14 independent 
media outlets--many of which the Ortega-Murillo regime has brutally 
attacked--to permit accurate documentation of the crisis. The USAID 
Mission in Managua also moved quickly to ensure civil-society partners 
could continue their advocacy, by providing emergency assistance 
through an existing project.

    USAID has also provided an additional $3.326 million in Fiscal Year 
(FY) 2017 funding to provide small grants to Nicaraguan human-rights 
organizations, strengthen the cyber and information security of civil 
society and independent media, facilitate the participation of 
indigenous and other traditionally marginalized communities in the 
democratic process, support investigative journalism, and enable civil 
society to respond effectively to the crisis. USAID will continue to 
monitor the situation in Nicaragua, and is actively assessing how any 
additional funding or re-programming of funding could help us respond 
to the ongoing political crisis.

    Question. With adequate funding, what can USAID do in the short-, 
medium-, and long-term to support democracy, human rights, and good 
governance in Nicaragua?

    Answer. In the short term, I agree with you the U.S. Government 
must respond to the rapidly evolving security situation and changing 
political environment in the Republic of Nicaragua. Using existing 
programs and resources, the U.S. Agency for International Development 
(USAID) will help Nicaraguan civil society, independent media, and 
human-rights organizations to continue to operate freely during the 
crisis, with an increased focus on assistance with physical and digital 
security. We have seen a growing demand from independent media for 
support and training on content, from human-rights organizations to 
document and report on human-rights violations, and from civil society 
to advocate for change. USAID also launched additional programs through 
its Office of Transition Initiatives.
    In the longer term, the profile of USAID's assistance might need to 
shift, pending the outcome of the current political crisis. We continue 
to assess the appropriate balance of investments in the current 
environment--including our programs to promote democracy, human rights, 
and citizen-responsive governance. USAID's response could rage from 
humanitarian assistance, should the crisis and violence accelerate, to 
supporting a credible electoral process.

Central America
        The U.S. Government has sought to cooperate with the 
        Governments of Honduras, El Salvador, and Guatemala--the 
        Northern Triangle of Central America--in order to address the 
        underlying factors driving irregular migration in the region. 
        Through foreign assistance and diplomatic engagement, the U.S. 
        has made significant investments toee support security and 
        stability there. While some progress has been made, the reality 
        remains that there is much more to do. Honduras and El Salvador 
        continue to be among the most violent countries in the world, 
        the rule of law remains weak and levels of impunity remain 
        extremely high.

    Question. Do you believe, as the President suggested on June 19 
when he said, ``when countries abuse us by sending people up--not their 
best--we're not going to give any more aid to those countries. Why 
should we.'' that countries in the Northern Triangle are ``sending'' 
people to the United States? Do you believe it is policy in these 
countries to send migrants to the United States?

    Answer. I have not seen any evidence to suggest the Governments of 
the Northern Triangle countries have policies to send migrants to the 
United States. The programming funded by the U.S. Agency for 
International Development (USAID) in Central America advances the U.S. 
Strategy for Central America (Strategy), which addresses the economic, 
security, and governance drivers of illegal migration. Under current 
law, the Secretary of State must certify, prior to the obligation of 25 
percent of assistance for the central Governments of El Salvador, 
Honduras, and Guatemala, that they are taking effective steps to inform 
their citizens of the dangers of the journey to the Southwest border of 
the United States. Former Secretary of State Tillerson made this 
certification most recently for Fiscal Year (FY) 2017 funding for each 
of the three Northern Triangle Countries.

    Question. What do you believe are the issues motivating desperate 
migrants from Northern Triangle countries to seek asylum in the United 
States? Do you believe that extreme poverty and the lack of economic 
opportunity for underserved communities, whom also tend to be 
indigenous peoples, is a leading cause for desperate Central American 
migrants to make the harrowing trek to the United States? Do you 
believe that the threat of gang violence and exploitation against many 
of these same marginalized people, who internally migrate to major 
cities within their home countries, is a leading cause for individuals 
to seek asylum in the United States?

    Answer. Yes, I believe extreme poverty, violence, the lack of 
economic opportunity and the threat of gang violence are drivers of 
migration from Central America. This is why the programming funded by 
the U.S. Agency for International Development (USAID) in Central 
America focuses on addressing those drivers. In 2017, using 
apprehension data from the U.S. Department of Homeland Security (DHS), 
USAID sponsored a study that compared municipal homicide and poverty 
rates to the number of apprehensions of unaccompanied Central American 
children in the United States to assess the impact of violence on 
migration. The study found that a sustained increase in homicides in 
the Northern Triangle did lead to a proportionate increase in 
apprehensions of unaccompanied children at our border, and that the 
effect was greatest in Central American municipalities with the highest 
homicide rates. The study also found that systemic poverty is a greater 
driver of out-migration than short-term economic downturns. USAID's 
work has an impact of these drivers. For example, USAID's work to 
prevent crime and violence, carried out in concert with the INL Bureau 
at the State Department and in collaboration with the Government of 
Honduras, has resulted in a 90-percent decrease in homicides between 
2013 and 2017 in the Rivera Hern ndez neighborhood of San Pedro Sula.
    I cannot speak to whether or not the threat of violence and 
exploitation is a leading cause for individuals to seek asylum, as 
USAID does not collect data on asylum applications. I would refer your 
questions about asylum to DHS.

    Question. Do you believe the real threat of violence and 
exploitation these individuals are fleeing is legitimate cause for 
asylum?

    Answer. I would defer to the U.S. Department of Homeland Security 
as the U.S. Government lead on adjudicating asylum cases. However, I do 
believe the threat of violence is a driver of migration from Central 
America. A study funded by the U.S. Agency for International 
Development in 2017 found that a sustained increase in homicides led to 
a proportionate increase in apprehensions of unaccompanied Central 
American children in the United States, and that the effect was 
greatest in municipalities in the Northern Triangle countries with the 
highest homicide rates.

    Question. How is USAID supporting U.S. efforts to address the 
security, stability, and prosperity of the Northern Triangle in Central 
America?

    Answer. Programming in Central America funded by the U.S. Agency 
for International Development (USAID) advances the U.S. Strategy for 
Central America (Strategy), which addresses the economic, security, and 
governance drivers of illegal migration. Below is an illustrative set 
of some examples, by country, of USAID's impact in the Northern 
Triangle. Additionally, USAID has a Memorandum of Understanding (MOU) 
with the Mexican Development Agency to work together on these critical 
issues, and we are exploring other trilateral opportunities.
Republic of El Salvador
    USAID's community-based work to prevent crime and violence, carried 
out in partnership with the Bureau for International Narcotics and Law 
Enforcement (INL) of the U.S. Department of State through a place-based 
strategy, has contributed to historic decreases in homicides within El 
Salvador's most-violent communities. Between 2015 and 2016, El Salvador 
saw a 61-percent reduction in the municipalities in which USAID 
operates, compared to a 21-percent reduction nationwide.
    USAID assistance to the private sector is helping create greater 
economic opportunities for Salvadorans. Activities target small and 
medium-sized enterprises (SMEs), which account for 60 percent of El 
Salvador's economy and 35 percent of its Gross Domestic Product. 
Between 2011 and 2016, USAID assistance to 11,000 Salvadoran SMEs 
generated more than $147 million in sales and exports and 26,500 new 
jobs.
    USAID's efforts to support increased governmental transparency 
included the establishment of a new Freedom of Information Institute in 
2016, which has resulted in unparalleled access to official documents 
in El Salvador. Disclosure of information ordered by the Institute has 
triggered investigations on illicit enrichment by public officials 
(including three former Presidents), waste and abuse of public funds, 
and nepotism.
Republic of Guatemala
    USAID's support to the implementation of new investigation and case 
management models in the Government of Guatemala's Specialized 
Prosecutors' Offices for Extortion and Anti-Corruption has helped 
increase the number of final verdicts in extortion cases from 26 in 
2015 to 512 in 2017. The number of people found guilty of extortion 
increased from 41 to 735 over the same period of time.
    USAID's geographically targeted agricultural programs have helped 
create nearly 22,000 jobs in Guatemala, and generated $47.8 million in 
agricultural sales (coffee and horticulture) in the Western Highlands.
    USAID's efforts to reduce impunity have helped support the 
expansion of the 24-hour court model to new locations in Guatemala. As 
a result of the integrated 24-hour court system and improved case-
management, the percentage of cases dismissed without merit dropped 
from 70 percent in 2006 to 10.75 percent as of September 2017.
Republic of Honduras
    USAID's work to prevent crime and violence, carried out in concert 
with the INL Bureau at the State Department and in collaboration with 
the Government of Honduras, has resulted in a 90-percent decrease in 
homicides between 2013 and 2017 in the Rivera Hern ndez neighborhood of 
San Pedro Sula.
    USAID's assistance to the Mission to Support the Fight Against 
Corruption and Impunity in Honduras (MACCIH) of the Organization of 
American States has enabled the hiring of a record number of anti-
corruption judges, prosecutors, and investigators in Honduras. Working 
together with the national Attorney General, MACCIH has achieved three 
high-profile convictions, and taken on three additional high-profile 
and emblematic corruption cases.
    USAID investments in agriculture have lifted 13,658 Honduran 
families, or over 68,000 people, out of extreme poverty (defined as 
$1.25 per day). The Government of Honduras has co-invested $56 million 
to expand this model of poverty reduction.

    Question. What is your assessment of USAID's cooperation with the 
countries of the Northern Triangle to address the problems of violence, 
poverty and weak security and justice institutions driving children and 
families from their countries?

    Answer. The U.S. Agency for International Development (USAID) works 
closely with the Governments of El Salvador, Guatemala and Honduras to 
implement programming, to press for reforms on critical areas needed to 
advance the U.S. Strategy for Central America, and to support the 
countries' Plan for the Alliance for Prosperity (A4P). To date, the 
Northern Triangle Governments have pledged $5.4 billion of their own 
funds to meet the goals under A4P. While USAID has seen strong host-
country cooperation and progress in areas such as citizen security, 
including the prevention of violence, and agriculture, including 
increased food security in regions affected by shortages, we continue 
to seek greater cooperation in reducing impunity and combating 
corruption, both of which are critical to the long-term development of 
these countries. For a complete accounting of how our programs in 
Central America match the A4P priorities, please see the attached 
charts.


    [The information referred to above is located at the end of this 
hearing transcript, beginning on page 97.]



    Question. How is USAID working with the Governments of Guatemala, 
Honduras and El Salvador to support fair and impartial attorney general 
selection processes to emphasize the need to select of honest and 
qualified candidates with a clear commitment to the rule of law?

    Answer. The Missions of the U.S. Agency for International 
Development (USAID) in the three Northern Triangle countries are 
supporting efforts in each of them to choose the next Attorneys General 
through fair and impartial selection processes.
    In El Salvador, USAID, as part of a coordinated U.S. Government 
effort, has worked with the Government and civil society to ensure that 
processes are in place to maximize the likelihood that a transparent, 
and merit-based process will choose the next Attorney General. USAID is 
supporting reforms to improve the Legislative Assembly's internal 
regulations and existing procedures for the appointment of merit-based, 
independent, heads of Salvadoran democratic institutions. These reforms 
also apply to the selection process for the country's Magistrates of 
the Supreme Court of Justice, Magistrates of the Supreme Electoral 
Tribunal, Magistrates of the Court of Accounts, Public Defender, and 
Ombudsman.
    In Honduras, USAID is supporting civil society efforts to observe 
the selection process for the next Attorney General selection, and, 
together with the U.S. Embassy, has encouraged the rigorous review of 
qualified candidates for this position in line with Honduran law.
    In Guatemala, USAID, through its Security and Justice-Sector Reform 
Project, provided technical input to the selection process for the 
Attorney General (e.g., the use of selection/scoring criteria), and 
ensured the postulation process was open and transparent. On May 3, 
2018, President Morales of Guatemala selected Mar!a Consuelo Porras 
Argueta as the next Attorney General from a list of six candidates.

    Question. Do you believe that cutting off aid to countries in the 
Northern Triangle would ultimately benefit the United States? Do you 
believe that cutting off programs that support economic development and 
rule of law reform would be in the United States national security or 
economic interest?

    Answer. I believe programming funded by the U.S. Agency for 
International Development (USAID) in the Northern Triangle is in our 
national interest. Creating economic vibrancy and opportunity in those 
countries is good for commerce, which is good for U.S. business and 
trade interests. Additionally, USAID programs address some of the 
drivers we believe contribute to illegal migration by creating 
opportunities in the Northern Triangle countries for their citizens. 
USAID programs also work to address challenges like transnational 
crime, corruption, and the lack of safe spaces for families. I believe 
these efforts not only serve the interests of these countries, but are 
also good for the United States.
    USAID's programs under the U.S. Strategy for Central America 
(Strategy) have shown results in improving citizen-security and 
promoting economic livelihoods in key communities throughout the 
Northern Triangle, and I believe they will continue to do so. However, 
it is critical that the Governments of the Northern Triangle continue 
to put more of their own resources towards their own economic 
development under their Alliance for Prosperity Plan. The President's 
Budget Request for Fiscal Year 2019 includes funding for the Strategy 
in recognition of the significant impact that developments in the 
region have on our national-security and foreign-policy interests.

    Question. Can you please highlight some efforts that have in fact 
reduced poverty or improved security conditions in these countries?

    Answer. With funding appropriated by Congress, the U.S. Agency for 
International Development (USAID) has supported efforts by the Northern 
Triangle Governments to reduce poverty and improve their own security 
conditions.
    In Guatemala, with USAID funding, the Public Ministry (Ministerio 
P#blico) created a new investigation and coordination model to combat 
extortion. Since 2015, the specialized Prosecutor's Anti-Extortion 
Office has used this model to carry out more than 40 anti-extortion 
operations, which yielded more than 800 arrests of criminal networks 
associated with the Mara Salvatrucha and Barrio 18 gangs. USAID's Feed 
the Future programs in Guatemala have helped the private sector create 
more than 20,000 jobs during Fiscal Year (FY) 2016 in the agricultural 
sector in one of the poorest regions of the country. Between 2013 and 
2017, USAID agricultural programs helped create 74,000 full-time 
equivalent jobs and $177 million in increased sales from coffee and 
horticultural exports.
    In Honduras, USAID's work to build alliances among citizens and the 
police has successfully built community cohesion. The decline in the 
murder rate in the Rivera Hern ndez neighborhood from 84 per year in 
2013 to 13 in 2016 stems in part from the work carried out by USAID to 
establish community committees. USAID's Feed the Future programs in 
rural areas of Honduras have increased the incomes of over 29,000 
extremely poor families from an average of $0.90 person/day to $1.77 
person/day (FY 2017 data) by helping them make the transition from 
subsistence farming to market-driven production of high-value crops, 
such as vegetables.
    In El Salvador, the USAID Mission's economic-competitiveness 
activities have helped micro-, small- and medium-sized enterprises, and 
smallholder farmers increase sales by $147 million and create over 
26,500 new jobs over the last five years. With USAID support in the 
security pillar, homicides have declined in the priority municipalities 
under El Salvador's Security Plan by an average of 26 percent in 2017.

    Question. In April of this year, you travelled to Central America. 
Why did you cancel your planned visit to Honduras? Your decision to 
cancel the Honduras leg of your trip came just after the President 
tweeted: ``Honduras, Mexico and many other countries that the U.S. is 
very generous to, sends many of their people to our country through our 
WEAK IMMIGRATION POLICIES. Caravans are heading here. Must pass tough 
laws and build the WALL. Democrats allow open borders, drugs and 
crime!'' and ``The big Caravan of People from Honduras, now coming 
across Mexico and heading to our ``Weak Laws'' Border, had better be 
stopped before it gets there. Cash cow NAFTA is in play, as is foreign 
aid to Honduras and the countries that allow this to happen. Congress 
MUST ACT NOW!'' Did these tweets have any bearing on your decision not 
to visit Honduras?

    Answer. I did not travel to Central America in April. I did 
consider traveling to Honduras and Guatemala after the Summit of the 
Americas, but my evolving schedule and competing commitments prevented 
my trip. While I couldn't visit those countries at that time, I was 
pleased to meet with President Juan Orlando Hern ndez of Honduras, as 
well as many other leaders from the region, on the margins of the 
Summit. In addition, I met with President Jimmy Morales of Guatemala in 
February in Washington.
    I hope to visit the Northern Triangle countries soon.

BUILD Act
        Administrator Green, the committee will soon markup Chairman 
        Corker and Sen. Coons' BUILD Act, a bill to reform and 
        modernize U.S. development institutions. In March, you and I 
        discussed the importance of ensuring the new Development 
        Finance Corporation has a strong development mandate and that 
        achieving development outcomes that improve the stability and 
        sustainable growth of the host countries where projects are 
        conducted is what guides the mission on this agency.

    Question. If the Development Credit Authority is moved from USAID 
into the new DFC, do you believe the DFC's financial tools will still 
be available to USAID's missions and staff so they can successfully 
leverage necessary tools in the field?

    Answer. I hope so. To succeed, the proposed Development Finance 
Corporation (DFC) must contribute to U.S. development goals. Achieving 
those goals requires the DFC to ensure a continued link to the 
employees and programs of the U.S. Agency for International Development 
(USAID), particularly if the Development Credit Authority (DCA) moves 
into the new entity. Our USAID Missions overseas currently drive and 
own the use of DCA investments. I have consistently advocated the need 
for strong institutional linkages between the new DFC and USAID to 
preserve these existing connections, and enhance them wherever 
possible. The availability of the DFC's finance tools to USAID Missions 
and the strength of these institutional linkages are necessary factors 
to ensure the new DFC directly contributes to U.S. development goals.


        USAID missions employ some of the world's most talented and 
        experienced development experts who have tremendous 
        understanding of the development needs of the countries where 
        the DFC will be doing deals.

    Question. What assurances do you have, or need, so that USAID's on-
the-ground expertise informs the development objectives incorporated 
into each project proposal the DFC Board considers?

    Answer. A joint commitment to reform is the foundation of good 
development programming, and drives self-reliance in our partner 
countries. The Development Credit Authority (DCA) program responds to 
the demands of our development experts in the field by structuring 
financial transactions to support the broader development strategies of 
our Missions. We want the new Development Finance Corporation (DFC) to 
follow a similar, client-driven model. I think the new DFC will require 
a system that ensures development experts, especially from the field, 
participate in the design of all DFC transactions in a clear, data-
informed, and transparent process prior to approval. In my mind, this 
screening would need to happen not at the Board level, which is the 
final step in the approval process and occurs after programs are fully 
developed, but at the beginning of the process, when transactions are 
conceived and designed.

    Question. Do you believe USAID's equities, and your position on the 
board structure, is adequately written into the corporate structure of 
the new Development Finance Corporation?

    Answer. As I have said repeatedly, there must be very strong 
institutional and operational linkages between the U.S. Agency for 
International Development (USAID) and the proposed Development Finance 
Corporation (DFC) for each institution to be successful. The USAID 
Administrator's position on the DFC Board is a good start in this 
regard, but, as I noted previously, I believe strong linkages must 
extend throughout the proposed DFC to ensure all of its transactions 
are reviewed, from the design stage forward, to make sure they are 
consistent with U.S. development goals.

    Question. Do you believe that the achievement of positive 
development outcomes is sufficiently incorporated into the BUILD Act so 
that the new Development Finance Corporation will advance critical U.S. 
international development objectives important to the success of U.S. 
foreign policy?

    Answer. The administration has made it clear that the purpose of 
the Development Finance Corporation (DFC) is ``to mobilize private 
capital in support of sustainable, broad-based economic growth, poverty 
reduction, and development through demand-driven partnerships with the 
private sector that further the foreign policy interests of the United 
States.''
    The extent to which we are able to achieve this vision and realize 
positive development outcomes is largely a function of how the Build 
Act takes into account development priorities. As I have said before, 
the stronger the institutional and operational linkages are between the 
DFC and the U.S. Agency for International Development (and its 
programs), the higher the likelihood of the realization of positive 
development outcomes in the DFC's work. We look forward to working 
closely with the Overseas Private Investment Corporation and our 
interagency partners to ensure operational linkages are created in 
legislation and fully implemented.

    Question. What responsibilities do you think an effective CDO 
needs?

    Answer. The Chief Development Officer (CDO) is a critical position 
at the proposed Development Finance Corporation (DFC), as the person 
who occupies the CDO position must ensure all DFC transactions are 
rooted in U.S. Government development priorities and supported by 
existing development programs and expertise. As a result, I believe it 
is important that position is filled with a U.S. Agency for 
International Development (USAID) employee, given USAID's role as the 
U.S. Government's lead on development.
    We need a CDO who is deeply engaged in USAID's development mission 
and approaches, both globally and in specific bilateral environments. 
We view the CDO as an operational position to ensure our Missions have 
easy access to DFC tools, and a USAID employee would be uniquely 
positioned to connect USAID Missions to the new DFC. Linking the 
organizations through a USAID employee as CDO would allow a more-
permanent relationship between the financing tools and U.S. Government 
development strategies. It would also ensure USAID Missions could more 
easily leverage DCA and other development-finance tools at the new DFC, 
including the proposed equity authority.

Foreign Assistance Review
        It has come to my attention that OMB has instructed USAID to 
        undertake a significant review of all foreign assistance 
        programs.

    Question a. When do you anticipate this review to be complete?

    b. Will USAID and/or OMB brief the Senate Foreign Relations 
Committee on the preliminary finding and results of the review prior to 
publication?

    c. What motivated this review?

    d. Given that this is a directive from OMB, not from experts with 
the appropriate experience, can you guarantee that this review will be 
a verifiably objective assessment of U.S. foreign assistance programs?


        Given the very public skepticism that some of the 
        administration's political leadership have expressed towards 
        the value of foreign assistance, including the very public 
        threats to cancel foreign assistance to certain countries and 
        withhold U.S. contributions to various multilateral funds.

    e. What assurances can you provide the committee that the final 
review of this project will be based on objective evaluations of 
foreign assistance programs?

    f. Do you having any assurances from OMB or the White House that 
they will publish or make publicly available USAID's raw and objective 
analysis?

    g. How do you anticipate this review will impact foreign assistance 
programs, or be used to justify future budget requests or programs 
allocations?

    Answers (a to g). The U.S. Agency for International Development 
(USAID) is aware of plans for a foreign-assistance review led by the 
National Security Council (NSC) and the Office of Management and Budget 
(OMB), but we cannot speak to what motivated the exercise. USAID is 
currently awaiting further details on the timing, scope, focus, and 
purpose of this review. I do not know when the review will be 
concluded. USAID has provided guidance as to how to find and interpret 
publicly available data on USAID's investments around the world, but we 
have not yet received a formal request to respond to questions or tasks 
regarding this review from OMB or the NSC. If asked to participate, I 
commit that USAID's contributions to the review will be objective, and 
will provide an assessment of our foreign-assistance programs based on 
our development expertise. As you know, I believe it is crucial that 
our resources are focused, strategic, advance our U.S. national-
security interests, and promote self-reliance among our partner 
nations.
    At this point, I cannot anticipate the impact this review might 
have on foreign assistance, including future budget requests or program 
allocations. On your question regarding the publication of analyses 
pertaining to the review and briefings on preliminary findings, I would 
defer to the NSC, OMB and the White House. I expect that USAID would 
brief the committee, alongside our interagency colleagues, if the 
review includes our contributions.

Yemen, Rerouting Shipments
        Humanitarian organizations implementing programs with USAID 
        funding face a very challenging and insecure operating 
        environment in Yemen. Because of Saudi-led coalition 
        airstrikes, ground fighting, and bureaucratic impediments by 
        both the Saudis and the Houthis, many NGOs have begun rerouting 
        shipments of aid south to the port at Aden, rather than using 
        Hodeidah port, despite Hodeidah being much closer to the 
        millions of people--half of them children--in need of 
        lifesaving humanitarian assistance. Rerouting aid shipments in 
        this way not only increases aid delivery time, thus prolonging 
        the suffering of millions of people, but it also increases 
        costs to humanitarian organizations implementing programs on 
        the ground, often with U.S. taxpayer funding.

    Question. What is the administration's strategy for remedying these 
access issues, to ensure USAID dollars go as far and reach as many 
vulnerable people as possible?

    Answer. As one of the largest donors of humanitarian aid to Yemen, 
the United States continues to emphasize that unrestricted access for 
all humanitarian and commercial imports through all ports of entry, and 
throughout the country, is necessary to help the millions of people in 
need. The combination of significant and prolonged declines in 
commercial imports with delayed humanitarian assistance could lead to a 
further deterioration of food supplies, which could potentially result 
in famine or catastrophic food-insecurity in some areas. While access 
remains a challenge, humanitarian shipments are still reaching Yemen's 
ports, including Hodeidah and others on the Red Sea, and U.S. 
Government humanitarian partners are working to reach as many people as 
possible. As you know, in April of this year the WFP installed in the 
port of Hodeidah the long-delayed cranes purchased by USAID, which have 
helped to relieve one of the major bottlenecks to the arrival of 
assistance. In May, the United Nations World Food Programme (WFP), the 
major recipient of funds from the U.S. Agency for International 
Development (USAID) in Yemen, distributed emergency food assistance to 
just under seven million Yemenis, which represents nearly 99 percent of 
the Agency's targeted caseload of beneficiaries.
    Ensuring the continued flow of commercial goods also supports 
humanitarian objectives. Yemen has historically imported 90 percent of 
its food, and most of its fuel and medicines, and humanitarian aid 
alone cannot address all the country's needs. USAID is supporting the 
expanded monitoring and inspections of ships into Red Sea ports to 
ensure a more efficient clearance through the United Nations 
Verification and Inspection Mechanism. This system provides an 
efficient, neutral clearance and inspection process for Yemen's Red Sea 
ports not under the control of the Government of the Republic of Yemen, 
which increases the confidence of shippers and importers, while also 
addressing the security concerns of the Saudi-led Coalition.

Redesign
        USAID Redesign efforts are said to be organized with a set of 
        five desired outcomes: (1) Journey to Self-Reliance; (2) 
        Strengthen Core Capabilities; (3) Advance National Security; 
        (4) Empowering our People to Lead; and (5) Respect Taxpayer 
        Investments. I am not sure that the redesign strengthens the 
        agencies core capabilities designed to support our partners 
        efforts to improve democratic governance and institutional 
        capacity building.

    Question. Given the sheer number of proposed bureaus, programs and 
functions that would be consolidated under a new Associate 
Administrator for Relief, Resilience and Response, what percentage of 
resources would be left for non-emergency and non-crisis response 
activities?

    Answer. While the new Associate Administrator for Relief, 
Resilience and Response would oversee emergency and crisis-response 
activities at the U.S. Agency for International Development (USAID), he 
or she would also oversee our long-term resilience and food-security 
programming. This would ensure a cohesive and unified platform to 
improve coordination and more-purposeful transitions between emergency 
interventions and programming in long-term resilience, conflict-
prevention, and food security.
    In Fiscal Year (FY) 2018, for the accounts fully and partially 
managed by USAID, nearly 25 percent of our budget is for Humanitarian 
Assistance (International Disaster Assistance (IDA), Food for Peace 
Title II (FFP)), nearly 75 percent is for Development and Operations, 
and less than one percent is for Contingency Accounts (Transition 
Initiatives (TI) and the Complex Crises Fund (CCF)). The below chart 
shows the dollar amounts and proportion of development funding, 
humanitarian, and contingency funding for the accounts USAID fully and 
partially manages.


    Question. How will the proposed ``Development, Democracy and 
Innovation'' Bureau ensure that the United States continues to promote 
democracy as a fundamental component of sustainable development and 
overall U.S. foreign policy?

    Answer. As someone with a strong background in democracy, I have 
given this careful thought and have also consulted extensively external 
experts including the National Democratic Institute (NDI) and 
International Republican Institute (IRI). I believe that the 
Transformation of the U.S. Agency for International Development (USAID) 
and the proposed Bureau for Development, Democracy and Innovation (DDI) 
elevate democracy, human rights and governance (DRG), not only in our 
structure, but in our program-design and country strategies.



    DOLLAR AMOUNTS AND PROPORTION OF DEVELOPMENT FUNDING, HUMANITARIAN,
   AND CONTINGENCY FUNDING FOR THE ACCOUNTS USAID FULLY AND PARTIALLY
                                 MANAGES
       $ in thousands for all items  % percentage of total funding
------------------------------------------------------------------------
                                     FY 2017
                                     Initial      FY 2018      FY 2019
                                     Actual       Enacted      Request
------------------------------------------------------------------------
Development and Operations......  $18,034,591   $18,246,763  $13,143,046
                                  76.6%         74.9%        78.3%
                                 ---------------------------------------
Humanitarian Assistance.........  $5,410,186    $6,001,312   $3,557,412
                                  23.0%         24.6%        21.2%
                                 ---------------------------------------
Food for Peace Title II.........  $1,900,000    $1,716,000   $ --
                                  8.1%          7.0%         0.0%
                                 ---------------------------------------
International Disaster            $3,510,186    $4,285,312   $3,557,412
 Assistance.                      14.9%         17.6%        21.2%
                                 ---------------------------------------
Contingency Accounts............  $102,600      $122,043     $87,043
                                  0.4%          0.5%         0.5%
                                 ---------------------------------------
Transition Initiatives..........  $72,600       $92,043      $87,043
                                  0.3%          0.4%         0.5%
                                 ---------------------------------------
Complex Crisis Fund.............  $30,000       $30,000      $ --
                                  0.1%          0.1%         0.0%
                                 =======================================
  Total Fully and Partially       $23,547,377   $24,370,118  $16,787,501
   Managed Accounts.              100.0%        100.0%       100.0%
------------------------------------------------------------------------




    The new self-reliance metrics include numerous democracy and 
governance indicators, such as the Varieties of Democracy Project's 
``Liberal Democracy Index,'' the World Justice Project's ``Open 
Government Index,'' and civil society capacity measures, which are all 
critical elements for measuring open and accountable governance issues 
broadly, as well as the environment facing civil society.
    We all know that DRG underpins sustainable development, and without 
it self-reliance is unattainable. However, in our current 
organizational structure, crisis and conflict too often overshadow DRG. 
The proposed structure moves the Democracy, Human Rights, and 
Governance Center into the proposed Bureau for DDI, which will be a 
customer-service entity that provides advice and expertise to the USAID 
Missions in the field. Including the Democracy, Human Rights, and 
Governance Center in the DDI would provide field-focused support for 
USAID's programming, as well as technical and policy leadership in 
democracy, human rights, and governance. The Center would also lead the 
Agency's learning, evidence and research in DRG programming, and serve 
as the ``home'' for our Democracy and Governance Foreign Service 
Officers. The Center's placement within DDI would promote integration 
across sectors, as well as cross-Bureau and cross-Agency coordination.
    The Center would have a strong, formal relationship to the Bureaus 
for Conflict Prevention and Stabilization (CPS) and Humanitarian 
Assistance (HA), to ensure long-term DRG programming and objectives 
inform interventions when crisis strikes, and that long-term 
programming likewise reflect changes that result from those situations.
    Additionally, DRG's inclusion in the Self-Reliance Metrics-the 
Liberal Democracy Index, Government Effectiveness and others-will 
ensure all of USAID's strategies and programming consider democracy and 
governance.

    Question. How do you intend to partner with this committee to 
ensure that the State/USAID/interagency relationship is resolved, 
appropriately empowering the unique diplomatic and development missions 
of these agencies?

    Answer. I deeply appreciate your strong support for the U.S. Agency 
for International Development (USAID), and your recognition of our 
unique development mission, along with the diplomatic mission of the 
U.S. Department of State. The recent National Security Strategy, 
Department of State-USAID Fiscal Year 2018-2022 Joint Strategic Plan, 
and Stabilization Assistance Review all reflect the value of USAID's 
role in achieving U.S. national-security goals. USAID will continue to 
lead on development and humanitarian assistance, and appreciate the 
committee's support for our critical internal and external efforts to 
ensure USAID is properly resourced to our goal of supporting countries 
on their journey to self-reliance. I commit that USAID will continue to 
keep you informed as we implement our Transformation.

    Question. How will this process ultimately improve coordination, 
oversight, and accountability of foreign aid administered by agencies 
outside of State or USAID?

    Answer. Improving coordination, oversight, and accountability of 
foreign aid administered by our partners is key to our success. For 
example, the administration has proposed a new development finance 
corporation, which it believes will create totally new opportunities 
for our development experts in the field. Similarly, the 
administration's proposal to consolidate the Inter-American Foundation 
(IAF) and the African Development Foundation (USADF) into the U.S. 
Agency for International Development (USAID) would improve 
coordination. Further, USAID's proposed Bureau for Policy, Resources 
and Performance (PRP) would create a stronger, more-coordinated voice 
to support USAID development policy and budget priorities, internally 
and in the interagency, by consolidating development-policy, program-
performance and budget functions into one unit. Under this proposal, 
the USAID Senior Coordinator at the Department of State's Office for 
Foreign Assistance Resources (F) would report to the Assistant to the 
Administrator for PRP, which would increase collaboration between staff 
in PRP and State/F, as well as improve processes that better support 
our shared objectives in the foreign-assistance budget. To be clear, 
the Secretary of State will continue to serve as the point of 
coordination for foreign assistance.
    Internal to USAID, PRP would include a new Office of Bilateral and 
Multilateral Engagement (BME) that would be responsible for setting 
Agency policy and standards for, evaluating our grants to, and 
supporting USAID operating units in engaging bilateral and multilateral 
organizations. PRP/BME would build on existing functions in USAID's 
current Bureau for Policy, Planning and Learning by facilitating 
Agency-wide policy coordination with major multilateral organizations 
and providing Agency guidance on our performance-monitoring and 
oversight of multilateral organizations to promote alignment with U.S. 
Government interests, influence the decision-making of other partners, 
and enhance long-term alliances and burden-sharing. Ultimately, 
centralizing these functions would result in more coordinated, coherent 
engagement, as well as ensure better monitoring of, and accountability 
for, financial arrangements with those organizations across the Agency.

    Question. How might creating a U.S. Global Development Strategy 
that guides policy for all U.S. development agencies help further 
clarify roles and responsibilities, while serving as a complement to 
our National Security Strategy?

    Answer. Thank you for the suggestion. Under the coordinating 
leadership of the National Security Council (NSC), the U.S. Agency for 
International Development (USAID) and other interagency development 
stakeholders cooperate closely to ensure our development roles and 
responsibilities align towards successfully achieving the objectives of 
the U.S. National Security Strategy (NSS). A number of additional 
supporting plans and strategies already provide for the clarification 
of roles and responsibilities, and greater coordination.
    For example, on alignment with the NSS, the joint U.S. Department 
of State-USAID Fiscal Year 2018-2022 Joint Strategic Plan (JSP) 
strengthens our coordination, articulates development and foreign-
policy priorities, and bolsters strategic clarity, operational 
effectiveness, and accountability to the American people. USAID and the 
State Department developed this JSP through an internal consultative 
process, and, in addition, consulted with representatives from 18 
interagency partners to analyze and discuss the strategic objectives of 
the JSP to promote close coordination and alignment with other 
Departments and Agencies that implement foreign-assistance and 
development programs.


        While your Agency has briefed on its current plans to 
        reorganize USAID, I continue to hear rumors of other potential 
        changes to the humanitarian assistance system. Some of these 
        rumored changes would represent significant shifts in current 
        assistance practices and structure.

    Question. Below the level of merging bureaus or offices, what 
specific programmatic and structural changes will you be proposal to 
make to USAID's humanitarian assistance programs and activities in the 
field, at the regional level, and at USAID headquarters?

    Answer. The proposed Humanitarian Assistance Bureau would 
consolidate 13 divisions in the Offices of U.S. Foreign Disaster 
Assistance (OFDA) and Food for Peace (FFP) into eight offices under one 
Bureau at the U.S. Agency's for International Development (USAID). The 
consolidation would serve two purposes: eliminating inefficiencies and 
redundancies and elevating the platform of U.S. Government humanitarian 
assistance. In practice, these structural changes would create unified 
platforms for core humanitarian functions, including logistics, the 
formulation and execution of budgets, the management of proposals and 
award, and support for the 24/7 deployment of teams overseas. In the 
field, one combined humanitarian-assistance team, which would encompass 
the full spectrum of food and non-food humanitarian assistance, would 
interface with host countries and partners to design and monitor 
assistance that best meets assessed needs and elevates humanitarian 
challenges, as needed. FFP already has begun to fully integrate into 
the response-management system used by OFDA to deploy and implement 
Disaster-Assistance Response Teams (DARTs) in the field and support 
Washington-based Response Management Teams (RMTs). Activation 
decisions, resource-planning, and staffing for these responses are now 
conducted as a joint effort between the two Offices, which results in a 
unified response posture in the field. In addition, FFP and OFDA 
currently co-fund staff at the U.S. Mission to the United Nations in 
Rome and in Afghanistan.

    Question. Please explain--as specifically as possible--how each of 
these proposed changes will improve the effectiveness of USAID's 
humanitarian assistance operations?

    Answer. Further details and specificity will be provided in the 
forthcoming Congressional Notifications. But to answer your question in 
general terms, by unifying and elevating humanitarian assistance, the 
U.S. Agency for International Development (USAID) would erase the 
artificial distinction between emergency food and non-food response; 
eliminate confusion and unnecessary duplication in the field; and allow 
beneficiaries and partners to deal with one, cohesive humanitarian-
assistance entity, which would optimize resources currently replicated 
across two Offices. The analysis conducted on this proposed change by 
McKinsey and Company indicates that the consolidation of critical 
functions and requirements between the two Offices which would improve 
efficiency, performance, and accountability. Some of those efficiencies 
include more-coordinated and consolidated geographic response teams; 
better engagement with international and domestic partners; 
improvements in technical and program quality; unified policy, 
outreach, communications, human-resources, and administrative staff; 
better financial, data-, and information-management; single audit-
coordination and risk-management functions; and consolidated overseas 
preparedness and response operations.
    Additionally, the proposed changes will further integrate USAID's 
humanitarian and resilience programming, ensuring our assistance not 
only addresses immediate needs, but builds resilience to future shocks, 
ultimately decreasing the need for humanitarian assistance.


        Currently, responsibility for atrocity prevention and support 
        for the Atrocities Prevention Board resides in the office of 
        Democracy, Human Rights, and Governance.

    Question. Under the redesign, will that work continue to reside in 
the Bureau for Development, Democracy and Innovation, or will it move 
over to the new Bureau for Conflict Prevention and Stabilization?

    Answer. The Bureau for Conflict Prevention and Stabilization would 
have a Center for Conflict and Violence Prevention, which would be the 
technical lead for preventing atrocities.
    The commitment of the U.S. Agency for International Development 
(USAID) to helping prevent mass atrocities reflects the Agency's 
mission and core values, and is also part of the comprehensive U.S. 
Government policy on stopping mass atrocities. I intend to do more on 
atrocity and genocide prevention, and look forward to working with you 
on this critical issue.

    Question. How will you ensure that this work is prioritized? Can we 
have your assurance that you will continue to assign at least one full-
time equivalent staff to work on atrocity prevention?

    Answer. I share your commitment to preventing atrocities, and 
assure you the Center for Conflict and Violence Prevention, in the 
proposed Bureau for Conflict Prevention and Stabilization, would have 
at least one technical expert on atrocity-prevention. This technical 
expert would be part of a broader team focused on preventing violence 
and funding early-warning systems.


        Although crisis response and disaster relief are critical 
        components of USAID, they are not its only functions. USAID has 
        been a world leader in not only humanitarian relief efforts but 
        also in helping to build resiliency around the globe to respond 
        to shocks by investing in development activities that help 
        ensure children have access to quality education, advance the 
        rights of women and girls and gender equality to ensure 
        stability and prosperity, that strengthen health systems to 
        support communities, and that support agricultural assistance 
        to feed the next generation.

    Question. How will the proposed reorganization of USAID offices 
improve outcomes for the beneficiaries of U.S. humanitarian assistance?

    Answer. In the current structure of humanitarian assistance in the 
U.S. Agency for International Development (USAID), while the Office for 
Foreign Disaster Assistance (OFDA) is responsible for non-food 
humanitarian assistance and the Office of Food for Peace (FFP) delivers 
emergency and non-emergency food assistance, the distinction between 
food and non-food assistance is artificial. The majority of program 
funding goes to the same set of countries, emergencies, and, in some 
cases, partners. While we cannot predict the outcomes for beneficiaries 
at this time, a unified Bureau would provide direct dividends to 
beneficiaries overseas by creating a more-efficient structure that 
unifies processes, which would result in more-efficient and strategic 
design of proposals and management of awards, and create cohesive 
support systems for our overseas operations. Partners would interact 
with one U.S. Government entity at USAID for humanitarian assistance, 
which would eliminate time spent working with two separate Offices, and 
allow for more-cohesive programming and more-effective monitoring and 
evaluation.

    Question. Please include in your response specific examples on how 
your proposed changes will drive improvements in outcomes like 
mortality rates, income levels and literacy rates in protracted 
humanitarian crises.

    Answer. At this time, we are unable to project causal changes to 
mortality, income levels, and literacy rates in protracted humanitarian 
crises. That said, the new proposed Associate Administrator for Relief, 
Resilience and Response would provide a new and much-needed function in 
the U.S. Agency for International Development (USAID) to strengthen the 
natural link among our investments in humanitarian crises, conflict, 
and resilience. The Associate Administrator would remove silos among 
these critical and related efforts, strengthen our ability to plan for 
recurrent crises, and thereby enhance countries' abilities to withstand 
future shocks.
    Recent evidence from USAID underscores the vital importance of 
strengthening the resilience of households, communities and countries. 
These long-term investments by governments and donors, such as USAID, 
are key to breaking the cycle of crises among chronically vulnerable 
households and communities and ultimately reducing their dependence on 
humanitarian assistance.
    New evidence from Malawi confirms that 80 percent of households in 
communities reached by long-term resilience programming (2010-14) that 
cost $376 per households over five years required less food assistance 
during the 2016 El Nino drought than they did during prior droughts, 
and 40 percent of these communities required no food assistance at all. 
Other households required $390 in humanitarian assistance in 2016 
alone. This finding demonstrates both the short-term returns on 
investing in resilience and the sustainability of these investments 
years after programming has ended.

    Question. How do you as USAID Administrator intend to continue to 
build America's legacy through investments in global health, education, 
gender equality, and agricultural assistance?

    Answer. I am committed to strengthening and building on the 
development programs that have represented America's generosity and 
values for years, while focusing those programs toward capacity-
building and self-reliance. In global health, I remain committed to the 
President's Emergency Plan For AIDS Relief, the President's Malaria 
Initiative, and the Global Health Security Agenda. The Agency also 
remains focused on programming to improve the health of women and 
children.
    In agriculture, the new Bureau for Resilience and Food Security 
(RFS) would continue to lead the whole-of-Government Feed the Future 
initiative, guided by the U.S. Global Food-Security Strategy, which 
seeks to reduce global poverty, hunger and malnutrition in a 
sustainable way. RFS would help people and partner countries break the 
cycle of crises, chronic vulnerability, and poverty, which would reduce 
humanitarian need, increase stability, and thereby contribute to U.S. 
national security and economic prosperity.
    On education, the Center for Education in USAID's proposed 
Democracy, Design, and Innovation (DDI) Bureau would lead the Agency's 
implementation of the Reinforcing Education Accountability in 
Development (READ) Act, including the development of a ``Comprehensive 
Integrated United States Strategy to Promote Basic Education'' that 
``[seeks] to equitably expand access to basic education for all 
children, particularly marginalized children and vulnerable groups; and 
(2) measurably [improve] the quality of basic education and learning 
outcomes.'' From 2011 to 2017, USAID education programs directly 
benefited more than 83.4 million children and youth in nearly 50 
countries. We have achieved promising results, and we will continue our 
work in this regard.
    Promoting gender-equality and empowering women and girls is 
fundamental to achieving USAID's development goals. This remains a top 
priority for me, and for the Agency. Investing in women produces a 
multiplier effect: women reinvest a large portion of their income in 
their families and communities, which furthers economic growth, 
security and stability. USAID funds programs focused on promoting 
gender-equality and women's economic empowerment, addressing and 
reducing forms of gender-based violence, and advancing the status of 
women and girls within the peace and security sector.

    Question. How does USAID plan to redesign its strategy in order to 
insure that preplanning development is included in order to save lives, 
reduce poverty, and help people emerge from humanitarian crises and 
progress beyond their assistance after the fact?

    Answer. The U.S. Agency for International Development (USAID) is 
reorienting its overarching strategic approach around the concept of 
``self-reliance,'' that is, focusing our partnerships to best-support a 
country's ability to plan, finance, and implement solutions to solve 
its own development challenges. For some countries, self-reliance might 
only be a few years away, while for others, it could be decades. For 
countries that are experiencing profound poverty, conflict, and 
humanitarian crises, our focus will be on getting such countries to 
first stabilize, and then ultimately build a base upon which the 
beginnings of self-reliance can take root. This will take time, but as 
stability and resilience grow in such countries through our 
humanitarian and conflict-mitigation interventions, we will be able to 
gradually shift our focus to building up a country's commitment and 
capacity to increasingly plan, finance, and implement solutions to 
solve its own development challenges. This, too, will take time, and 
such progress is rarely linear, but by keeping self-reliance as our 
north star, we hope that for even the most-fragile of our country 
partners, we have a clear long-term goal in mind.


        Specific policies, such as the U.S. Strategy to Prevent and 
        Respond to Gender-based Violence Globally, Ending Child 
        Marriage and Meeting the Needs of Married Children: The USAID 
        Vision for Action (and associated Resource Guide) and the USAID 
        Implementation Plan of the U.S. Global Strategy to Empower 
        Adolescent Girls, have been critical to enhancing and 
        coordinating the U.S. Government's work to end child marriage 
        and support already married girls and empower girls more 
        broadly to live healthy, safe, empowered and educated lives.

    Question. How will you ensure that these policies continue to be 
implemented and built upon, with evidence-based interventions, 
throughout the USAID transformation process?

    Answer. During Transformation, the existing development policies 
and strategies of the U.S. Agency for International Development (USAID) 
remain in effect. This includes a requirement for all USAID development 
policies to be grounded in research, analysis, and conclusions 
supported by evidence. Evidence-based policies accurately reflect the 
current state of knowledge, best practices and approaches in a 
particular field. On a regular basis, USAID conducts assessments of 
individual policies and strategies to gather evidence that helps us 
understand how they are shaping our programs. By identifying 
implementation successes, challenges and lessons learned, these 
assessments help strengthen the future formulation and implementation 
of policy. If approved, the proposed Bureau for Policy, Resources and 
Performance (PRP) would be responsible for continuing to set standards 
and procedures for formulating and assessing policies to ensure quality 
and evidence in sector policies and strategies, and coordinate with the 
other Bureaus to align policies with my overarching goals and vision.
    Similarly, according to USAID's Program Cycle operational policy, 
Agency staff must apply analytic rigor to support evidence-based 
decision-making in the design of country strategies, projects and 
activities. During implementation, programs must adapt in response to 
changes in context and new information. The proposed PRP Bureau would 
continue to provide guidance and institutional support to ensure field-
based programs are based on evidence, respond to changes in country 
context, and ultimately build partner capacity to lead their own 
development journey.
    Additionally, the new metrics include two indicators critical for 
helping us assess gender (and social inclusion more broadly) through 
the lens of self-reliance. One is the World Economic Forum's Economic 
Gender Gap analysis, which looks at gender differences in economic 
participation and opportunity, while another is the Varieties of 
Democracy Project's Social Group Equality measure, which examines the 
enjoyment of all civil liberties equally by all social groups in a 
country.


        Congress recently enacted the Global Food Security Act, the 
        Electrify Africa Act, the Water for the World Act, and the 
        Foreign Aid Transparency and Accountability Act--each 
        empowering USAID to deliver development results in a more 
        sustainable, accountable way.

    Question. How would severe budget cuts to development assistance 
impact these initiatives, our development objectives, and our strategic 
partnerships around the world?

    Answer. The President's Budget Request for Fiscal Year 2019 
prioritizes foreign assistance in regions and on programs that most 
advance our national interest and support the administration's most 
critical priorities. We will never have all the resources to do 
everything that we want to do. That is a given. We had to make tough 
choices. My job as Administrator is to ensure the most efficient, 
effective use of the dollars Congress generously appropriates and our 
work will expand as resources allow. The U.S. Agency for International 
Development is committed to partnering with nations on their journey to 
self-reliance and maximizing the impact of these initiatives for the 
American taxpayer.

    Question. How will the staffing and resource realignment resulting 
from the redesign affect USAID's ability to fulfill the Congressional 
directives of these programs?

    Answer. The U.S. Agency for International Development (USAID) is 
committed both to implementing the reorganization and Transformation of 
the Agency and sustaining the quality of our core work simultaneously, 
including by supporting national-security interests and fulfilling 
Congressional directives. Our people are the foundation for 
Transformation--we intend to approach these changes with adaptability 
and flexibility, and with our workforce at the forefront. We recognize 
that supporting these processes will require resources. As we near 
implementation, we are focusing on developing realistic timelines and 
workloads, plans for workforce and human-capital needs, and proposals 
for financial resources to ensure USAID's regular work can continue 
without undue disruption. Ultimately, these changes would make us more 
effective and maximize our development outcomes.
    Related to the new Bureau for Conflict Prevention and 
Stabilization, there is concern about how this Bureau will be 
meaningfully connected to USAID's work on democracy, human rights, and 
governance issues under the Bureau for Development, Democracy and 
Innovation.

    Question. Understanding that issues related to governance, 
democracy and human rights can be--and often are--at the root of 
conflict, how will you work to limit siloing between these streams of 
effort and ensure that work on conflict prevention is as holistic as 
possible?

    Answer. The proposed Bureau for Conflict Prevention and 
Stabilization (CPS) would be USAID's technical lead on preventing 
conflict and violence, as well as the implementation of political-
transition and civilian-stabilization programs in high-priority 
countries, and CPS would nclude a Center for Conflict- and Violence-
Prevention (CVP). The Democracy, Human Rights, and Governance (DRG) 
Center Center's placement within the proposed Development, Democracy 
and Innovation (DDI) Bureau would limit siloing between streams of 
effort, so as to ensure a holistic approach to conflict-prevention work 
throughout the Agency.
    Staff within the proposed CPS Bureau, particularly in the new CVP 
Center, would have technical expertise that includes governance 
capabilities around crisis-response, countering violent extremism 
(CVE), and conflict-prevention and would be a resource within the 
proposed CPS Bureau to identify and collaborate holistically on 
governance issues as they arise. Additionally, CPS would have 
deliberate linkages to the proposed DDI, which would be the technical 
home of Backstop (BS) 76 Foreign Service Officers, who cover crisis, 
stabilization, democracy, and governance, and USAID's expertise in 
long-term DRG programming that facilitates the journey to self-
reliance.

Multi-year Planning for Protracted Crises
        Of the 21 U.N. Humanitarian Response Plans (HRPs) released by 
        the United Nations this year, 19 seek to address humanitarian 
        crises that have been ongoing for 5 years or more. Of these 
        crises, it is notable that three countries have had 
        humanitarian plans and appeals each year for at least 18 years 
        (Democratic Republic of the Congo, Sudan and Somalia).

    Question. What specific changes is USAID proposing to undertake to 
improve and systematize multi-year planning for protracted crises?

    Answer. The U.S. Agency for International Development (USAID) funds 
implementing partners, including entities within the United Nations 
(UN) system, to conduct multi-year, multi-agency planning, with the aim 
of developing more innovative, long-term programs. Progress has 
occurred under the leadership of the U.N. Office for the Coordination 
of Humanitarian Affairs (OCHA), in the use and refinement of 
collaborative multi-year plans, which were in place in seven countries 
in 2017. USAID will continue to work with OCHA to ensure the U.N. 
develops and deploys such plans in the context of protracted crises, 
and that multi-year planning forecasts are part of the preparation of 
country-level U.N. Humanitarian Needs Overviews and appeal documents.
    I share your concern that we continue to invest resources, year 
after year, in the same set of countries in crisis without a good 
definition of success. I am also troubled by the possibility that our 
well-intentioned humanitarian assistance in some places could be 
abetting corrupt and rapacious behavior that is prolonging conflict, 
rather than helping to solve it. USAID is in the process of drafting 
internal guidance documents for staff that will make the funding of 
multi-year awards contingent on a partner's establishment of a multi-
year plan for each program. We are also undertaking reviews of our 
assistance in South Sudan and Burma to minimize our exposure to moral 
hazard.
    The ultimate answer to your question is that the international 
community must recognize that affected populations in protracted crises 
require a continuity of resources beyond immediate, humanitarian 
relief. In response, USAID is drawing on the comparative advantages of 
development and humanitarian actors, by collaborating early and 
strategically both to respond to emergency needs and to promote the 
creation of sustainable livelihoods to create longer-term resilience. 
Strategic collaboration across relief and development that begins at 
the design stage, particularly through resilience-building strategies 
and activities to prepare for, and reduce the risk of, disasters, can 
contribute to reducing the need for continuous, life-saving 
humanitarian assistance, as we have seen in recent investments in the 
Somali Region of the Federal Democratic Republic of Ethiopia. We are 
increasingly combining resources from accounts such as health, food 
security, nutrition, and economic development to make such 
collaboration easier and more effective; a good example is our cross-
sectoral community resilience approach across the Sahel, through the 
USAID Resilience in the Sahel Enhanced (RISE) II Initiative. The 
technical approach working paper for the RISE II Initiative can be 
found at: https://www.usaid.gov/sites/default/files/documents/1860/
RISE--II--Technical--Approach--Working--Paper--May--2018.pdf. The 
proposed creation of the new Bureau for Food Security and Resilience in 
the Agency's Transformation is meant to institutionalize this approach 
and focus USAID more intensively on helping to build solutions to long-
term crises, rather than just containing the damage they produce.

Refugee Policy and Programs
        State Department's Bureau of Population, Refugees and Migration 
        is critical to the State Department. The Department of State's 
        efforts to respond to crises includes efforts to address 
        refugee flight and solutions require the integration of 
        diplomatic engagement and assistance. Moreover, most of the 
        State Department's humanitarian assistance is implemented 
        through investments in a network of international 
        organizations. State Department's role in governing bodies like 
        UNHCR and ICRC, for example, provide the United States with 
        crucial influence over how those institutions operate in areas 
        of concern to the U.S. Government.

    Question. Does USAID support a consolidation of State Department's 
humanitarian component into USAID? If so, are you aware if OMB supports 
this move as well?

    Answer. I have personally spoken to Secretary Pompeo about 
humanitarian assistance, and I can assure you that no decisions have 
been made. I look forward to future conversations with him, and with 
you, about the most-efficient way for the U.S. Government to deliver 
and manage humanitarian assistance.
    As articulated in the Government-wide Reform Plan and 
Reorganization Recommendations released by the Office of Management and 
Budget (OMB) in June 2018, the administration is launching a process to 
review how to optimize U.S. humanitarian assistance, but has made no 
decisions. Three Bureaus and Offices at the Department of State and the 
U.S. Agency for International Development (USAID) currently fund and 
conduct U.S. humanitarian assistance programs, which divides strategic 
planning and decision-making on humanitarian policy and implementation. 
The administration is reviewing how we provide humanitarian assistance 
across State and USAID to maximize our leverage, improve the 
effectiveness of our aid, and meet our foreign-policy goals and 
objectives better. These include driving strong reforms in the United 
Nations (UN) humanitarian system, increasing burden-sharing among 
donors, minimizing duplication of effort in our programming and policy, 
and maximizing efficiency in meeting humanitarian needs and resolving 
underlying crises. As part of this process, the Department of State and 
USAID will submit a joint recommendation to optimize humanitarian-
assistance programs to OMB, as part of our Fiscal Year (FY) 2020 Budget 
Request. USAID is committed to consulting with Congress on any final 
proposal.

    Question. Would our broader foreign policy objectives be better 
served by moving refugee operations into USAID?

    Answer. In my view, further analysis is required to answer this 
question. I believe the Department of State has an important role to 
play in U.S. refugee policy, particularly on the diplomatic front, and 
in the resettlement of refugees. But I also believe that the current 
system has challenges, some of which I saw first-hand on my recent trip 
to Burma and Bangladesh. While Rohingya are in Burma, we consider them 
``internally displaced persons,'' and they receive assistance from the 
U.S. Agency for International Development (USAID). When they enter 
Bangladesh, we label them as ``refugees''--which, of course, is led by 
the Department of State. Even then, USAID provides some elements of 
assistance. In many cases, USAID and the State Department each provide 
funding to the same organizations, through a separate series of grants 
and contracts in Burma and Bangladesh, to offer the same services. 
Given the fluidity of the situation, I believe this is an opportunity 
to review how the U.S. Government can create maximize efficiency (as 
well as greater effectiveness) in meeting humanitarian needs and 
resolving underlying crises.
    We look forward to working closely with the Department of State on 
the analytical process, and to sharing updates with you as we have them 
available.
Tuberculosis
        Tuberculosis (TB) is now the leading global infectious disease 
        killer, killing 1.7 million people a year--that's more than 
        malaria and more than HIV/AIDS. Current USAID TB funding 
        represents just 3% of the $8.69 billion in funding provided to 
        USAID and State Department global health programs.

    Question. With the drastic cuts this budget proposes how would the 
program be able to build hot-country capacity to find the missing 
patients, get them on treatment and end this disease?

    Answer. The President's Budget Request for Fiscal Year (FY) 2019 
proposes $178.4 million for international tuberculosis (TB), which is 
$2.3 million less than the FY 2018 request. With this amount, the U.S. 
Agency for International Development (USAID) will continue to support 
high-quality diagnosis, treatment, prevention, and care for millions of 
people with and at risk for TB, multi-drug-resistant TB (MDR-TB) and 
TB/HIV co-infection and expand programs if resources allow. In FY 2017, 
the Agency worked on TB with Ministries of Health (MoH) in 22 high-
burden countries, which we plan to continue in FY 2018. To complement 
our bilateral investments, the United States is also the largest donor 
to the Global Fund to Fight AIDS, TB and Malaria ($1.350 billion 
scheduled contribution in FY 2018), which finances TB programs in 94 
countries, plus three regional consortia.
    As you indicate, finding people with TB early and providing them 
with access to quality diagnosis and care is a critical step in 
combating the disease. Every individual with TB unreached will spread 
the disease to approximately 10-12 more people in his or her lifetime. 
USAID remains committed to building host-country capacity through the 
introduction and adoption of evidence-based approaches and new tools 
and technologies, and works with each National TB Program (NTP) in our 
22 focus countries to support its capacity to develop and implement 
evidence-based and budgeted national strategic plans. In addition, 
USAID works with local partners, including faith-based and community 
organizations, to provide person-centered care. We will continue to 
encourage the increase of political and financial commitments to 
fighting TB from high-burden countries with the ability to pay, as well 
as seeking opportunities to raise private capital.


        This September the United Nations will hold the first ever 
        High-Level Meeting on tuberculosis. TB is the leading global 
        infectious disease killer, but about 40% of cases are still 
        ``missed'' by health systems and growing numbers of cases are 
        drug-resistant. The U.S. Government is critical to making this 
        meeting a success.

    Question. Will you attend this meeting in order to ensure high 
level U.S. participation? How will you ensure that the final 
declaration includes clear commitments on targets, financing and 
accountability?

    Answer. While the Department of State and the White House have not 
yet determined the U.S. Delegation to the United Nations High-Level 
Meeting on Tuberculosis (TB), the administration hopes to have the 
highest U.S. Government participation possible. If requested, and 
schedule permitting, I would be pleased to be part of the Delegation as 
head of the Agency that leads the U.S. Government's international TB 
efforts. The administration will use the meeting to reaffirm the U.S. 
commitment to helping countries achieve the Sustainable Development 
Goal on TB.
    I agree that the final Declaration should include clear global 
commitments on targets, financing and accountability, but would note 
that the negotiations are still ongoing; USAID is participating in the 
interagency discussions on the text, and my staff is watching them 
closely. I commit to engage with you and your staffs as plans for the 
High-Level Meeting develop.

Foreign Assistance Efficiency
        As part of the Grand Bargain to improve aid efficiency and 
        effectiveness, the United States Government committed in 2016 
        to ``increasingly solicit and fund multi-year proposals, and 
        collaborate with our partners to increase the effectiveness and 
        flexibility of our multiyear mechanisms.'' At the time, 34% of 
        USG awards to NGOs were multi-year.

    Question. In 2017, what percentage of USAID humanitarian funding to 
NGO partners was multi-year? What steps is USAID taking to increase 
multi-year awards?

    Answer. The U.S. Agency for International Development (USAID) is 
dedicated to meeting its commitment under the Grand Bargain, a 2016 
agreement that brings together donors, United Nations agencies, non-
governmental organizations (NGOs), and the International Red Cross and 
Red Crescent Movement to strengthen the humanitarian system and address 
the global humanitarian funding gap. Specifically, USAID committed to 
improving the efficiency and effectiveness of humanitarian aid, 
including through the use of multi-year funding mechanisms that include 
the necessary provisions for transparency and accountability. In Fiscal 
Year (FY) 2017, over 32 percent of awards made by the Office of Food 
for Peace within USAID's Bureau for Democracy, Conflict and 
Humanitarian Assistance (DCHA) to NGO partners supported multi-year, 
emergency food-assistance programming. USAID/DCHA's Office for U.S. 
Disaster Assistance (OFDA) estimates that 20 percent of its funding in 
FY 2017 went towards multi-year programming, an increase of nearly 33 
percent over FY 2016 levels. USAID will continue to support multi-year 
programming in research and reducing the risk of disasters, and to fund 
across multiple program cycles, subject to funding availability.
    USAID will also more systematically consider, when practical, the 
use of cooperative agreements to support multi-year funding and 
planning. For example, USAID/DCHA/OFDA has amended its NGO Proposal 
Guidelines (developed in 2017, published in February 2018) to note that 
multi-year awards might be appropriate for a protracted emergency, or a 
longer-term project to reduce the risk of disasters. We encourage our 
NGO partners to discuss with U.S. Government field representatives 
whether multi-year awards are appropriate, and if funding is available. 
Funding determinations will depend on the local context, incremental 
multi-year planning, and available funding.

Procurement Reform

    Question. What are you doing in the reform process to ensure that 
smaller contractors such as financial cooperatives and credit unions 
with a proven track record of implementing programs are not 
disadvantaged in the bidding process and can compete on a level playing 
field with other for-profit entities?

    Answer. The U.S. Agency for International Development (USAID) is 
actively working to identify effective partners and develop and 
implement a series of interconnected and interdependent reforms to our 
program-design and procurement processes. We know we need to diversify 
our base of implementers: In Fiscal Year 2017, just 25 organizations 
accounted for 60 percent of our spending on acquisition (contracts) and 
assistance (grants and cooperative agreements), and 75 organizations 
made up 80 percent of our portfolio. Increasing opportunities for U.S.-
based small businesses and local partners around the world is at the 
heart of the effort to broaden our network. Indeed, developing new 
approaches in this regard is one of our stated goals in the Redesign 
and reform process.
    Another key tenet of our approach to helping countries advance on 
their journey to self-reliance is greater collaboration with private-
sector actors to foster what we call ``enterprise-driven development.'' 
For this reason, we are currently developing a new policy on Private-
Sector Engagement (PSE) for the Agency to ask our staff to apply 
sustainable, market-based solutions to development challenges across 
all sectors in which we work and address barriers to private 
investment. Under this new policy, we expect that collaboration with 
financial cooperatives, credit unions, and other types of organizations 
that employ locally relevant, market-oriented approaches will continue 
to be important to our work.

People with Disabilities
        USAID's Disability Policy recognizes that development programs 
        are more impactful if the estimated 15% of the world's 
        population that has a disability are included. However, SPANS 
        (Special Protection and Assistance Needs of Survivors) is again 
        zeroed out in the President's budget request.

    Question. How does the administration's budget, and specifically 
USAID's, gives a voice to people with disabilities, particularly 
through global democracy and governance programs? Please detail how the 
President's budget gives a voice to people with disabilities, 
particularly through global democracy and governance programs.

    Answer. The U.S. Agency for International Development (USAID) 
shares the committee's commitment to giving voice and support to people 
with disabilities, and to further inclusive development practices to 
help prevent the neglect of marginalized populations. While no 
administration has requested funding for Special Protection and 
Assistance Needs of Survivors (SPANS) for the last ten years, Congress 
has historically appropriated generous funding for SPANS, including $61 
million in Fiscal Year 2018. We strive to be efficient and effective 
with the resources appropriated by Congress.
    USAID is continuously working to ensure our programming is 
inclusive--including for persons with disabilities--across all sectors, 
not just in our programs in democracy and governance. Approaches to 
achieve this include disability-related provisions required in 
contracts and grants; disability-inclusive sector strategies and 
programming; the development and dissemination of training materials; 
and designated experts who serve as a resource to all Agency staff on 
these important issues. For example, USAID just launched the course, 
``Disability Inclusive Development 102: Mainstreaming Disability Across 
the Program Cycle and Beyond,'' available to all staff on USAID 
University, which, among other elements, contains practical tools that 
Missions and others can use to ensure the Agency's programming is 
inclusive of persons with disabilities. Specifically in democracy and 
governance, USAID funded the creation of a manual entitled, ``Equal 
Access: How to Include Persons with Disabilities in Elections and 
Political Processes,'' to ensure our work on elections meaningfully 
includes people with disabilities.
    Beyond trainings and manuals, USAID is also implementing programs 
to benefit the disabled directly in the field. For example, in 
Mozambique, USAID's Media-Strengthening Program funds a local media 
organization called Deaf TV run by deaf and hard-of-hearing 
journalists. The project is training ten Deaf TV journalists to produce 
high-quality, mainstream media content and conduct investigative 
reporting on disability-rights issues. The project is also assisting 
Deaf TV to obtain the required registration to become an official media 
outlet in the country. Deaf TV recently secured a regular slot on the 
country's largest independent TV station, which has a nationwide 
audience and will enable Deaf TV to produce a regular news program on a 
free-to-air channel.
    Additionally, the Strengthening Political Participation of Persons 
with Disabilities in the Republic of Serbia project, implemented by a 
local Disabled People's Organization, is strengthening the political 
participation of persons with disabilities in Serbia through 
legislative and electoral-reform processes. Specifically, the project 
is re-establishing the Parliamentary Disability Caucus Group to shape 
national policy, and raise the awareness of Members of Parliament of 
disability rights. It is enhancing collaboration with civil society, 
political parties and the Republic of Serbia Election Commission to 
develop measures that improve voting-accessibility for persons with 
disabilities. In April 2016, for the first time ever, Serbian electoral 
regulations required provisions for the participation of persons with 
disabilities in the electoral process, and independent monitors 
verified the accessibility of polling places for the first time.

Assessment of Vulnerable Populations
        The United States has been a historic leader on providing 
        humanitarian assistance on the basis of need--if people face 
        crises, we generally respond. Principled humanitarian response 
        means that assistance goes to all vulnerable populations--
        including persecuted groups like religious minorities.

    Question. As you look to allocate humanitarian assistance in FY 
2018 and FY 2019, will there be any adjustment to how vulnerable 
populations are assessed?

    Answer. The U.S. Agency for International Development (USAID) 
provides needs-based assistance when responding to disasters. USAID 
does not foresee changing this approach to our strategy and funding 
decisions. USAID is in the process of updating its assessment and re-
assessment procedures, which help identify vulnerable populations and 
their specific needs, through quantitative and qualitative data from 
needs-assessments. This update in procedures will not change that we 
program humanitarian resources based on emergency needs. USAID will 
continue to use international standards for needs-assessments, to 
ensuring we help meet the most-pressing needs of the most-vulnerable 
populations through our emergency-response programs. The needs USAID 
most-commonly sees in disasters are health, food security, nutrition, 
water and sanitation, protection from exploitation and abuse, and 
shelter.
    You have my commitment that the protection of persecuted groups, 
including ethnic and religious minorities, will continue to be one of 
my top priorities. I have just returned from visiting with oppressed 
Christian, Yezidi, and other minority communities in Northern Iraq at 
the request of the Vice President, and the experience deepened my 
conviction that assisting those who suffer because of their faith, 
race, or ethnicity is one of our most-important missions at USAID.

Human Rights & LGBTI
        Universal human rights and individual freedom are core American 
        values, yet many of the countries where USAID provides 
        development assistance still persecute and violate the rights 
        of LGBTI people and communities. In at least 76 countries--many 
        of which are USAID partner countries--discriminatory laws 
        criminalize consensual same-sex relationships, exposing 
        millions of LGBTI individuals to the risk of arrest and 
        imprisonment, while stigma and discrimination lead to poverty, 
        social isolation, diminished health, among other negative 
        development indicators.

    Question. What role will USAID play under your leadership to combat 
the harmful effects of stigma and discrimination that prevent LGBTI 
individuals from being full beneficiaries of international development, 
and how can USAID safeguard the rights and freedom of LGBTI individuals 
throughout all its programming?

    Answer. I share your concerns regarding the violence, 
discrimination, criminalization, and stigma facing lesbian, gay, 
bisexual, transgender, and intersex (LGBTI) people in developing 
countries. As the Administrator of the U.S. Agency for International 
Affairs (USAID), I have made clear that inclusion is one of USAID's 
core values, and that non-discrimination toward beneficiaries is a 
basic principle of development. As such, USAID will continue to 
implement its comprehensive, LGBTI-inclusive non-discrimination 
policies for the beneficiaries of contracts and grants.
    Under my leadership, USAID focuses on four main areas of LGBTI 
work: 1) supporting data-collection and research; 2) communications 
efforts to reduce stigma; 3) context-specific projects in the most 
difficult environments; and, 4) emergency-response grants to help 
protect LGBTI people in developing countries from violence and 
discrimination. In Fiscal Year (FY) 2018, USAID's Center of Excellence 
on Democracy, Human Rights and Governance within our Bureau for 
Democracy, Conflict and Humanitarian Assistance (DCHA/DRG) has provided 
$1,150,000 to support two programs that help protect LGBTI people in 
developing countries from violence and discrimination. These include a 
global program that provides training and strategic messaging support 
in 12 countries for civil-society organizations (CSOs) that are working 
to address anti-LGBTI discrimination and stigma, as well as a USAID 
Mission's country-level project to help a local CSO advance protections 
from anti-LGBTI violence and discrimination. Additionally, in April 
2018 USAID supported the release of three research reports that fill 
critical data gaps and help define the issues faced by LGBTI people 
around the world. These reports represent the first global 
quantification of anti-LGBTI stigma levels, which permits us to analyze 
country progress and the relationship between stigma, legal inclusion, 
and economic development.

Multilateral Engagement
        American representation is increasingly absent from 
        multilateral trade, diplomatic, and development gatherings of 
        all levels. For example, the United States Government has 
        historically been very active at the U.N. Conference of States 
        Parties to the Convention of the Rights of Persons with 
        Disabilities (CRPD), with multiple USAID and State Department 
        representatives in attendance, co-hosting panels and speaking 
        in keynote roles. This was not the case for the June 2017 10th 
        session of the Conference of States Parties to the CRPD.

    Question. Is America's lack of participation in multilateral 
meetings a strategic choice, or the result of unfilled positions and 
travel restrictions? What does this say to our allies and adversaries 
about American leadership in a volatile world?

    Answer. Yes, the administration is taking a strategic approach to 
multilateral engagement. I recognize that multilateral organizations 
are important partners in the Agency's efforts to fulfill our mission, 
execute our programs and advance U.S. foreign policy interests, but not 
all meetings are equal in importance, and not every subject is a 
priority.
    Over the last year, the U.S. Agency for International Development 
(USAID) has instituted a more-formal process to ensure our staff are 
participating at the appropriate levels in multilateral meetings, and 
delivering consistent, coherent messages that advance U.S. Government 
priorities in these settings. We work closely with the Department of 
State and the relevant U.S. Mission to the United Nations (UN) or other 
U.S. multilateral Mission in this regard. This ties directly to the 
administration's drive for heightened accountability of multilateral 
organizations, many of which are in need of reform. The United States 
is the largest investor in the multilateral system, and USAID is 
working closely within the U.S. interagency to help push through 
reforms to ensure the system is more effective, accountable, 
responsive, and efficient, and that every taxpayer dollar the Agency 
puts into a multilateral organization delivers value to the American 
people. To provide a concrete demonstration of how much importance we 
place on our interactions with the U.N. system and other international 
organizations, as part of our Agency-wide Transformation, we will be 
notifying Congress of our intent to create a new, unified office to 
handle our policy relationships with multilateral institutions for the 
first time, housed in the proposed Policy, Resources, and Performance 
Bureau.
    The administration did send representatives to the 2017 Conference 
of State Parties to the Convention on the Rights of Persons with 
Disabilities, and the U.S. Delegation included nine individuals who 
represented the Departments of State and Health and Human Services and 
USAID. More broadly, USAID continues to play a strong global role on 
disability rights and disability-inclusive development. For example, 
USAID will be represented by a senior official from the Administrator's 
Office at the upcoming Global Disability Summit on July 24, 2018, 
sponsored by the Department for International Development of the United 
Kingdom, the Government of Kenya, and the International Disability 
Alliance.

State Department Holds on USAID Funds
        It has come to the attention of the committee that the State 
        Department's Office of Foreign Assistance Resources, (F 
        Bureau), is withholding the approval of FY 2017 Operations 
        Plans and Spend Plans for several USAID programs. These are 
        programs that Congress has appropriated funds for FY 2017, and 
        F Bureau delayed obligating to USAID, only later to offer some 
        of the funds in the administration's recession package.

    Question. What is your understanding as to why the State Department 
is withholding these appropriated funds? How is the delay, or 
prohibition, of USAID receiving these allocations affecting the 
Agency's ability to operate affected programs? What are some of the 
consequences of the uncertainty of funding for affected programs? Do 
you believe any of these delays may be related to policy or political 
disagreements with Congressionally-mandated programs?

    Answer. The Department of State and the U.S. Agency for 
International Development (USAID) continue to obligate and implement 
funds consistent with annual Appropriations Acts, the Impoundment 
Control Act of 1974, and other applicable laws. The Bureau of Foreign 
Assistance Resources (F Bureau) at the State Department has completed 
its review of, and approved, 95 percent of USAID's Operational Plans 
(OPs) for Fiscal Year (FY) 2017. USAID has submitted the required Spend 
Plans for these OPs, and Congress has approved them. Subject to legally 
required Congressional Notifications and any ensuing holds, the 
Department of State and USAID will continue to work diligently to 
ensure we obligate all funds appropriated by Congress as quickly as 
possible, while assuring our compliance with applicable legal and other 
requirements.


        The administration has frozen foreign assistance in certain 
        contexts and is conducting a review of all foreign assistance, 
        to include humanitarian assistance, in South Sudan and West 
        Bank/Gaza. In all these contexts, there are substantial 
        populations in humanitarian need and danger of additional 
        populations backsliding into humanitarian need.

    Question. What will you do to assure that vulnerable populations 
receive basic services during such freezes and reviews? Do these 
reviews have the potential to make humanitarian assistance a political 
bargaining chip instead of a reflection of American values towards 
vulnerable populations? Can you commit to reporting back to this 
committee on the impact of these freezes and reviews and how they 
impact the ability of vulnerable populations to transition away from 
humanitarian assistance?

    Answer. The U.S. Agency for International Development (USAID) is 
committed to doing all we can to coordinate with other partners and 
help vulnerable populations continue to receive services during policy 
reviews of our assistance.
    It is critical that USAID's humanitarian and development assistance 
not enable predatory or corrupt behavior and unintentionally fuel 
further conflict. We remain committed to saving lives through 
principled humanitarian action. Our top priority is to support 
protection and assistance for communities in need, while ensuring the 
responsible and effective use of our funding. We work closely with our 
partners to ensure we and they have measures in place to prevent the 
diversion of our assistance, while maintaining our commitment to 
reaching people in need and supporting their transition to self-
reliance.
    South Sudan: As part of the review of U.S. Government (USG) 
assistance to South Sudan announced by the White House on May 8, 2018, 
the U.S. Agency for International Development (USAID) is examining our 
development and humanitarian-assistance programs to South Sudan to 
ensure our funding does not inadvertently contribute to predatory or 
corrupt behavior that enables actors to continue to prosecute the civil 
war in that country. USAID is not pausing, suspending, or canceling any 
programs in South Sudan at this time. As the U.S. Government remains 
the single-largest provider of humanitarian assistance to the people of 
South Sudan--having delivered more than $885 million in life-saving 
relief in Fiscal Year 2017--it is essential that we protect the 
integrity of our aid funding, and assure it goes solely for its 
intended purpose: to alleviate suffering and empower vulnerable 
communities to move toward self-reliance.
    West Bank and Gaza: U.S. assistance to Palestinians remains under 
review, and no funding decision has yet been reached. The 
administration seeks to identify how to leverage all forms of U.S. 
Government aid to achieve its policy objectives in the region. USAID is 
working closely with the interagency to communicate the funding needs 
for our West Bank and Gaza programs.
    I commit to keeping the committee posted on the ongoing assistance 
reviews, including any impact they might have on vulnerable 
populations.

Transparency and Evaluation and FATAA Implementation
    Question. What changes is USAID proposing to improve transparency 
and oversight of U.N. humanitarian partners? How is USAID ensuring that 
multi-year financing provided to U.N. agencies is flowing efficiently 
and effectively to their implementing partners in the field?

    Answer. The U.S. Agency for International Development (USAID) 
continues to advance the implementation of the Grand Bargain, a 2016 
agreement that brings together donors, United Nations (U.N.) agencies, 
non-governmental organizations (NGOs), and the International Red Cross 
and Red Crescent Movement to reform the humanitarian system and address 
the global humanitarian funding gap. Increased transparency and 
oversight is a central tenet of the Grand Bargain, and USAID is working 
with key U.N. partners to develop benchmark plans to ensure the 
agencies meet their Grand Bargain commitments. This includes a push to 
increase U.N. agencies' humanitarian reporting to the standards of the 
International Aid Transparency Initiative (IATI), promoting 
interoperability so the U.N.'s Financial Tracking System is IATI-
compliant, and advocating that donor funding be traceable in 
implementation through consistent application of the IATI standards.
    In addition to the changes USAID is seeking through the Grand 
Bargain, our oversight of U.N. humanitarian partners relies on a dual-
track approach: robust engagement at the Executive Boards (EBs) of key 
U.N. agencies and the use of field-based staff, who are experts in 
humanitarian assistance, to monitor the in-country performance of U.N. 
institutions in real time. For example, USAID has used both its EB 
position and close field engagement to drive strategic, programmatic, 
and budgetary reforms at the World Food Program (WFP) to improve the 
overall effectiveness of food-assistance operations. WFP's Financial 
Framework Review, a key component of these reforms, aims to provide 
more accurate and timely reporting information to governments and 
donors, and a clear line of sight between investments made, activities 
undertaken, and outputs delivered. On an individual award basis, USAID 
requires quarterly financial reports and regular programmatic reports, 
supplemented by close field collaboration and monitoring visits, to 
ensure that resources provided to U.N. organizations translate into 
effective, life-saving humanitarian assistance on the ground. USAID, in 
close alignment with interagency partners, also has leveraged the seat 
the United States holds on the EB of the U.N. Children's Fund (UNICEF) 
to increase its focus on humanitarian-assistance issues, which for many 
years had not been part of its agenda.
    Another element of the implementation of the Grand Bargain relates 
to multi-year financing and planning. As U.N. humanitarian agencies 
develop more multi-year planning, their efficiency and effectiveness 
will increase. USAID is pressing for these agencies to pass on gains 
from greater efficiency and effectiveness to their implementing 
partners. This effort, combined with increased reporting to IATI 
standards, will allow USAID to have greater visibility into funding 
flows to implementing partners from the U.S. Government and other 
donors.
    A large part of improving the transparency, and our oversight, of 
multilateral organizations is changing our own policies and procedures 
and how we interact with them. To that end, we are in the final stages 
of revamping our policy for grants, cooperative agreements and 
contracts with public international organizations (PIOs), Automated 
Directive System (ADS) Chapter 308. The changes will require all of our 
financial instruments with PIOs to include provisions to obligate the 
organizations to provide greater transparency in reporting, especially 
regarding transactions such as sub-grants or sub-contracts with non-UN 
entities, and to report cases of fraud or abuse immediately to USAID 
and our Office of Inspector General. We will brief Congress as soon as 
we have completed the revisions to ADS Chapter 308.
    Finally, as articulated in the Government-wide Reform Plan and 
Reorganization Recommendations released by the Office of Management and 
Budget (OMB) in June 2018, the administration is launching a process to 
review how to optimize U.S. humanitarian assistance, but has ) made no 
decisions. Three Bureaus and Offices at the Department of State and the 
U.S. Agency for International Development (USAID) currently fund and 
conduct U.S. humanitarian assistance programs, which divides strategic 
planning and decision-making on humanitarian policy and implementation. 
The administration is reviewing how we provide humanitarian assistance 
across State and USAID to maximize our leverage, improve the 
effectiveness of our aid, and meet our foreign-policy goals and 
objectives better. These include driving strong reforms in the U.N. 
humanitarian system, increasing burden-sharing among donors, minimizing 
duplication of effort in our programming and policy, and maximizing 
efficiency in meeting humanitarian needs and resolving underlying 
crises.
    In developing any proposal, the administration will address changes 
needed to achieve a unified voice on humanitarian policy, a single 
humanitarian budget, and reforms to optimize outcomes. The process will 
consider all options (structural, policy, procedural, and staffing) to 
achieve these objectives. As part of this process, the Department of 
State and USAID will submit a joint recommendation to optimize 
humanitarian-assistance programs to OMB, as part of our Fiscal Year 
(FY) 2020 Budget Request. USAID is committed to consulting with 
Congress on any final proposal.

        Sustainable and effective development is only possible when 
        project design and implementation properly accounts for 
        environmental, social, and human rights risks.

    Question. Considering the proposed 2019 USAID budget, what steps 
will you take to address this gap and ensure that USAID projects follow 
strong environmental and social safeguards? Will you commit to 
developing an accountability mechanism for USAID in the next fiscal 
year?

    Answer. Regardless of the overall budget level, the U.S. Agency for 
International Development (USAID) has systems to ensure the projects we 
fund have strong environmental and social safeguards. In 2016, USAID 
revised its project-design policy--codified in Automated Directives 
System (ADS) Chapter 201--to make a number of process improvements 
aimed at yielding more effective and sustainable change in our partner 
nations from environmental, social (including human rights) and 
economic perspectives. ADS 201 requires that USAID project-design teams 
systematically identify and account for risks in the local context, and 
put in place environmental and social safeguards to avoid, minimize, or 
mitigate potential harm. The policy also calls on our teams to set up 
systems to monitor these risks during the implementation of the 
programs that we fund, and to allow our managers to make course-
corrections with our partners as we learn lessons or circumstances 
change during the life of an award.
    A number of pre-award evaluations assessments shape USAID's 
project-design process, including an environmental assessment (as 
required by Title 22, Part 216 of the Code of Federal Regulations [CFR] 
and ADS 204), a climate-change assessment (as required by Executive 
Order 13677 and ADS 201), and a gender assessment (as required by ADS 
205), among others. Project-design teams also must identify other 
analyses--as relevant and appropriate--needed to understand the 
operating context and potential outcomes, both intended and unintended, 
of USAID assistance.
    These reforms complement a larger effort to break down risk silos 
across the Agency--including those related to the environment, social 
issues and human rights--to create a more holistic process for managing 
risk. Office of Management and Budget (OMB) Circular A-123, as revised 
in 2016, requires this approach, commonly referred to as Enterprise 
Risk-Management (ERM), of all Federal Departments and Agencies. USAID 
has just completed its first corporate-level Agency Risk Profile, and 
the Agency's Operating Units are in the midst of producing their own, 
which we will incorporate into a single document this fall. In 
addition, USAID has approved and plans to publish our first Risk-
Appetite Statement, which provides broad guidance to Agency staff 
regarding the different types of risk to weigh in achieving our 
objectives. The Risk Profile and Risk Appetite Statement will provide 
additional, critical accountability mechanisms for elevating keys risks 
(social, environmental, human rights and beyond) to ensure their 
oversight by Agency leadership, who meet regularly to discuss the major 
risks the institution faces.
    Specifically to your question on developing an accountability 
mechanism for USAID in the next Fiscal Year, at this time, the Agency 
will continue to rely on the existing accountability systems described 
above, and quickly implement the changes in management and oversight 
that will emerge from the Agency Risk Profile.


        In January, the Trump administration released guidance for the 
        Foreign Aid Transparency and Accountability Act--unanimously 
        passed by Congress--calling on all aid agencies to establish 
        and set high standards for evaluation and learning policies.

    Question. How does transparency and evidence of what's working and 
what's not advance effective development and U.S. interests abroad?

    Answer. The U.S. Agency for International Development (USAID) 
places high value on monitoring, evaluation, and learning to build a 
body of evidence on what works and what does not to increase 
development impact in furtherance of U.S. interests abroad. To codify 
our commitment to evaluation, the Agency released our Evaluation Policy 
in 2011, and revised it in 2016. The Policy is available on the 
Agency's public website at: https://www.usaid.gov/evaluation/policy. 
The Policy stipulates that the Agency use evaluation findings to inform 
the design and implementation of programs, and requires the transparent 
dissemination of all completed evaluations, including through 
submission to USAID's public Development Experience Clearinghouse. 
Since issuing the Policy, USAID has increased the number of evaluations 
commissioned each year to approximately 200. To understand whether 
these efforts are working, USAID's Bureau for Policy, Planning and 
Learning commissioned independent studies to examine the quality of our 
evaluations in 2013, and our use of evaluations in 2016. These two 
studies found there has been an increase in both the quality and use of 
evaluations at the Agency.
    USAID further facilitates the use of evidence in the design and 
monitoring of our programs by requiring the submission of all data sets 
and supporting documentation created or collected by the Agency to our 
public Data Development Library. Evidence transparently shared across 
USAID informs planning and design worldwide, so our Missions can 
benefit from each other's experiences and determine how to advance 
development globally more effectively in support of U.S. interests

    Question. Why has the administration again proposed eliminating 
nearly half of the PPL Bureau in its budget request to Congress, and 
what specifically would the Bureau have to give up under this budget?

    Answer. The President's Budget Request for Fiscal Year (FY) 2019 
for the State Department and USAID focuses resources on our national 
security at home and abroad, on economic development that contributes 
to the growth of our own economy, on continued leadership in 
international institutions based on a fair distribution of the burden, 
and on renewed efforts to modernize and make more effective the 
operations of both the Department of State and USAID. USAID has not 
made a final determination regarding how the Budget Request, if 
approved by Congress, would apply to the PPL Bureau.

    Question. How will you work with the State Department to improve 
aid data and data management, including resolving the multiple 
platforms for aid data that currently exist?

    Answer. The Department of State and the U.S. Agency for 
International Development (USAID) have similar, but distinct, foreign-
assistance reporting and transparency requirements and capabilities. In 
Fall 2017, a Department of State and USAID Working Group identified 
options for the consolidation of processes and data-collection related 
to ForeignAssistance.gov (FA.gov) and the Foreign Aid Explorer 
(Explorer.USAID.gov). The Working Group drafted a summary report that 
selected several options to respond to the Sense of Congress in FATAA--
to consolidate processes and data-collection as well as the 
presentation of information on the two websites. My leadership team at 
USAID and their counterparts at the State Department are currently 
discussing the options, and will determine a way forward by the end of 
this Fiscal Year.

    Question. What resources from the FY 2019 request are proposed to 
address these needs?

    Answer. The U.S. Agency for International Development (USAID) is 
improving the quality and comprehensiveness of its aid data and data-
management within existing resources. USAID is considering the 
resources required to implement the options set forth by a joint 
Working Group of officials from the State Department and USAID.. As the 
Working Group recommendations are still under review, we are not 
currently requesting new resources for the consolidation of processes 
and data-collection related to ForeignAssistance.gov and the Foreign 
Aid Explorer. USAID expects to have a better sense of the resources 
required for these needs once the Working Group finalizes its plan for 
moving forward.

Topline Budget Concerns
        The administration's decision to essentially resubmit the FY 
        2018 budget, with just minor changes in various numbers 
        demonstrates a concerning lack of and strategic thinking when 
        it comes to understanding the role USAID and foreign assistance 
        needs to play in U.S. foreign policy.

    Question. Do you believe that USAID can do its job effectively 
under the budget this administration has proposed?

    Answer. The President's Budget Request for Fiscal Year (FY) 2019 
prioritizes foreign assistance in regions and on programs that help 
advance our national interest and support the administration's most 
critical priorities. We will never have all the resources to take on 
every humanitarian challenge or development opportunity. That is a 
given, and this budget request makes difficult choices. My job as 
Administrator is to ensure the most efficient, effective use of the 
dollars Congress generously appropriates. The U.S. Agency for 
International Development is committed to partnering with nations on 
their journey to self-reliance and maximizing the impact of these 
initiatives for the American taxpayer.

    Question. What are you doing to ensure USAID's missions and 
projects are not adversely affected by the proposed budget cuts?

    Answer. The President's Budget Request for Fiscal Year (FY) 2019 
for the Department of State and the U.S. Agency for International 
Development (USAID) calls on other donors to do more, and seeks to 
mobilize other resources towards our goals (e.g., from the private 
sector and from partner countries' domestic resources), rather than 
spending more U.S. taxpayer money. Other donors are stepping up. For 
example, from July-December 2017, Australia made $30 million in 
commitments to respond to the Rohingya crisis in Burma and Bangladesh 
(one of the largest per capita commitments). At the 2017 Brussels 
Conference on Syria, donors pledged worth ?5.6 billion ($6 billion), of 
which two thirds, or ?3.7 billion ($4 billion), came from the European 
Union and its Member States. The European Commission also pledged an 
additional ?560 million ($601 million) for 2018 for inside Syria, 
Jordan and Lebanon. Japan has also made numerous significant 
commitments in the last year. On the humanitarian front, in December 
2017, Japan announced additional humanitarian assistance of $21 million 
for Syria and its neighboring countries. In March 2018, Japan made a 
$72.3 million contribution to the World Food Programme to provide vital 
food and nutrition assistance in 23 countries across the Middle East, 
Africa, and Asia. Additionally, in July 2017 Japan announced a $50 
million contribution to support the U.S.-initiated Women Entrepreneurs 
Finance Initiative at the World Bank, and the Republic of Korea (ROK) 
announced a $10 million contribution to support the program. At the 
High-Level Pledging Event for the Humanitarian Crisis in Geneva in 
April, 2017, the ROK also announced its plan to provide $4 million in 
humanitarian aid to Yemen.
    Our Redesign also aims to increase the effectiveness of USAID 
programs. For example, the new self-reliance metrics will help ensure 
that our partnerships are best-supporting a country to move along in 
its journey--closer and closer to that day when foreign assistance will 
no longer be necessary. For some countries, that journey may take 
decades, while for others, it may be much shorter. But in either case, 
through our focus on self-reliance, we will have a much clearer view on 
knowing what it will take to have the right partnerships models in the 
right places at the right time--thereby boosting our effectiveness.
    As Administrator, I have directed Agency staff to program funds as 
appropriated by Congress efficiently and effectively to achieve our 
development objectives. Our intent is to execute the appropriation as 
enacted by the Congress.

    Question. You have called this Budget ``a Message Document.'' 
Exactly what message is this budget is sending?

    Answer. My job as Administrator is to ensure the most efficient, 
effective use of the dollars Congress generously appropriates. The U.S 
Agency for International Development (USAID) is committed to partnering 
with nations on their journey to self-reliance and maximizing the 
impact of these initiatives for the American taxpayer.
    The Budget Request for Fiscal Year (FY) 2019 upholds the 
President's commitment to serve the needs of American citizens, ensure 
their safety, and defend their values, as outlined in the National 
Security Strategy, and is consistent with administration goals to 
streamline foreign assistance. The FY 2019 Budget Request will also 
allow the United States to retain its leadership in shaping global 
humanitarian assistance. It provides the resources necessary to advance 
peace and security, expand American influence, and address global 
crises, while prioritizing the efficient use of taxpayer resources.

Country Budget Allocations
        After almost a decade of transparency from Democratic and 
        Republican administrations (9 years) regarding country-by-
        country allocations for foreign assistance, this administration 
        provided no such information for the for the public as part of 
        its FY 2019 budget request. The administration proposed a 43% 
        reduction to development programs, but failed to explain its 
        impacts on various development sectors and priorities.

    Question. We expect this administration to maintain some commitment 
to transparency. When will Congress have access to this information? Is 
USAID capable of submitting country-by-country allocations for topline 
development and security assistance accounts for the record? If yes, 
will the Administrator please submit that formal request for the 
hearing record?

    Answer. The U.S. Agency for International Development (USAID) 
remains committed to being transparent with Congress. The initial 
Fiscal Year (FY) 2019 Congressional Budget Justification released by 
the Office of Management and Budget (OMB) on February 12, 2018, 
included regional and Operating Unit levels within each account. 
Shortly thereafter, USAID also provided Congress with additional budget 
tables, which included country- and sector-specific allocations, and 
the administration provided an appendix and supplementary tables on 
March 15, 2018, which were, and remain, publicly available on the 
following USAID website: https://www.usaid.gov/news-information/fact-
sheets/fiscal-year-fy-2019-development-and-humanitarian-assistance-
budget. These tables include country allocations, as well as those for 
central and regional Operating Units, and budget charts on program 
objectives and program areas; USAID Operating Expenses; global health 
elements; and several other key sectors, including agriculture, 
biodiversity, combating wildlife trafficking, countering violent 
extremism, democracy, basic education, higher education, and gender.
    The attached chart shows the proposed allocations to Operating 
Units across all foreign-assistance accounts included in the 
President's FY 2019 Budget Request, including country-level 
allocations. Also attached is a chart that shows the proposed sectoral 
allocations in each Operating Unit within the request for the Economic 
Support and Development Fund account.

Ending USAID Missions to 24 Countries
        The proposal to immediately close missions around the world, 
        runs the serious risk of alienating important allies and 
        neighbors, weakens our influence and cedes power and capacity 
        to our adversaries, and given the abruptness of such proposals 
        seems far from strategic.

    Question. The FY 2018 budget proposed ending USAID missions to 32 
countries. FY 2019 proposes ending 24 missions. What caused this 
changed?

    Answer. In both the President's Fiscal Year (FY) 2018 and FY 2019 
Budget Requests, proposed funding levels do not indicate the closing of 
a Mission. While both the FY 2018 and FY 2019 budget requests zeroed 
out funding from certain accounts in particular countries, in 
accordance with this administration's guidance, policy priorities, and 
overall funding reductions, the President's Budget Request did not 
notify any changes to the country presence of the U.S. Agency for 
International Development (USAID). At this time, USAID is not notifying 
any closures of Missions. The President's FY 2019 Budget Request 
proposed funding for 13 countries or institutions that were in 
alignment with this administration's current guidance and policy 
priorities, for which the FY 2018 Budget Request did not include 
resources: Central African Republic, Mauritania, Niger, Sierra Leone, 
the African Union, Laos, Timor-Leste, Azerbaijan, Belarus, Sri Lanka, 
Cuba, Ecuador, Paraguay, and Venezuela.
    If the President's Budget has not requested bilateral funding for a 
particular country, in some cases we are leveraging prior-year funds to 
continue some support. In other cases, we could invest funds from a 
regional operating unit or Washington to support activities.
    Regardless of the budget level, we believe it is responsible to 
review our portfolio continuously, and to invest our foreign assistance 
in the most-critical priorities.

    Question. If Congress had enacted the FY 2018 budget, how would 
have gone about restarting or reversing these closures?

    Answer. While both the President's Fiscal Year (FY) 2018 and FY 
2019 Budget Requests zeroed out funding from certain accounts in 
particular countries, the President's proposal did not notify any 
changes to the country presence of the U.S. Agency for International 
Development (USAID). At this time, USAID is not notifying any Mission 
closures. We will address planning related to changes to any specific 
USAID Missions separately from the budget. Closures or adjustments are 
not an overnight process, and the decision to end or close a Mission 
requires a broad discussion regarding ongoing programs, staff, and our 
relationships with the host-country government and other partners. 
Additionally, Mission closures require USAID to notify and consult with 
Congress.

    Question. How does proposing to abruptly close a USAID mission 
square with your ``Strategic Transitions'' Initiative?

    Answer. Building self-reliance is not about budget cuts or closing 
out Missions. It involves doing smarter--better--development. For some 
countries, self-reliance is likely many years away. We understand that, 
and are committed to helping countries where they are on their own 
development journey. But we must gear all of our investments toward 
moving them closer to the day when they will no longer need foreign 
assistance.
    As the U.S. Agency for International Development (USAID) reorients 
our strategies around the concept of ``self-reliance,'' in which 
countries are able to plan, finance, and implement solutions to solve 
their own development challenges, we will identify countries that show 
potential readiness for a conversation about a new relationship that 
moves beyond traditional assistance. By its nature, this process would 
preclude abrupt or unplanned transitions, and would be fully 
transparent and systematic, rooted in dialogue with all key partners. 
This would include Congress, our interagency partners, the host-country 
government, and other local stakeholders on how we work together to 
leverage resources and promote a forward-looking, enduring 
relationship.

    Question. Are any countries being strategically transitioned away 
from development assistance and under what timeline? If so, which ones?

    Answer. The U.S. Agency for International Development (USAID) is 
currently re-orienting itself around the concept of ``self-reliance''--
the ability for countries to plan, finance, and implement solutions to 
solve their own development challenges. As part of this effort, USAID 
has identified a set of objective, third-party metrics to help assess 
its partner countries' relative levels of self-reliance. For the most-
self-reliant partners identified by the metrics, USAID plans to have 
possible conversations about a strategic transition toward a 
partnership beyond the traditional donor-recipient paradigm. USAID 
would consult the inter-agency, Congress, the host-country government, 
and other key stakeholders on what this partnership could look like. It 
does not mean an immediate closeout of a Mission--it means thinking 
thoughtfully about the right role and footprint for USAID in that 
country.
    The President's Fiscal Year (FY) 2019 Budget Request was completed 
in parallel to our broader effort around self-reliance and the concept 
of strategic transition, but USAID intends to use the funding provided 
by Congress to advance self-reliance in all the countries in which we 
operate, and to prepare for transitions in the ones deemed prepared for 
the necessary shift in the relationship.

    Question. Can you explain how these timelines align, if at all, 
with your budget request?

    Answer. The process for strategic transitions will occur over 
multiple Fiscal Years. As such, we will align our budgets once the 
process has progressed.

Economic Support and Development Fund
        The administration proposed for the second year a row to create 
        a foreign assistance slush fund via massive program 
        consolidation. The ``Economic Support and Development Fund'' 
        would support activities ranging from foreign military finance 
        to basic education programs.

    Question. Does the administration intend to provide Congress and 
public more details, beyond the reprinted single paragraph from the FY 
2018 describing the program?

    Answer. The Congressional Budget Justification (CBJ) released 
online by the Office of Management and Budget (OMB) on February 12, 
2018, in conjunction with the President's Budget Request for Fiscal 
Year (FY) 2019, describes the overall purpose of the proposed Economic 
Support and Development Fund (ESDF), contains details about its 
proposed use by region, and provides illustrative examples of intended 
investments for certain countries and programs. (Please see pages 89-98 
of the CBJ, available here: https://www.usaid.gov/sites/default/files/
documents/1868/FY--2019--CBJ.pdf)
    Additionally, the Appendix for the Department of State and Other 
International Programs in the President's Budget Request for FY 2019 
includes language that describes the purpose of the ESDF account. The 
appendix states: ``In order to streamline accounts and ensure the most 
effective use of foreign assistance funding, the 2019 Budget 
incorporates funding and programs previously requested under the 
Economic Support Fund (ESF) and Development Assistance (DA) accounts 
within the new Economic Support and Development Fund (ESDF). The 
request prioritizes and focuses foreign assistance in regions and on 
programs that advance our national security and protect the American 
people, promote U.S. prosperity and economic opportunities, and advance 
American interests and values around the world, while also continuing 
to ensure efficiency, effectiveness, and accountability to the U.S. 
taxpayer. Programs will help countries of strategic importance meet 
near and long-term political, economic, development, and security 
needs.''

    Question. Do you believe you have the authority to create the ESDF 
without expressed Congressional authority? If not, when does the 
administration intend to submit a legislative proposal to the committee 
fort consideration?

    Answer. The creation of a new account--including the proposed 
Economic Support and Development Fund (ESDF)--would require 
Congressional action. As such, the President's Budget Request for 
Fiscal Year (FY) 2019 includes proposed legislative language for 
Congress to insert in the FY 2019 appropriations act to establish the 
ESDF account. Specific language on ESDF appears on page 798 of the 
appendix for the Department of State and Other International Programs 
of the President's Budget Request, which reads as follows: ``ECONOMIC 
SUPPORT AND DEVELOPMENT FUND: For necessary expenses to carry out the 
provisions of sections 103, 105, 106, 214, and sections 251 through 255 
of part I, chapter 10 of part I, and chapter 4 of part II of the 
Foreign Assistance Act of 1961, $2,101,905,000, to remain available 
until September 30, 2020: Provided, That funds under this heading may 
be made available to support programs and activities to prevent or 
respond to emerging or unforeseen foreign challenges and complex crises 
overseas, notwithstanding any other provision of law: Provided further, 
That funds made available under this heading may be made available for 
contributions to international organizations, programs administered by 
such organizations, and multilateral trust funds.''

USAID Independence
        I believe that State and USAID need to be coordinated, but I 
        also believe that USAID should have space to operate and 
        determine its own strategic policies for executing the U.S.'s 
        development missions.

    Question. How do you anticipate this relationship improving under 
Sec. Pompeo's leadership?

    Answer. I have had the opportunity to meet with Secretary Pompeo to 
discuss the mission of the U.S. Agency for International Development 
(USAID). We discussed a range of issues, and I believe the Secretary 
recognizes the important contribution the Agency makes. Secretary 
Pompeo has also publicly cited the important role that USAID plays in 
achieving our shared goals, by stating that our work is an ``important 
part of the mission.. to deliver President Trump and America's foreign 
policy around the world.''
    As you know, USAID and the Department of State cooperate closely to 
ensure that our development and foreign-policy activities are 
successfully achieving the objectives of the U.S. National Security 
Strategy (NSS). Building on the NSS, USAID and State's Fiscal Year 
2018-2022 Joint Strategic Plan strengthens our alignment, by 
articulating common development and foreign-policy priorities, and 
emphasizing strategic clarity, operational effectiveness, and 
accountability to the American people. USAID and the Department of 
State collaborate further through planning efforts on Joint Regional 
Strategies, Integrated Country Strategies and day-to-day strategic and 
tactical discussions between Embassy and USAID Mission staff worldwide.
    I look forward to working closely with Secretary Pompeo to advance 
our shared agenda.

    Question. Do you have, or have you sought, any commitments from 
Sec. Pompeo to give you space and autonomy to operate?

    Answer. No. At this time, I have not sought any specific 
commitments from Secretary Pompeo with respect to the authorities or 
operational procedures of the U.S. Agency for International Development 
(USAID).
    There is no intention or plan to merge USAID into the State 
Department. Secretary Pompeo has noted he wants to ensure that State 
Department and USAID employees have the training, tools and experience 
needed to carry out our mission and advance U.S. national security--and 
I am grateful for his support.

    Question. Should Congress restore USAID's control of its own budget 
(i.e. transfer that authority from State Dept.'s Foreign Assistance 
Bureau back to USAID) as a means of effectuating USAID's independence?

    Answer. I am grateful for the generosity of Congress in 
appropriating funding to support the programs and the staff of the U.S. 
Agency for International Development (USAID). Under the direction of 
the Secretary of State, the Office of U.S. Foreign Assistance Resources 
(F) at the Department of State performs many valuable roles, including 
the coordination and integration of U.S. foreign-assistance programs, 
currently implemented by over 20 U.S. Government entities, into the 
foreign-policy process across the interagency. As part of this 
responsibility, F aims to ensure that assistance resources and 
activities across the Department and USAID align to advance the 
nation's foreign-policy objectives, and that the administration meets 
all funding requirements, including sectoral and country requirements, 
and priorities, but this process could be streamlined.
    The Secretary of State should therefore continue to serve as the 
ultimate point of coordination for foreign assistance across the 
Federal Government, and between State and USAID. Nevertheless, our 
processes should improve, and efforts are underway to improve 
coordination. I look forward to working with Secretary Pompeo to make 
needed improvements in the processes we use to formulate and execute 
our budgets at USAID. One of the objectives of USAID's Transformation 
is to create a stronger, more-coordinated voice to support the 
administration's development policy and budget priorities, internally 
and in the interagency. USAID currently divides the responsibilities 
for development policy, budget and performance among five different 
Bureaus and Offices, and our Transformation proposes consolidating them 
into one Bureau for Policy, Resources and Performance (PRP). In our 
proposal, the USAID Senior Coordinator inside State/F would report to 
the Assistant to the Administrator for PRP. This change would increase 
collaboration between staff in PRP and State/F, as well as allow us to 
reform processes, such as approving reprogramming requests and country 
level operational plans.

Venezuela
        Venezuela is the greatest challenge in our hemisphere today. 
        Despite clear indications in the past few years that a refugee 
        crisis in Venezuela was brewing, we didn't provide basic levels 
        of humanitarian assistance until March of this year.

    Question. What in your view, would constitute a comprehensive U.S. 
strategy to address the humanitarian, political, and economic crisis in 
Venezuela and what role does USAID play in that strategy?

    Answer. Venezuela poses a monumental challenge for the region, and 
in particular for the United States. Addressing the humanitarian, 
political, and economic crisis in Venezuela necessitates a whole-of-
Government approach, with close interagency coordination, especially 
between the Department of State and the U.S. Agency for International 
Development (USAID). To help resolve the crisis, the U.S. Government 
must continue to support democratic actors in Venezuela and the region. 
USAID plays a critical role in these efforts by providing long-term 
development assistance aimed at bolstering Venezuela's civil society, 
promoting human rights, strengthening democratic governance, and 
encouraging civic-engagement.
    In the immediate term, USAID-the lead Federal coordinator for 
responding to humanitarian emergencies overseas-continues to press for 
humanitarian access and intends to continue to ramp up emergency-
response efforts to help meet the urgent humanitarian needs of people 
affected by this crisis. While this humanitarian assistance will help 
alleviate the immediate needs of many Venezuelans, it will not -and 
cannot--address the root causes of Venezuela's instability.

    Question. What is the role of USAID in addressing humanitarian and 
refugee issues in Venezuela?

    Answer. Deteriorating economic, humanitarian, and political 
conditions in Venezuela have led to an influx of Venezuelans into 
neighboring countries, which is straining health-care institutions and 
other social services in the communities that are generously hosting 
vulnerable Venezuelans. In response, USAID is providing humanitarian 
assistance throughout the region, most in Colombia, Brazil, and 
Ecuador. Working in close coordination with our colleagues at the 
Bureau of Population, Refugees, and Migration (PRM) of the Department 
of State, USAID is providing emergency food and health assistance, safe 
drinking water, critical relief items, vegetable seeds and training to 
help families grow and sell food, and support for small businesses to 
help create job opportunities in Colombian host communities. We are 
also working with our humanitarian partners to protect vulnerable 
Venezuelans from violence and exploitation.
    In Colombia--which is currently hosting more than one million 
people who have fled the repression and chaos in Venezuela--USAID is 
also complementing this emergency humanitarian assistance with 
development investments aimed at bolstering Colombia's medium- and 
long-term capacity to respond to the ongoing influx of vulnerable 
people into their communities. This assistance is supporting Colombia's 
migrant registry and tracking system, a migration observatory, health 
care in Colombia host communities, and a school-feeding program. 
USAID's assistance at the border also benefits persons in Venezuela as 
Venezuelans are crossing the border into Colombia to receive benefits 
and assistance and then return back into Venezuela. Additionally, 
within Venezuela, we are actively working to improve the capacity of 
local Venezuelan organizations to be positioned to deliver needed 
humanitarian aid, including through trainings we have hosted and other 
limited, direct assistance.

    Question. What is the role of USAID in addressing the humanitarian 
crisis in Venezuela?

    Answer. The U.S. Agency for International Development (USAID) is 
supporting regional emergency-response efforts to help meet 
humanitarian needs that stem from Venezuela's economic and political 
crisis-marked by devastating hyperinflation-which has resulted in 
severe shortages of food and medicine, and has driven more than two 
million people to flee the once-prosperous country since 2014. USAID 
provides this assistance solely based on need and regardless of 
political affiliation or beliefs, to ensure that it reaches the most-
vulnerable. USAID avoids the politicization of U.S. humanitarian 
assistance by working with impartial relief organizations--including 
United Nations agencies and non-governmental groups--dedicated to 
providing assistance based on needs assessed on the ground by U.S. 
humanitarian experts and our partners.
    USAID is also actively working to find immediate solutions to a 
number of operational constraints for providing assistance inside 
Venezuela. Earlier this year, USAID sent a team to Venezuela to assess 
needs on the ground, evaluate the response capacity of relief 
organizations in the country, and better understand the context and 
challenges to a potential international humanitarian response. The team 
spent nearly two weeks conducting site visits, including to clinics, 
hospitals, and schools, and meeting with non-governmental 
organizations, government officials, volunteers, food producers, and 
the private sector. USAID is coordinating closely with the Department 
of State, the United Nations, other international donors, and 
organizations on the ground in Venezuela to determine the most 
effective and efficient means to reach the most-vulnerable with 
critical humanitarian assistance. Specifically, USAID is actively 
working to build local civil-society capacity to monitor and respond to 
urgent needs on the ground.

    Question. Can you please identify the funding that USAID has 
obligated to date to address the Venezuelan humanitarian crisis?

    Answer. To date, the United States has provided nearly $50 million 
in humanitarian and development assistance to support the regional 
response to the crisis in Venezuela since Fiscal Year (FY) 2017, more 
than $25.5 million of which has come from the U.S. Agency for 
International Development (USAID). USAID has financed more than $7 
million in humanitarian aid since March 2018 to support emergency-
response efforts across the region, particularly in Colombia, Brazil, 
and Ecuador. With this funding, USAID--through the Offices of Food for 
Peace and U.S. Foreign Disaster Assistance--is providing emergency food 
and health assistance, safe drinking water, critical relief items, 
vegetable seeds and training to help families grow and sell food, and 
support for small businesses to help create job opportunities in host 
communities. We are also working with our humanitarian partners to 
protect vulnerable Venezuelans from violence and exploitation, and 
offering expert technical support to enhance response efforts led by 
host governments.
    To complement this humanitarian assistance, USAID is also providing 
bilateral development funding to support Colombia's medium- and long-
term efforts to respond to the influx of Venezuelans in Colombia.
    All partners that have received USAID humanitarian funding have 
begun implementing their response programs, which will run through FY 
2018. We expect we will obligate most USAID humanitarian assistance 
funding by the end of July 2018, while we should obligate a remaining 
small portion by the end of FY 2018 because of ongoing agreements with 
certain partners that enable implementation to begin prior to full 
obligation.
    We expect USAID to obligate our development assistance for 
Venezuela by late July. In the coming weeks and months, USAID intends 
to provide additional funding for humanitarian partners in the region 
that are responding to this crisis.

    Question. Please identify the funding by fiscal year and funding 
type, as well as provide a description of funding that has been 
obligated to date.


                                            USAID FUNDING BY FISCAL YEAR AND FUNDING TYPE AND DESCRIPTION OF FUNDING THAT HAS BEEN OBLIGATED TO DATE
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
               Amount                        Fiscal Year                          Partner                                           Sectors                                    Status
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          HUMANITARIAN ASSISTANCE (FUNDING TYPE--INTERNATIONAL DEVELOPMENT ASSISTANCE)
Republic of Colombia
$2,739,028                                               2018   Implementing partners to be determined (TBD)      Agriculture and Food Security; Livelihoods;       All programs are obligated.
                                                                                                                   Protection; Water, Sanitation, and Hygiene
                                                                                                                   (WASH) programs
                                     -----------------------------------------------------------------------------------------------------------------------------------------------------------
$263,000                                                 2018   United Nations (UN) Office for the Coordination   Humanitarian Coordination and Information-        Expected to be obligated by
                                                                 of Humanitarian Affairs                           Management                                        the end of Fiscal Year (FY)
                                                                                                                                                                     2018.*
                                     -----------------------------------------------------------------------------------------------------------------------------------------------------------
$500,000                                                 2018   Pan American Health Organization                  Emergency Health Assistance                       Obligated.
                                     -----------------------------------------------------------------------------------------------------------------------------------------------------------
$2,000,000                                               2018   UN World Food Program                             Emergency Food Assistance                         To be obligated by the end
                                                                                                                                                                     of July 2018.*
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Federative Republic of Brazil
$500,000                                                 2018   Adventist Development and Relief Agency           WASH Assistance                                   Obligated.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Republic of Ecuador
$1,000,000..........................                     2018   UN World Food Program                             Emergency Food Assistance                         Obligated.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Regional............................
$78,146.............................                     2018   iMMAP                                             Humanitarian Coordination and Information-        Expected to be obligated by
                                                                                                                   Management                                        the end of FY 2018.\1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  DEVELOPMENT ASSISTANCE (FUNDING TYPE--ECONOMIC SUPPORT FUNDS)
 
$18,500,000.........................                     2017   Implementing partners TBD                         --Registry and Tracking System                    Expected to be obligated by
                                                                                                                  --Migration Observatory                            the end of July 2018.
                                                                                                                  --Mobile Health Care
                                                                                                                  --School-Feeding Program
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Expected to be obligated by the end of FY 2018 because of ongoing agreements with certain partners that enable implementation to begin prior to full obligation.




Colombia
        Despite having a strong partnership with the Colombian 
        Government in combatting drug trafficking, we have seen a 
        worrisome growth of coca cultivation in Colombia since 2013. It 
        is clear that developing a permanent counternarcotic strategy 
        is complicated and requires a comprehensive approach that 
        equally prioritizes eradication, destruction of cocaine 
        laboratories, interdiction of drug trafficking shipments, the 
        arrest of traffickers, efforts to combat financial crimes and 
        money laundering, and robust programs to consolidate the rule 
        of law and democratic governance, as well a sustained strategy 
        to advance economic development and provide licit economic 
        opportunities.

    Question. Can you provide an update on USAID's expansion of 
alternative development programs in Colombia?

    Answer. The alternative development programs in Colombia funded by 
the U.S. Agency for International Development (USAID) help to combat 
the cultivation of coca and the lure of the illegal economy through 
several key lines of effort that work to expand the presence of the 
Colombian Government, generate new business opportunities, and improve 
the livelihoods of citizens disproportionately affected by the conflict 
through legal productive projects. Specifically, USAID works to 
increase resources available at the local level for public investment 
and strengthen local governments' capabilities to deliver vital 
services and perform other governance functions. USAID also leverages 
private-sector investments in remote areas of the country, which are 
particularly susceptible to coca-cultivation. USAID's market-driven 
activities connect local producers with regional, national, and 
international markets, and help producers meet the standards and 
requirements set by domestic and international buyers, which 
subsequently supports sustainability and increased profitability for 
rural producers and others along these value-chains. Lastly, USAID 
programs provide innovative financing for small- and medium-sized 
businesses in remote areas that traditionally have not had access to 
investment capital. All of these efforts create a better environment 
for licit economies to develop and strive.
    As the cultivation of coca increased over the last few years, USAID 
has taken specific measures to adapt its programming to provide 
targeted assistance where most needed to counter the narcotics economy. 
For example, the Community Development and Licit Opportunities program 
(CDLO) strengthens the capacity of conflict-affected communities to 
implement economic-development activities that promote the substitution 
of legal crops and alternative development. CDLO targets specific 
geographic areas, determined using the presence of illegal crops as the 
top criterion. The program is now focused on eight Colombian 
Departments in which 69 percent of Colombia's coca is cultivated, and 
will soon expand into a ninth (Norte de Santander), where an additional 
17 percent of the country's coca is grown, at which point the CDLO will 
reach 86 percent of the coca-cultivating areas of the country.
    As the severity of the coca problem has become more apparent, the 
USAID Mission in Colombia has also adjusted to better focus its efforts 
on illicit crops through the Land and Rural Development Program (LRDP) 
and limited-contract technical assistance. Currently, USAID is 
providing advice to the Colombian Government (GOC) to extend the 
massive land-titling methodology it developed to municipalities with 
illicit crops. LRDP is helping the GOC to establish a new monitoring-
and-evaluation system to track and evaluate its ``Formalization for 
Substitution'' program, the first attempt in Colombia to link titling 
and crop-substitution efforts.
    Finally, under the Producers to Markets Alliance program (PMA), 
USAID seeks to strengthen legal economies in areas affected by illicit 
crops by increasing the competitiveness of licit producers and the 
value of licit products. PMA is targeting high-potential agricultural 
value-chains in some of the largest coca-producing regions of Colombia. 
It works closely with rural producers (many of them former coca 
farmers) to increase yields, improve quality, and close business deals 
to increase incomes and employment opportunities among its target 
population.
    During my recent trip to Colombia, we began to look at how our 
support for national parks and formalization of mining could be 
strengthened to more directly support alternative livelihoods as well.

    Question. What is the role of USAID in helping Colombia in its 
implementation of the peace accord?

    Answer. The U.S. Agency for International Development (USAID) 
programs primarily support four pillars of Colombia's peace-
implementation strategy: promoting equitable and sustainable rural 
development, ending the conflict, addressing illicit drugs, and 
supporting conflict victims.

    1.  Equitable and Sustainable Rural Development: Developing 
Colombia's rural sector is crucial to long-term economic development. 
USAID is supporting the new Territorial Renovation Agency of the 
Colombian Government (GOC) to design and implement regional economic 
transformation plans with the participation of vulnerable populations, 
civil society, and other key actors. The agreement established the 
creation of a land bank as the mechanism by which the parties will 
distribute three million hectares of state-owned land to conflict 
victims. USAID is supporting the GOC's National Land Agency to design 
and test the first large land-titling pilot in Colombia, and assisting 
to identify and recover the land that will supply the land bank. 
Transparency in land markets and equity in land tenure are impossible 
to achieve without a precise inventory (i.e., cadaster) of land 
ownership. USAID is funding the design and implementation of the multi-
purpose cadaster to serve as the basis for a national land-titling 
effort, and to implement sectoral policies in rural areas led by the 
National Planning Department. Additionally, the GOC is seeking to 
implement a countrywide effort to construct or improve tertiary roads, 
a top priority of citizens in conflict areas. To help this effort, 
USAID is financing the creation of community-based enterprises- 
composed of civil-society organizations and local governments-to manage 
the improvement and maintenance of tertiary roads.

    2.  Ending the Conflict: A major challenge in the peace accord is 
the safe social and economic reintegration of former combatants, which 
is critical to prevent the expansion of other illegally armed groups. 
While the U.S. Agency for International Development (USAID) does not 
provide any support to the Fuerzas Armadas Revolucionarias de 
Colombia--Ejercito Popular (Revolutionary Armed Forces of Colombia, 
FARC) that would violate U.S. sanctions, USAID does fund the 
rehabilitation of child soldiers and the prevention of recidivism. 
USAID supported rehabilitation services, including psychosocial 
support, for 135 FARC-released children and adolescents as a result of 
the peace agreement. At the request of the Colombian Ministry of Post-
Conflict, USAID has expanded into 13 new conflict-affected 
municipalities, beyond the 29 already served, to help the Government of 
Colombia establish and improve justice services, particularly for rural 
citizens.

    3.  Addressing Illicit Drugs: The illegal drug trade has fueled the 
conflict, and serves as the main source of financing for illegal armed 
groups, including the Fuerzas Armadas Revolucionarias de Colombia--
Ejercito Popular (Revolutionary Armed Forces of Colombia, FARC). Though 
not directly funding the voluntary substitution program managed by the 
Government of Colombia (GOC), the U.S. Agency for International 
Development (USAID) is aligning its efforts in coca-growing areas to 
support legal alternatives to coca. USAID has already worked with 
thousands of Colombian farm families in their transition to a licit 
economy via cacao, coffee, rubber, dairy, and other products. USAID is 
coordinating its interventions with the GOC in eight of the largest 
coca-producing regions of the country. USAID's sustained, enduring 
presence in many of these areas has led to the development of 
significant licit economies, including a strengthened private-sector 
presence. USAID funding is enabling commercial banks to move into these 
areas, with credit and other financial services, so rural families are 
able to improve their productivity and, as a consequence, spur 
sustained economic growth.

    4.  Supporting Conflict Victims: The U.S. Agency for International 
Development (USAID) has been funding the Land-Restitution Unit of the 
Government of Colombia (GOC) since 2010 and the Victims' Unit for over 
five years. With our help, the GOC is now able to process cases faster 
and more efficiently in 23 offices across the country and ensure that 
implementation of restitution rulings are effectively in targeted 
regions. With additionally USAID finding, the Victims' Unit is 
expanding assistance to victims in 22 municipalities, 10 of which are 
in transitional zones. USAID supports the GOC's efforts to implement 
the provision in the ethnic chapter of the Peace Accord, which speaks 
to the rights of ethnic communities, including Afro-Colombians and 
indigenous populations. USAID supports the efforts of the GOC and civil 
society to increase protection for human-rights leaders, whom illegal 
armed group continue to targeted as they take control over territories 
formerly occupied by the Fuerzas Armadas Revolucionarias de Colombia--
Ejercito Popular (Revolutionary Armed Forces of Colombia, FARC). More 
than 82,000 people have disappeared during the conflict, and the peace 
accord commits both sides to find the and bring them back to their 
loved ones, or provide answers to families who are seeking resolution. 
USAID is financing the GOC's Unit to Search for the Missing Persons, 
created by the Peace Accord, to find the disappeared and return them or 
their remains to their families. USAID will also fund the Victims' Unit 
to repair and provide psychosocial assistance to the families of 
victims of forced disappearance, which will complement USAID's grant to 
the Colombian Attorney General's Office. USAID is supporting the 
capacity of local prosecutors to move forward criminal cases for 
homicides against human-rights defenders, as well as the Inspector 
General's Office in the development of disciplinary cases on this 
issue. Our programs complement the GOC's investments in prioritized and 
targeted communities and funding provided from other international 
initiatives.

Africa
        In remarks at the U.S. Institute for Peace last year, then 
        Under Secretary of State Tom Shannon articulated the 
        administration's four strategic purposes in Africa: Advancing 
        Peace and Security; Countering the Scourge of Terrorism; 
        Increasing Economic Growth and Investment; and Promoting 
        Democracy and Good Governance. The approach doesn't speak to 
        the overall development agenda, including poverty alleviation; 
        there is no question that it should.

    Question. Increasing Economic Growth and Investment and poverty 
alleviation are not necessarily one and the same. What role does 
development play with regards to the administration's four strategic 
purposes? What do you see as USAID's role in countering terrorism and 
violent extremism? How does this budget support that role?

    Answer. An economically growing and stable Africa also supports 
American security and prosperity. By increasing markets for American 
goods and services, providing raw materials for U.S. consumer products, 
building citizen-responsive institutions of governance, and countering 
violent extremism, we make the homeland safer and help African 
countries build economic opportunities for their citizens. The 
investments of U.S. Agency for International Development (USAID) 
directly support all four pillars outlined by Under Secretary Shannon.
    While I agree that increasing economic growth and investment and 
poverty-alleviation are not one and the same, economic growth programs 
directly link to USAID's mission to end poverty and, aspirationally, 
the need for foreign assistance. Specific economic-growth outcomes, 
such as increased investment, an improved business enabling 
environment, workforce-development, and expanded trade opportunities 
(while not an exclusive list), are all critical ways of both 
accelerating economic growth and laying the foundation for long-term 
poverty-alleviation.
    In Under Secretary Shannon's speech at the U.S. Institute for Peace 
(USIP), he said, ``U.S. investment in sub-Saharan Africa increased from 
$9 billion a year in 2001 to $34 billion in 2014 and created over 
300,000 jobs across Africa,'' data that include USAID's work through 
three regional Trade and Investment Hubs.
    Economic-growth programs also directly tie to the National Security 
Strategy's pillars of Advancing Peace and Security and Countering the 
Scourge of Terrorism, as addressing the underlying social, political 
and economic conditions that fuel radicalization to violence is 
critical to advancing peace and security. Africa has the world's 
youngest population; 70 percent of sub-Saharan Africa's population 
under the age of 30. While youth can be a strong force for positive 
engagement and economic growth, many of Africa's young people struggle 
to find meaningful economic opportunities.
    As noted in the USAID policy, The Development Response to Violence, 
Extremism, and Insurgency,\1\ the Agency has a distinct and critical 
role in addressing national-security issues related to countering 
violent extremism. USAID designs and deploys development tools to 
respond to the drivers of violent extremism and terrorism in parts of 
Africa, such as the Horn, the countries of the Sahel, and the Lake Chad 
Basin, where the threat of terrorism is growing. As the United States 
pushes to counter Islamic State of Iraq and the Levant, Boko Haram, 
Jama'a Nusrat ul-Islam wa al-Muslimin or JNIM (a merger of four, long-
standing Sahelian terrorist groups), and others, it is not enough to 
defeat them militarily on the battlefield; we must also address the 
ideology and tactics these groups employ to attract new recruits, 
including the underlying social, political and economic conditions that 
can promote radicalization to violence.
---------------------------------------------------------------------------
    \1\ Available at https://pdf.usaid.gov/pdf_/Pdacs400.pdf
---------------------------------------------------------------------------
    USAID has demonstrated a commitment to programming to counter 
violent extremism (CVE) in Africa over the years through the budget 
process. While funding levels for CVE programming in Africa are modest, 
they allow for an approach we can sustain over time, which builds trust 
and partnerships with key actors at the national, local and community 
level. The President's Budget Request for Fiscal Year 2019 includes CVE 
funding for countries both in East and West Africa.


        The current National Security Strategy further elaborates on 
        the promoting Democracy and good governance in Africa, stating 
        that, ``We will encourage reform, working with promising 
        nations to promote effective governance, improve the rule of 
        law, and develop institutions accountable and responsive to 
        citizens.'' I think this is an approach with which both 
        Democrats and Republicans would agree. The missing element, it 
        seems to me, is resources to execute. The amount available for 
        Democracy and Governance for Africa in 2017 was approximately 
        $330 million. The administration's request for the past two 
        fiscal years has been less than half that amount. I guess you 
        could say either the administration has champagne tastes, but a 
        beer budget, or it really is not serious about its own 
        strategy.

    Question. How do you propose to achieve the stated policy goals of 
the administration for Africa with such a drastic reduction in the 
democracy and governance budget? What could we realistically expect to 
achieve with this limited investment if Congress were to appropriate 
the levels that the administration has requested?

    Answer. Senator, I share your commitment to promoting democracy, 
human rights, and governance around the world, including in sub-Saharan 
Africa. Despite reductions to the overall non-health budget in Africa, 
the levels of democracy, human rights, and governance funding in the 
President's Budget Request for Fiscal Year (FY) 2019 as a percentage of 
overall funding for Africa is equal to or greater than the ratios from 
FY 2011-FY 2016, which reflects our recognition of the importance of 
good, citizen-responsive governance to the success of all development 
efforts in Africa.
    The U.S. Agency for International Development (USAID) collaborates 
closely with colleagues at the Departments of State and Defense to 
ensure our democracy and governance investments address the democratic 
deficiencies that contribute to transnational threats, fragility, 
conflict, and instability. We recognize that, with limited resources, 
we have to be even more efficient and effective in all of our work, 
particularly in this time of unprecedented humanitarian need. We will 
continue to engage with our partners to leverage U.S. investment and 
ensure continued support for democracy, human rights, and governance, 
including the promotion of citizen-responsive governance across 
development sectors to help guarantee progress in economic growth, 
health, and education. Many USAID Missions have developed close working 
relationships with other donors, which has led to jointly funded 
activities. We will continue to seek out these opportunities and build 
new partnerships with international and domestic organizations to 
support African countries on their journey to self-reliance.
    We will continue efforts to advance democracy and citizen-
responsive governance in Africa by promoting the rule of law, credible 
and legitimate election processes, a politically active civil society, 
and accountable and participatory governments. We will complement 
diplomatic efforts that strengthen governance institutions and protect 
the democratic and development gains made across the continent. For 
example, USAID continues to provide funding for upcoming political 
processes in countries across Africa, including in the Democratic 
Republic of Congo, Mali, Nigeria, and Zimbabwe, all of which are facing 
pivotal transitions. Our programs improve the transparency and 
accountability of electoral institutions, and engage all stakeholders--
parties, candidates, civil society, and voters--to participate in 
political processes and use appropriate channels to resolve disputes 
peacefully.


        Secretary Pompeo indicated in response a question about 
        achieving stated democracy and governance policy goals with 
        such a limited budget that we would rely ``on other nations to 
        make greater contributions toward shared objectives, including 
        advancing democracy worldwide.''

    Question. Which nations were consulted about their contributions 
towards Democracy and Governance activities in advance of finalizing 
the Fiscal Year 2019 budget request? What did they commit to provide?

    Answer. I do not know if the Office of Management and Budget or the 
Department of State consulted with other donors about their Democracy 
and Governance activities prior to finalizing the President's Budget 
Request for Fiscal Year (FY), and do not know if any made specific 
commitments. That said, the President has been clear that our 
international partners must do more to advance our shared objectives. 
To that end, USAID field Mission staff are in regular contact with 
bilateral and multilateral donors through a number of country-specific 
donor-coordination mechanisms, efforts which help ensure that 
assistance across all sectors is complementary. Many USAID Missions 
have developed close working relationships with other donors, which has 
led to jointly funded activities.
    For example, in December 2017, Japan announced a commitment of $2.9 
billion for health, nutrition, and water and sanitation to promote 
universal healthcare in Africa and Asia. Japan has also been a major 
contributor to the Global Fund to Fight AIDS, Tuberculosis, and 
Malaria. In May 2018, the United States and the Republic of Korea (ROK) 
signed a Memorandum of Understanding to support investment in energy in 
sub-Saharan Africa. The partnership will help advance power-sector 
infrastructure through a $1 billion investment from the ROK's Economic 
Development Cooperation Fund (EDCF), which includes a commitment to 
construct 1,000 kilometers of transmission lines in Africa from 2018 to 
2023.
    We will continue to seek out these opportunities and build new 
partnerships with international and domestic organizations to support 
countries on their journey to self-reliance.

Taiwan
        There is considerable concern over Taiwan being excluded from 
        multilateral fora like the World Health Organization, but there 
        are significant bilateral opportunities in the development 
        field as well, where Taiwan has much to offer in terms of 
        expertise and funding to achieve positive regional and even 
        global development outcomes.

    Question. Would you consider the idea of USAID entering into an 
official development dialogue with Taipei?

    Answer. Yes, the U.S. Agency for International Development (USAID) 
will consider the idea. The Taiwan Relations Act of 1979 and the Six 
Assurances of 1982 provide the basis for the United States and Taiwan 
to cooperate in a wide range of mutually beneficial areas, including 
energy, the environment, and scientific research.
    USAID has already engaged, and will continue to engage, with Taiwan 
to address global challenges, as agreed under the Global Cooperation 
and Training Framework (GCTF) between the United States and Taiwan.
    The GCTF reflects a shared commitment by the people of United 
States and Taiwan to provide international assistance in a range of 
areas, including global public health, such to prepare for and address 
pandemics; media literacy; energy security; women's economic 
empowerment; humanitarian assistance and disaster relief; and digital 
connectivity.
    Additionally, Taiwan has shown that it has much to offer in the way 
of innovation, experience, capacity and resources to assist with 
various critical global challenges. For example, in 2015, USAID 
collaborated with Taiwan and Denmark to carry out a joint elections-
support program through the National Democratic Institute for the 
historic voting in Burkina Faso. Similarly, USAID continues its 
collaboration, started in 1971, with the Taiwan-based World Vegetable 
Center (formerly the Asian Vegetable Research and Development Center), 
which has recently carried out joint programs in countries as Cambodia, 
Tajikistan, Tanzania, and Mali.
    I can assure you that USAID is committed to strengthening our 
relationship with Taiwan through our ongoing cooperation.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Hon. Mark Green by Senator Benjamin L. Cardin


        As you know, June 20 was World Refugee Day. In its Fiscal Year 
        (FY) 2019 budget request, the administration proposed cutting 
        the overall foreign assistance budget by 30 percent, even 
        though humanitarian need continues to grow worldwide. Across 
        the State and USAID budget requests, the administration seeks 
        to cut 12 percent to all humanitarian funding.

    Question. From the continuing crisis in Yemen, to the escalating 
humanitarian situation in DRC, not to mention Rohingya in camps in 
Bangladesh and millions of Syrian refugees in Turkey and Jordan, and 
more, how do you rationalize such a significant cut to foreign 
assistance as instability, need, and suffering continue to grow?

    Answer. The United States is the largest provider of humanitarian 
assistance in the world, and remains committed to providing life-saving 
assistance to those who need it most. The U.S. Department of State and 
the U.S. Agency for International Development (USAID) will continue to 
respond to the needs of millions of refugees, victims of disasters and 
conflict, internally displaced persons (IDPs), and other vulnerable 
populations around the world through critical programs that provide 
protection, water, sanitation, healthcare, food, and other essential 
services.
    With the President's Budget Request for Fiscal Year 2019, the 
United States will retain its leadership role in humanitarian 
assistance, in accordance with American values, while also asking other 
donors to contribute their fair share. We will also continue to focus 
on improving the efficiency and effectiveness of our own humanitarian 
operations, and with our implementing partners and other international 
donors.
    Because of the current, unprecedented global need, it is imperative 
that the international community do more to prevent, and resolve, 
humanitarian crises, including by investing more. USAID is working hard 
to encourage other donor nations to increase their contributions to 
global humanitarian efforts, and they are stepping up. For example, 
from July to December 2017, Australia made $30 million in commitments 
to respond to the Rohingya crisis in Burma and Bangladesh (one of the 
largest per capita commitments). At the 2017 Brussels Conference on 
Syria, donors pledged =5.6 billion ($6 billion), of which two thirds, 
or =3.7 billion ($4 billion), came from the European Commission (EC) 
and its Member States. The EC also pledged an additional =560 million 
($601 million) for 2018 for Syria, Jordan and Lebanon. Japan has also 
made numerous significant commitments, including an announcement in 
December 2017 of $21 million in humanitarian assistance for Syria and 
its neighboring countries. In March 2018, Japan also made a 
contribution of $72.3 million to the World Food Programme to provide 
vital food and nutrition in 23 countries across the Middle East, 
Africa, and Asia. Finally, at the High-Level Pledging Event for the 
Humanitarian Crisis in Geneva in April 2017, the Republic of Korea 
announced its plan to provide $4 million in humanitarian aid to Yemen.


        We are hearing that USAID continues to experience unusual 
        program delays. Confusion caused by the President's budget 
        request and bureaucratic delays at the State Department risk 
        rendering aid less effective and causing increased suffering 
        for people on the ground. Specifically, I am concerned about 
        the blanket hold on lifesaving humanitarian assistance to Gaza, 
        which our committee made sure to protect during consideration 
        of the Taylor Force Act, pending a policy review.

    Question. Do you believe that when Congress appropriates funds that 
those funds should be spent as set forth in the mandate in the 
Appropriations bills and relevant authorizing legislation? What is the 
status of the administration's review of the Gaza humanitarian funding 
that was allowed for by the Taylor Force act?

    Answer. The U.S. Department of State and the U.S. Agency for 
International Development (USAID) continue to obligate and implement 
funds consistent with annual Appropriations Acts, the Impoundment 
Control Act of 1974, and other applicable laws. As of June 22, 2018, 
the Bureau of Foreign Assistance Resources (F Bureau) at the State 
Department has completed its review of, and approved, 95 percent of 
USAID's Operational Plans (OPs) for Fiscal Year (FY) 2017. USAID has 
submitted the required Spend Plans for these OPs, and Congress has 
approved them. Subject to legally required Congressional Notifications 
and any ensuing holds, the Department of State and USAID will continue 
to work diligently to ensure we obligate all funds appropriated by 
Congress as quickly as possible, while assuring our compliance with 
applicable legal and other requirements.
    Regarding U.S. assistance to the Palestinians, including assistance 
in Gaza, the administration seeks to identify how to leverage all U.S. 
Government assistance to achieve its policy objectives in the region.


        As you and I discussed in our meeting over a year ago, our 
        investments in development programs and projects are most 
        effective in countries with good, citizen-responsive governance 
        and without corruption (or at least where corruption is being 
        fought). However, the administration's FY 2019 request 
        eliminates all bilateral funding from USAID fully and partially 
        managed accounts, including for Poland and Belarus, both 
        countries for which the Countering America's Adversaries 
        Through Sanctions Act (CAATSA) requires Democracy and 
        Governance programming.

    Question. How does USAID plan to meet its CAATSA-mandated democracy 
and governance programming requirements for Poland and Belarus if 
bilateral funding has been cut for both countries?

    Answer. My understanding is that the Countering America's 
Adversaries Through Sanctions Act (CAATSA) does not specifically 
mention democracy and governance programming in Poland or Belarus. 
While the U.S. Agency for International Development (USAID) has neither 
a presence nor programs in Poland, the President's Budget Request for 
Fiscal Year (FY) 2019 includes funding for Poland in accounts managed 
by the Department of State. The President's FY 2019 Budget Request 
includes funding for USAID programming in Belarus.
    USAID remains committed to advancing citizen-responsive governance 
and addressing corruption through sustainable programs that emphasize 
partnership with local reformers and civic organizations. Funds will 
contribute to building the capacity of host governments to deliver 
services in an accountable and transparent manner, and to enable 
citizens to advocate for better governance and accountability.
    USAID's Strengthening Civil Society, Civic Engagement and 
Independent Media in Belarus (BRAMA) Project promotes citizens' 
engagement in Belarusian civil society. Through bilateral and regional 
programming (Strengthening Eurasian News), USAID also funds Euroradio 
through capacity-building in core operations, business-management, and 
the development social media. USAID is also planning to design a new 
bilateral media program that should be operational by late 2019. USAID 
will continue exchange programs that introduce Belarusians to American 
best practices in business and other professional areas, as well as 
advance the delivery of social services by strengthening the capacity 
of local civil-society organizations to support vulnerable groups, such 
as people with disabilities and victims of human trafficking.

    Question. How is USAID able to make progress in anti-corruption 
efforts through support to local civil society organizations, 
particularly those in Europe and vulnerable to authoritarian 
crackdowns?

    Answer. Throughout the world, and specifically in Europe, anti-
corruption programs funded by the U.S. Agency for International 
Development (USAID) support and empower local civil-society 
organizations (CSOs) in Eastern Europe to advocate for, lead, and 
participate in governance reform, especially in challenging 
environments where we cannot work effectively with the national 
government. Our approach to supporting and engaging civil society in 
these environments has two parts: 1) providing rapid responses to 
address the immediate needs of CSOs and individuals; and, 2) supporting 
the longer-term, systemic strengthening of the enabling environment for 
civic discourse and human rights. We do this through work with local 
CSOs, media organizations, governments (where feasible), and other 
stakeholders to strengthen the legal and regulatory environment for 
non-governmental organizations (NGOs) and the independent media. We 
also fund the participation and advocacy efforts of civil society and 
media, which are often the implementers of our assistance. This is the 
case whether our program is working to enhance transparency, improve 
municipal governance, improve the delivery of public services, or 
strengthen public institutions. Where the environment is difficult for 
formal work with CSOs, we are still building their capacity by 
leveraging the work of NGOs as partners and implementers.
    We also fund the implementation of good-governance platforms, such 
as the Open Government Partnership (OGP) and the Extractive Industries' 
Transparency Initiative (EITI), as vehicles to promote citizen-
responsive governance and harness technology to strengthen Governments' 
accountability to citizens. Our programs related to the OGP and EITI, 
such as those in Armenia, Bosnia and Herzegovina, Georgia, Kosovo and 
Ukraine, not only build the capacity of partner governments across all 
their branches to increase their transparency and integrity, but they 
also strengthen the ability of CSOs, the independent press, and the 
private sector to serve as accountability monitors. This is especially 
important in difficult environments.
    Our work to fund investigative journalism in different regions of 
the world informs CSOs with facts and data to use to advocate for 
reforms. In the Europe and Eurasia region, we provide assistance to the 
Organized Crime and Corruption Reporting Project (OCCRP), a network of 
local independent investigative journalists and media professionals to 
expose corruption and abuses of power. Their efforts help increase 
public demand for greater transparency and accountability of public 
officials.
    In Ukraine, USAID is funding the ``Civic Network'' OPORA, an 
organization that helps government institutions perform their functions 
in a transparent, open and accountable manner. USAID finances open-data 
and open-government initiatives in Ukraine that curtail opportunities 
for government/public-sector corruption. New anti-corruption 
programming in Azerbaijan is illustrative of the type of work USAID can 
do with local CSOs, even in a difficult political environment. Through 
this program, USAID will empower grass-roots CSOs and citizens to 
combat corruption at the local, subnational, and national levels by 
delivering training seminars on open government and providing legal aid 
to citizens and NGOs that are working on anti-corruption legislation.


        The Global Development Lab was established by the Obama 
        administration as a vehicle for attracting innovative ideas in 
        science and technology that can be applied to solving 
        development challenges. The FY 2019 request cuts the Lab 
        funding by 80 percent.

    Question. Does your proposed reorganization redistribute that 80 
percent of cut funds to the Lab elsewhere? How will you ensure that the 
Lab's flexibility, autonomy, and resources are not compromised in a 
redesign? Why does this change guarantee that the lab's innovations 
will be implemented throughout the agency and not just in pilot 
projects?

    Answer. The President's Budget Request for Fiscal Year (FY) 2019 
reflects difficult trade-offs for the U.S. Agency for International 
Development (USAID) to support the administration's top priorities 
within a constrained budget environment, including by ensuring 
sufficient support to Missions in the field consistent with the FY 2018 
request. Under USAID's Transformation, the work of the Global 
Development Lab (the Lab) and other innovation hubs in the Agency will 
remain critical as we find new solutions to accelerate development 
results, increase our effectiveness, engage new actors and 
implementers, take advantage of advancements in science and technology, 
and maximize the impact of taxpayer dollars.
    The core capabilities the Lab brings to the Agency advance our 
foreign-assistance priorities and ensure we stay on the leading edge of 
development. Under the proposed Transformation, USAID plans to use 
these core capabilities by integrating those tools and approaches that 
have proven successful into their corresponding practice areas; 
maintaining a space for discovery, testing and experimentation around 
innovation, technology, and science for development; and strengthening 
the systems and processes that facilitate applying innovative 
approaches to more of USAID's work.
    The proposed Bureau for Development, Democracy and Innovation (DDI) 
would house a hub for discovering, testing and accelerating innovative 
approaches in science and technology. Through this new structure, the 
Agency would be able to integrate innovation and proven Lab approaches 
more effectively across all sectors and regions. Additionally, USAID 
would increase the connections more directly between successful 
approaches to engaging the private sector, through programs like the 
Global Development Alliance (GDA), and harnessing the higher education 
community towards global challenges, through programs like the Higher 
Education Solutions Network (HESN), into the economic growth and 
education sectors in the proposed DDI Bureau. Changes around USAID's 
programmatic business process known as the ``Program Cycle,'' such as 
co-creation or innovation incentive awards, would be crucial reforms 
carried out by the proposed Policy, Resources and Performance (PRP) 
Bureau.
    The proposed Innovation Hub within the DDI Bureau would continue to 
lead the Agency in open innovation, digital development, and research 
and development (R&D), through programs like the Development Innovation 
Ventures (DIV). The Hub would maintain a culture of being evidence-
based and iterative, focused on finding the best ideas and working with 
a range of partners to test and develop them. More important, by 
placing the talent of the Innovation Hub alongside USAID's expertise in 
several technical sectors and areas of cross-cutting work, the staff of 
the Hub would have the opportunity to mentor and build the capacity of 
USAID staff writ-large continuously, to improve how they work, and what 
they do. Innovation, discovery and learning would not take place in 
just one place in the Agency, but in every place in the Agency.
    By integrating the core capabilities of the Lab into the proposed 
DDI and PRP Bureaus, USAID would be able to affect the design and 
implementation of programs across the Agency more effectively. The new 
structure would facilitate the uptake of promising innovative tools and 
approaches into programs through DDI's connections to the Missions and 
PRP's implementation of the Program cycle. For example, promising 
innovations that come out of the DIV program could influence the design 
of all new programs in the DDI Bureau, and the Agency could apply 
proven tools like digital finance and data analytics more broadly as 
Missions receive enhanced technical assistance from the DDI Bureau.
    Even before we implement the structural proposal of the Transition, 
we continue to integrate promising new tools and approaches into the 
way the Agency does development. For example, USAID's Mission in Zambia 
has invested $5 million through the DIV team to support a package of 
remedial-education interventions known as Teaching at the Right Level 
(TaRL) proven to work in multiple country contexts. DIV is also working 
with the Office of Education in the Bureau of Education, Economic 
Growth, and the Environment to explore how to embed learnings from TaRL 
into the Agency's guidance on how to design educational programs.

    Question. Can you guarantee that a reorganization effort will 
ensure programs like OFDA maintain the authorities that make them 
effectively implement emergency humanitarian programs?

    Answer. The proposed Transformation of the U.S. Agency for 
International Development (USAID) is not requesting any changes to the 
authorities on which the Offices of U.S. Foreign Disaster Assistance 
(OFDA) and Food for Peace (FFP) to implement their emergency 
humanitarian programs. USAID is also not proposing any changes to the 
Foreign Assistance Act. USAID's Transformation would elevate 
humanitarian assistance within the Agency's organizational structure 
and improve the effectiveness of humanitarian programs, but under 
existing authorities.

    Question. Can you discuss what current gaps you see in USAID's 
resilience programming and why resilience and food security are 
distinctly named in the new Bureau's name? Isn't food security an 
element of resilience?

    Answer. I agree that food security is a key element and source of 
resilience. Resilience is also critical to protecting gains in food-
security outcomes, such as reductions in hunger, poverty and 
malnutrition, in the face of shocks such as the El Nino droughts in 
places like Ethiopia and Malawi in 2016. This is why the Center for 
Resilience has been part of the current Bureau for Food Security since 
its inception in 2015. However, it is also clear that resilience is 
broader than just food security, as other factors like water security 
and nutrition also affect the ability of communities and countries to 
mitigate, adapt to, and recover from shocks.
    Our current structure is not sophisticated enough to deal with 
these complexities. The proposed Bureau for Resilience and Food 
Security (RFS) would elevate USAID's focus on building resilience in 
places subject to recurrent humanitarian crises, while also protecting 
the progress of people and countries on their Journey to Self-Reliance. 
The proposed Bureau for RFS would house the USAID Center for Resilience 
which would chair an intra-agency Resilience Leadership Council to 
ensure strategic, budgetary, geographic and technical coordination 
across Bureaus, sectors and funding streams, including for water, 
health, sanitation, and nutrition.

    Question. Is resilience only going to focus on food security? What 
about health care and education shocks? How will USAID ensure the 
lessons and principles of resilience are incorporated in other programs 
if it only lives in the Bureau for Food Security?

    Answer. The proposed Bureau for Resilience and Food Security (RFS) 
would strengthen linkages across sectoral investments, such as 
agriculture, nutrition, health, education, water and sanitation, the 
environment, and infrastructure, to accelerate and protect development 
gains. RFS would work to improve the understanding of the U.S. Agency 
for International Development (USAID) and our implementing partners 
which sources of resilience matter most in a particular context, by 
using data to assess and inform our programming. The cross-Bureau 
Resilience Leadership Council would coordinate budget, strategy, 
geographic targeting, and external engagement across the Agency, to 
ensuring the incorporation of the lessons and principles of resilience 
in investments made across USAID, not just in programming that 
originates from the proposed RFS. This would help ensure all of the 
Agency's technical, human and financial resources align to address the 
root causes of recurrent humanitarian crises and protect development 
gains in other sectors, including in health and education. Tools such 
as a central online platform for knowledge-management and learning on 
resilience would improve coordination across Bureaus and field 
Missions, and incorporate evidence and resilience principles into all 
the Agency's relevant programming.

    Question. Please explain how the USAID reorganization will actually 
change the way USAID does business. What will change in terms of how 
decision-making, programming, hiring, and policy-making are done?

    Answer. One of the objectives of the proposed Transformation of the 
U.S. Agency for International Development (USAID) is to create a 
stronger, more coordinated voice for the Agency's development policy 
and budgetary priorities, internally and in the interagency, to advance 
U.S. foreign-assistance objectives. Responsibilities for policy, budget 
and performance at USAID are currently divided among five different 
Bureaus and Independent Offices. By consolidating development policy, 
the management of the Program and Operational Expenses budgets, and the 
evaluation of programmatic performance in the proposed Bureau for 
Policy, Resources and Performance (PRP), USAID would be better-equipped 
to align our resources to our strategic priorities through evidence-
based programming, and to assess the Agency's progress towards 
achieving our objectives as a true learning organization.
    To execute the vision for the Journey to Self-Reliance, USAID needs 
to have the right people, in the right place, and at the right time, 
which is why workforce-planning is a key part of the Transformation. 
USAID will continue our strategic hiring approach that aligns our 
workforce-planning with the administration's foreign-policy and 
budgetary priorities. For example, the Agency will continue using the 
Hiring and Reassignment Review Board (HRRB) to accommodate our staffing 
needs, including through external hires. The HRRB monitors attrition 
levels, identifies gaps in the competencies of our workforce, and 
prioritizes the essential positions to fill. This corporate view 
ensures we remain within our funding levels; support our priorities; 
and recruit, retain and deploy the talent we need.
    Under the proposed Transformation, USAID's Missions would continue 
to be the lead decision-maker over their programming. Missions would 
continue to prepare resource requests and design their strategies, 
projects, and activities, while Washington would provide both required 
and requested advisory services to ensure projects reflect the latest 
evidence and the appropriate strategic direction. What would change in 
how we do business is that Washington would have very clearly labeled 
``Centers'' throughout technical Bureaus that would be the primary 
service-providers for field-support, which should reduce the burden of 
coordination for our field staff and allow for more accountability 
through the use of customer-service metrics and systems established as 
part of the Transformation.

    Question. Do the Foreign Service and civil service unions support 
the reorganization? Are they committed to going forward with the 
reorganization as you present it?

    Answer. As part of the Transformation process, the leadership of 
the U.S. Agency for International Development (USAID) has provided a 
comprehensive and high-level overview of the proposed changes to the 
American Foreign Service Association (AFSA) and the American Federation 
of Government Employees (AFGE) on multiple occasions. Understanding the 
realities of Transformation, the unions' main request is for us to 
engage them, and hear them, as we proceed through the design and 
planning processes. As a result, USAID labor-relations staff provide 
regular briefings and updates on the status of Transformation for both 
the unions. Both unions have reserved the right to bargain on all 
negotiable issues, to include negotiations on impact and 
implementation. We will continue to coordinate closely with the unions 
as we plan our future workforce.

    Question. Secretary Pompeo was confirmed just two short months ago. 
Do you believe Secretary Pompeo recognizes the important role of 
development in diplomacy? How, if at all are you working together to 
ensure development and diplomatic efforts are in alignment?

    Answer. Yes, I am confident that Secretary Pompeo recognizes the 
important role of development in diplomacy. The Secretary highlighted 
this view in his opening remarks on his first day at the Department of 
State. In these comments, Secretary Pompeo cited the important role 
that the U.S. Agency for International Development (USAID) plays in 
achieving our shared mission, by stating that USAID's work is an 
``important part of the mission.. to deliver President Trump and 
America's foreign policy around the world.''
    USAID and the U.S. Department of State cooperate closely to ensure 
our development and foreign-policy activities are successfully 
achieving the objectives of the President's National Security Strategy 
(NSS). Building on the NSS, the USAID and State Department Fiscal Year 
2018-2022 Joint Strategic Plan strengthens our alignment; articulates 
development and diplomacy priorities; and bolsters strategic clarity, 
operational effectiveness, and accountability to the American people. 
USAID and State further increase our alignment through our planning 
efforts on Joint Regional Strategies, Integrated Country Strategies, 
and day-to-day strategic discussions between staff who work at U.S. 
Embassies and USAID Missions worldwide.


        In January, the Trump administration released guidance for the 
        Foreign Aid Transparency and Accountability Act--unanimously 
        passed by Congress--calling on all aid agencies to establish 
        and set high standards for evaluation and learning policies.

    Question. Why has the administration again proposed eliminating 
nearly half of the PPL Bureau in its budget request to Congress, and 
what specifically would the Bureau have to give up under this budget?

    Answer. The U.S. Agency for International Development (USAID) is 
committed to implementing the Foreign Aid Transparency and 
Accountability Act (FATAA). The Bureau for Policy, Planning and 
Learning (PPL) works in concert with the Bureau for Management to 
spearhead Agency-wide aid efforts to increase transparency and 
accountability. Given the importance of this agenda to ensuring 
effective development results and accountability to the American 
taxpayer, as well as USAID's commitment to fulfill various 
international and congressional reporting requirements, the Agency will 
continue to meet its obligations under FATAA.
    The President's Budget Request for Fiscal Year (FY) 2019 for the 
U.S. Department of State and the U.S. Agency for International 
Development (USAID) focuses resources on our national security at home 
and abroad, on economic development that contributes to the growth of 
our own economy, on continued leadership in international institutions 
based on a fair distribution of the burden, and on renewed efforts to 
modernize and make more effective the operations of both the Department 
of State and USAID. USAID will seek to continue to support important 
accountability efforts as final determinations regarding the 
allocations of the Agency's budget within the PPL Bureau.

    Question. How will you work with the State Department to improve 
aid data and data management, including resolving the multiple 
platforms for aid data that currently exist? What resources from the FY 
2019 request are proposed to address these needs?

    Answer. Both the Department of State and the U.S. Agency for 
International Development (USAID) have similar, but distinct, 
requirements and capabilities for reporting on, and improving the 
transparency of, U.S. foreign assistance. In Fall 2017, a Working Group 
comprised of staff from the Department of State and USAID conducted a 
review, and identified options for the consolidation of processes and 
data-collection related to ForeignAssistance.gov (FA.gov) and the 
Foreign Aid Explorer (Explorer.USAID.gov). The Working Group drafted a 
summary report that identified several options that respond to the 
Sense of Congress in the Foreign Aid Transparency and Accountability 
Act (FATAA) to unify the presentation of information on the two 
websites.
    Despite a number of discussions under the now-abandoned Redesign 
launched by former Secretary of State Rex Tillerson, the conversation 
about how to move forward to implement the options presented by the 
Working Group has not advanced. Nevertheless, USAID is improving the 
quality and comprehensiveness of its aid data and data-management 
within existing resources, and continues to believe FA.gov and 
Explorer.USAID.gov should have a single consumer interface. We are 
examining the resources required to operationalize the options outlined 
by the Working Group, but are not requesting additional funds to do so 
at this time.


        Africa CT Policy: The deaths of four U.S. soldiers in an 
        insurgent ambush in Niger in October 2017 highlighted the 
        growing U.S. military presence and scope in Africa, now 
        encompassing about 6,500 personnel. DOD's security assistance 
        spending in Africa, which surpassed that of the State 
        Department starting in FY 2015, has played an increasing role 
        in U.S. counterterrorism. However, development programming 
        plays a critical role in creating stable societies that can 
        withstand the rise of extremist ideologies and political 
        instability.

    Question. Given the growing terrorist threats on the African 
continent, how, specifically, can we better align USAID programming and 
counterterrorism efforts to simultaneously suppress terrorist groups 
and address the drivers of violent extremism, which include poverty, 
weak governance, corruption, and xenophobia?

    Answer. The U.S. Agency for International Development (USAID) plays 
a crucial role in the U.S Government's effort to counter violent 
extremism (CVE). The Trans-Sahara Counterterrorism Partnership (TSCTP) 
and the Partnership for Regional East Africa Counterterrorism (PREACT) 
serve as the overarching frameworks for the interagency policy and 
programmatic coordination of this work. These region-specific 
strategies reflect the objectives in the President's National Security 
Strategy. USAID closely coordinates our development work in the field 
with, and complements, the security and diplomatic efforts led by the 
Departments of Defense and State. USAID's CVE programs promote both a 
local and a regional perspective that facilitates trans-boundary 
analysis, fosters cross-border approaches and learning, and leverages 
partnerships with regional institutions, to support national momentum 
to counter violent extremism.
    For example, across the Sahel, USAID's Voices for Peace program 
uses over 90 community radio platforms in over 20 local languages to 
amplify moderate voices that strengthen positive narratives, expand 
access to information, and increase dialogue and exchanges on 
governance and peace-building. As one community member in Diffa, Niger, 
stated: ``This is incredibly important, because the radio program's 
messages are spreading everywhere, not only among the youth, but even 
among the elderly who can't read, but who are dedicated radio 
listeners.''
    In the Horn of Africa, USAID's investments focus on community-level 
efforts to implement holistic, national CVE action plans, as well as 
integrated cross-border programming that reinforces the role of 
community actors to address underlying conditions the make youth 
vulnerable to recruitment by extremists groups. In Kenya, USAID takes 
this one step further with programming that supports the implementation 
of county-level CVE action plans with input from political, business, 
civil society, and religious leaders invested in CVE efforts in each 
county.

    Question. How might USAID improve coordination across the Africa 
and Middle East bureaus regarding CVE efforts in the Sahel and North 
Africa?

    Answer. The well-established coordination structures and processes 
developed through the creation of the Trans-Sahara Counter Terrorism 
Partnership in 2005 continue to provide the framework for coordination 
on regional, sub-regional, and national levels. This routine 
coordination improves through events that promote regional knowledge-
sharing, evaluations, and trainings that support the cross-pollination 
of ideas, lessons learned, and best practices to counter the scourge of 
violence and extremism in the Sahel and Maghreb.

    Question. How can we better ensure that the United States' 
counterterrorism policy syncs with our diplomatic, rule of law, human 
rights, development, and economic engagement on the continent?

    Answer. A fundamental principle for any program funded by the U.S. 
Agency for International Development (USAID) is to work by, with, and 
through our partners. This principle is even more critical for 
programming to counter violent extremism (CVE) -whether it involves 
providing people with education, employment, security, or a sense of 
purpose in their lives--because it depends on engendering trust between 
governments and the communities most vulnerable to radicalization.
    USAID applies this principle by conducting risk-assessments so that 
programs incorporate an understanding of the factors that generate and 
sustain violent extremism in each country, as well as the local 
context. This detailed understanding helps us to apply another core 
principle of ``do no harm,'' to ensure that CVE approaches do not 
aggravate a fragile peace in areas that are struggling with poverty, 
climatic shocks, lack of trust between the population and security 
forces, and victimization by violent groups
    USAID also links prevention to broader development and economic 
efforts as a way to build in an enduring resistance to extremists and 
their ideology. This can include ensuring a gender-sensitive approach 
that takes into consideration the role played by women, fostering more-
effective communication among local populations and security forces and 
local government or traditional leaders, and offering employment-
related training for youth cohorts in multiple sectors.


        The administration's National Security Strategy recognizes that 
        America ``faces an extraordinarily dangerous world, filled with 
        a wide range of threats that have intensified in recent years'' 
        and that we must use all of our national security tools to 
        confront these threats. At the same time, the administration 
        has proposed deep cuts to development and diplomacy, leading 
        retired Army Chief of Staff Gen. George W. Casey to comment 
        that there is a ``strategy and budget mismatch.''

    Question. How do you reconcile this discrepancy in resources with 
not only the threats we currently face but this administration's own 
strategy to confront those challenges?

    Answer. While the administration views the roles of the State 
Department and the U.S. Agency for International Development (USAID) in 
diplomacy and development as critical to national security, the 
administration also remains committed to the appropriate stewardship of 
taxpayer dollars
    As such, the President's Budget Request for Fiscal Year (FY) 2019 
for the State Department and USAID focuses resources on our national 
security at home and abroad, on economic development that contributes 
to the growth of the U.S. economy, on continued leadership in 
international institutions based on a fair distribution of the burden, 
and on renewed efforts to modernize and make more-effective the 
operations of both the State Department and USAID. At the same time, we 
call on other donors to do more, and seek to mobilize other resources 
towards our goals, such as from the private sector and from partner 
countries' domestic resources.
    The President's Budget Request for FY 2019 upholds his commitment, 
as outlined in the National Security Strategy and the State Department 
and USAID Joint Strategic Plan, to serve the needs of American 
citizens, to ensure their safety, to preserve their rights, and to 
defend and promote their values. It allows us to advance our national-
security objectives and foreign-policy goals, and provides the 
resources necessary to advance peace and security, expand American 
influence, and address global crises, while prioritizing the efficient 
use of taxpayer resources.


        While Congress ultimately determines spending levels for USAID, 
        the administration's budget proposal has a substantial impact 
        on the implementation of U.S. foreign policy--with USAID 
        missions required to prepare for the most severe budget cuts. 
        As history has shown, prematurely scaling back USAID missions 
        or programs can have serious effects, potentially leading to a 
        more costly military intervention or humanitarian emergency 
        down the road.

    Question. What are you doing to ensure USAID's missions and 
projects are not adversely affected by the proposed budget cuts?

    Answer. The President's Budget Request for Fiscal Year (FY) 2019 
provides substantial resources to advance peace and security, expand 
American influence, and address global crises, while making efficient 
use of taxpayer resources. For example, the Budget Request includes 
significant support to defeat the Islamic State in Iraq and Syria 
(ISIS) and other transnational terrorist and criminal groups, advance 
global health programs, and provide humanitarian assistance. The Budget 
Request focuses resources on our national security at home and abroad, 
including on renewed efforts to modernize and make more effective the 
operations of both the Department of State and the U.S. Agency for 
International Development (USAID).
    The Budget Request also promotes the advancement of more stable, 
resilient, and democratic societies that are self-reliant, lead and 
fund their own development, and contribute to a more secure and 
prosperous world, a key priority for USAID. The request upholds U.S. 
commitments to key partners and allies through strategic, selective 
investments that enable the United States to retain its position as a 
global leader; at the same time, it relies on other nations to make 
greater, proportionate contributions toward our shared objectives. By 
calling on other donors to do more, we seek to mobilize other resources 
towards our goals (e.g., from the private sector, and from partner 
countries' domestic budgets).
    The President's FY 2019 Budget Request upholds his commitment, as 
outlined in the National Security Strategy and the State Department and 
USAID Joint Strategic Plan, to serve the needs of American citizens, to 
ensure their safety, to preserve their rights, and to defend and 
promote their values.


        Last month, our committee held a hearing to examine U.S. policy 
        in Yemen. During the hearing, I asked our DoD witness how we 
        are ensuring that our assistance to the coalition is helping to 
        reduce civilian casualties when we don't in fact track those 
        casualties. Mr. Karem responded that we have ``insight into 
        Saudi targeting behavior'', and that ``Saudi and Emirati 
        targeting efforts have improved''.

    Question. I know you can't speak for DoD, but as USAID 
administrator, how do you think civilian casualties impact our ability 
to help negotiate a political resolution to the Yemen crisis? Do you 
agree that these casualties put America's reputation at risk? How would 
you suggest the U.S. address this risk? What steps are you taking to 
ensure a political resolution to this crisis?

    Answer. The United States remains concerned about the effect of the 
devastating conflict on the Yemeni civilian population. The United 
States has provided more than $850 million in critical humanitarian 
assistance to the people of Yemen since the war began, including food, 
medical supplies, and clean drinking water. The U.S. Agency for 
International Development (USAID), with interagency counterparts, is 
engaging proactively with Coalition partners at the highest levels to 
mitigate the conflict's impact on civilians, and the risk of civilian 
casualties and harm to civilian objects. Attacks on innocent civilians 
in war, under any circumstance, are unacceptable. We take all credible 
reports of civilian casualties seriously, and call upon all parties to 
take appropriate measures to diminish the risk that they will occur. We 
also urge all parties to the conflict to investigate incidents, take 
appropriate accountability measures, and release the results of 
investigations publically.
    Only a political solution will resolve the conflict in Yemen. To 
that end, USAID is closely engaged with the U.S. Department of State 
and the United Nations Special Envoy, and supports his efforts to find 
a political solution. Escalations in violence in Yemen make these talks 
all the more urgent. We continue to urge all parties to engage the U.N. 
promptly, and in good faith, to find a political solution to this war.


        The 2018 Worldwide Threat Assessment of the Intelligence 
        Community found that ``poor governance, weak national political 
        institutions, economic inequality, and the rise of violent non-
        state actors all undermine states' abilities to project 
        authority and elevate the risk of violent-even regime-
        threatening-instability and mass atrocities.''

    Question. How does this budget prioritize efforts to address the 
root causes of violent conflict like poor rule of law, governance, weak 
political institutions, and economic inequality?

    Answer. How does this budget prioritize efforts to address the root 
causes of violent conflict like poor rule of law, governance, weak 
political institutions, and economic inequality?
    The President's Budget Request for Fiscal Year (FY) 2019 
effectively leverages the unique position of the U.S. Agency for 
International Development (USAID) to advance democratic, citizen 
governance and address the causes and consequences of closing 
democratic space, instability, state fragility, and violent extremism. 
Using a field-based approach, USAID manages approximately $1.7 billion 
of the U.S. Government's $2.3 billion annual budget for democracy, 
human rights, and governance (DRG) budget, with Mission-based programs 
in over 70 countries managed by over 400 American and local experts.
    USAID's DRG programs, alongside programming in other sectors, 
address the underlying causes of national-security threats, including 
terrorism, transnational crime, trafficking in persons and wildlife, 
state fragility, and illegal migration. USAID's investments support the 
rule of law and judicial institutions, strengthen the performance and 
accountability of governments, and protect human rights.
    They also foster economic opportunity, fight corruption, and 
strengthen independent media and civil-society institutions that are 
important in addressing the root causes of conflict.

    Question. What tools are you employing to prevent atrocities that 
would impact our national security interests?

    Answer. The U.S. Agency for International Development (USAID) uses 
a range of approaches to address the risk of mass atrocities. They fall 
into four core categories:


    (A) Recognizing and communicating information and analysis about 
the risk of atrocities: USAID uses early-warning and assessment tools 
to detect potential risks before atrocities might occur. Further, we 
regularly gather information from our field Missions on incidents that 
could be risk factors or warning signs. We also regularly consult with 
interagency colleagues and outside groups like the U.S. Holocaust 
Memorial Museum on at-risk countries.

    (B) Prevention through mitigating risks and bolstering resilience: 
USAID's investments in preventing conflict; promoting human rights, the 
rule of law, and democratic, citizen-responsive governance; 
strengthening civil society; and building the capacity and legitimacy 
of weak states are the most important role our Agency plays in 
preventing mass atrocities. USAID's response to these upstream 
preventative issues gives us a unique and long-term ability to 
influence a country context to achieve more-peaceful outcomes. USAID 
has a range of mechanisms in each of the above sectors, applied in both 
long-term and rapid-response capacities to address emerging risk 
factors and warning signs.

    (C) Responding to limit the consequences of ongoing atrocities: 
USAID provides life-saving humanitarian assistance to populations who 
are experiencing the impact of mass atrocities, including in Burma, 
South Sudan, Syria, and elsewhere. In addition to humanitarian 
assistance, USAID pays for trauma-support for victims, early-warning 
mechanisms and communications capacity for at-risk communities, and 
atrocity-sensitive capacity-building for local and regional media.

    (D) Supporting Recovery Efforts: USAID promotes the recovery from, 
and the prevention of, the recurrence of atrocities through funding for 
the strengthening of accountability mechanisms and post-conflict and 
judicial institutions, and work to heal trauma.


    USAID also offers instructive materials and online training for our 
staff to build capacity to recognize risks and develop programs to 
prevent mass atrocities. USAID is also creating in-person training for 
staff on the risk of atrocities and related development programs.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Hon. Mark Green by Senator Todd Young

    Question. As of June 20, the GAO website reports that USAID has 28 
open recommendations, including 5 priority recommendations-with the 
oldest from 2014. For any open priority recommendations or open 
recommendations from 2017 or earlier, please provide my office a 
written update. For any recommendation USAID has decided to adopt, I am 
interested in a timeline for implementation and an explanation for any 
delay. For any recommendation that USAID has decided not to implement 
or fully implement, I am interested in a detailed justification.

    Answer. The recommendations of the Government Accountability Office 
(GAO) are integral to the success of the U.S. Agency for International 
Development (USAID) because they put the Agency in a better position to 
perform our mission and reflect American values around the world. The 
GAO helps save taxpayer dollars by enhancing the efficiency, 
effectiveness, integrity, and accountability of the Agency's programs 
and operations, as well as pushing us to prevent and respond to fraud, 
mismanagement, and wasteful practices.
    On December 5, 2017, I announced a zero-tolerance policy for audit 
backlogs, and called on all Bureaus and Independent Offices to 
prioritize the resolution of recommendations made in audits by the GAO 
and the Office of the USAID Inspector General (OIG). By the end of May, 
the Agency had erased its backlog of recommendations from both the GAO 
and OIG.
    USAID has concurred with each of the 28 open recommendations about 
which you asked, and has fully implemented many of them. Of the 28 
recommendations, the GAO has confirmed closure of 10, and confirmed 
receipt of closure requests for many of the remaining ones. USAID will 
fully implement all the recommendations it has not yet fully 
implemented.
    Question. In your written statement, you mentioned USAID's work 
related to development impact bonds. As you noted, ``Under this new 
model, private capital funds the initial investment, and USAID pays if, 
and only if, the carefully defined development goal is achieved.'' Are 
there additional areas of USAID's mission or operations that are 
particularly conducive to the use of development impact bonds or other 
innovative financing tools? How can Congress be helpful in this area?

    Answer. An impact bond is a type of pay-for-results activity, in 
which a funder pays a service-provider only upon the achievement of 
specific outcomes tied to social or development metrics. For an impact 
bond, the service-provider needs up-front capital from an investor to 
finance the work, and the investor is willing to take on the 
performance and financial risk that the service-provider can deliver as 
planned. In return for taking on such risk, the investor potentially 
realizes a return on its investment. For an impact bond to work, the 
program must have measurable, verifiable results upon which to base 
payments, and the implementing partner must need up-front capital. The 
potential of pay-for results methodologies, and development-impact 
bonds in particular, is not limited to any specific sector.
    To date, the U.S. Agency for International Development (USAID) has 
participated in and funded two impact bonds. The $5.26 million Village 
Enterprise Development-Impact Bond was the first, and the first of its 
kind in Africa. The purpose of the bond is to ``crowd in'' investment 
from impact investors to provide Village Enterprise with working 
capital to scale its successful program of creating and sustaining 
microenterprises by providing small cash grants, business and 
financial-literacy training, mentoring, and access to savings. In 
exchange for up-front capital to fund the Village Enterprise program, 
funders, including USAID's Development Innovation Ventures and the 
Department for International Development (DFID) of the United Kingdom, 
agreed to repay investors plus a return, provided that Village 
Enterprise delivered verifiable outcomes, such as improved income and 
consumption.
    The second development-impact bond USAID has funded is the Utkrisht 
Impact Bond, which is one of the largest and most-ambitious 
development-impact bonds to date. Bringing together USAID, Merck for 
Mothers, the UBS Optimus Foundation, Population Services International, 
Palladium, and the Hindustan Latex Family-Planning Promotion Trust 
(HLFPPT), the Utkrisht Impact Bond aims to reduce the number of 
maternal and newborn deaths in the State of Rajasthan, in the Republic 
of India, by improving the quality of care in private health 
facilities. In this financing structure, private capital from the UBS 
Optimus Foundation will cover the upfront costs of improving the 
quality of health care in approximately 440 private health facilities 
in Rajasthan. HLFPPT and PSI will use that working capital to help the 
private facilities meet quality and accreditation standards set by the 
Indian Government. As outcome-payers, USAID and Merck for Mothers will 
pay back this investment only if the facilities meet the national 
standards related to maternal and newborn health. This pay-for-success 
approach ensures the appropriate stewardship of U.S. taxpayer dollars, 
while unlocking both private capital and resources from the Indian 
Union Government and State of Rajasthan for health care. If successful, 
the State Government of Rajasthan has agreed to continue supporting the 
bond after the initial three year pilot, which provides a path to long-
term sustainability for these activities and results. Through increased 
access to life-saving supplies, a greater number of appropriately 
trained staff, and an improved ability for these health professionals 
to address complications in labor, this effort has the potential to 
reach up to 600,000 women and newborns over five years.
    Through Development Innovation Ventures (DIV), a tiered, evidence-
based open-innovation program managed by the Global development Lab, 
USAID has received proposals for development-impact bonds in health, 
sanitation, economic development, and education, and we anticipate 
additional proposals. Because DIV accepts applications from any sector 
and country, these proposals represent a ``market test'' for interest 
in priority sectors. We are also exploring other, more-direct ways to 
catalyze private capital--again by using a pay-for-results approach. 
For example, we have encouraged Ghanaian banks to provide financing for 
agriculture by taking the performance risk, through the delivery of 
incentive payments based upon the disbursement of loans. Competition 
for these incentive payments among banks provides the ability to 
minimize the incentives necessary to accomplish disbursements under 
loans for agriculture-related investments, which maximizes the leverage 
of development dollars.




                                      USAID'S GAO PRIORITY RECOMMENDATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                                       Target
Letter Ref.                                                                                            Action
                Report Number         Rec. No.        Recommendation Text       USAID Updates        Completion
                                                                                                        Date
----------------------------------------------------------------------------------------------------------------
1            GAO-14-277          1                       To strengthen          USAID concurred    12/31/2018
                                                      USAID's ability to     with this
                                                      help ensure that its   recommendation and,
                                                      food aid               in 2017, provided
                                                      prepositioning         GAO with a statement
                                                      program meets the      of work to develop a
                                                      goal of reducing       system to track
                                                      delivery time frames   commodity inventory
                                                      in a cost-effective    data. USAID had
                                                      manner, the USAID      planned to have a
                                                      Administrator should   contract in place by
                                                      systematically         in July 2018 but the
                                                      collect, and ensure    initial contract
                                                      the reliability and    award did not lead
                                                      validity of, data on   to a viable
                                                      delivery time frames   solution..
                                                      for all emergency         IT implementation
                                                      food aid shipments,    and USAID specific
                                                      including              IT security
                                                      prepositioned food     requirements and
                                                      aid shipments..        processes. USAID's
                                                                             CIO has agreed to
                                                                             this approach and is
                                                                             working closely with
                                                                             USAID/FFP and M/OAA
                                                                             to ensure that the
                                                                             contract, focused on
                                                                             addressing the key
                                                                             system requirements
                                                                             noted in the GAO
                                                                             recommendation is
                                                                             awarded by the end
                                                                             of this calendar
                                                                             year..
                                                                                As USAID has
                                                                             worked on the design
                                                                             and procurement for
                                                                             the new pre-
                                                                             positioning tracking
                                                                             system, it has taken
                                                                             steps using existing
                                                                             systems to enhance
                                                                             its oversight of the
                                                                             pre-positioned
                                                                             inventory in the
                                                                             short term. This has
                                                                             included increasing
                                                                             the frequency with
                                                                             which USAID receives
                                                                             inventory reports
                                                                             for each of USAID's
                                                                             four pre-positioning
                                                                             warehouses. The
                                                                             inventory reports
                                                                             include standardized
                                                                             datasets for
                                                                             comparability and
                                                                             ease of tracking,
                                                                             and include improved
                                                                             functionality on
                                                                             pick-up dates for
                                                                             new commodities as
                                                                             well as balances
                                                                             remaining from
                                                                             specific commodity
                                                                             lots. Further, USAID
                                                                             systematically
                                                                             collects and reports
                                                                             on the approximate
                                                                             physical location of
                                                                             all shipments based
                                                                             on information
                                                                             provided by
                                                                             implementing
                                                                             partners..
----------------------------------------------------------------------------------------------------------------
2            GAO-14-277          2                       To strengthen          USAID concurred    02/28/2019
                                                      USAID's ability to     with this
                                                      help ensure that its   recommendation and,
                                                      food aid               in 2017, provided
                                                      prepositioning         GAO with a statement
                                                      program meets the      of work to develop a
                                                      goal of reducing       system to track
                                                      delivery time frames   commodity inventory
                                                      in a cost-effective    data. USAID had
                                                      manner, the USAID      planned to have a
                                                      Administrator should   contract in place by
                                                      systematically         July 2018 but the
                                                      monitor and assess     initial contract
                                                      data on delivery       award did not lead
                                                      time frames for        to a viable
                                                      prepositioned food     solution. USAID is
                                                      aid shipments..        seeking an optimal
                                                                             solution that
                                                                             contains rigorous
                                                                             requirements,
                                                                             deliverables and
                                                                             timelines that will
                                                                             ensure an effective
                                                                             and timely
                                                                             deployment of the
                                                                             system..
                                                                                As such, USAID is
                                                                             using a co-creation
                                                                             approach for this
                                                                             award, contracting
                                                                             with multiple
                                                                             vendors, each with
                                                                             specific expertise
                                                                             in key areas of the
                                                                             award including
                                                                             logistics, IT
                                                                             implementation and
                                                                             USAID specific IT
                                                                             security
                                                                             requirements and
                                                                             processes. USAID's
                                                                             CIO has agreed to
                                                                             this approach and is
                                                                             working closely with
                                                                             USAID/FFP and M/OAA
                                                                             to ensure that the
                                                                             initial phase of the
                                                                             project, focused on
                                                                             addressing the key
                                                                             system requirements
                                                                             noted in the GAO
                                                                             recommendations, is
                                                                             awarded by the end
                                                                             of February, 2019..
                                                                                As USAID has
                                                                             worked on the design
                                                                             and procurement for
                                                                             the new pre-
                                                                             positioning tracking
                                                                             system, it has taken
                                                                             steps using existing
                                                                             systems to enhance
                                                                             its monitoring and
                                                                             assessments of its
                                                                             regularly collected
                                                                             data. In the short
                                                                             term, pre-
                                                                             positioning
                                                                             warehouses are
                                                                             monitored on-site on
                                                                             a monthly basis by
                                                                             an independent,
                                                                             third party
                                                                             inspection company
                                                                             who is often in the
                                                                             warehouse daily. The
                                                                             resulting reports
                                                                             are used, in part,
                                                                             to verify the data
                                                                             provided in the
                                                                             weekly inventory
                                                                             reports submitted by
                                                                             warehouse operators..
                                                                                USAID further
                                                                             monitors the pre-
                                                                             positioned inventory
                                                                             through its own
                                                                             routinely scheduled
                                                                             visits from
                                                                             Washington-based
                                                                             staff and more
                                                                             regular visits from
                                                                             country- and
                                                                             regionally-based
                                                                             Food for Peace
                                                                             Officers.
                                                                             Information on
                                                                             prepositioned
                                                                             inventory, once
                                                                             received and
                                                                             verified, is
                                                                             uploaded into a
                                                                             Microsoft Access
                                                                             database, where it
                                                                             is analyzed and
                                                                             compiled into weekly
                                                                             reports that are
                                                                             distributed to
                                                                             staff..
----------------------------------------------------------------------------------------------------------------
3            GAO-14-277          3                       To strengthen          USAID concurred    02/28/2019
                                                      USAID's ability to     with this
                                                      help ensure that its   recommendation and,
                                                      food aid               in 2017, provided
                                                      prepositioning         GAO with a statement
                                                      program meets the      of work to develop a
                                                      goal of reducing       system to track
                                                      delivery time frames   commodity inventory
                                                      in a cost-effective    data..
                                                      manner, the USAID         USAID had planned
                                                      Administrator should   to have a contract
                                                      systematically         in place by July
                                                      monitor and assess     2018 but the initial
                                                      costs associated       contract award did
                                                      with commodity         not lead to a viable
                                                      procurement,           solution. USAID is
                                                      shipping, and          seeking an optimal
                                                      storage for            solution that
                                                      prepositioned food     contains rigorous
                                                      aid shipments..        requirements,
                                                                             deliverables and
                                                                             timelines that will
                                                                             ensure an effective
                                                                             and timely
                                                                             deployment of the
                                                                             system..
                                                                                As such, USAID is
                                                                             using a co-creation
                                                                             approach for this
                                                                             award, contracting
                                                                             with multiple
                                                                             vendors, each with
                                                                             specific expertise
                                                                             in key areas of the
                                                                             award including
                                                                             logistics, IT
                                                                             implementation and
                                                                             USAID specific IT
                                                                             security
                                                                             requirements and
                                                                             processes. USAID's
                                                                             CIO has agreed to
                                                                             this approach and is
                                                                             working closely with
                                                                             USAID/FFP and M/OAA
                                                                             to ensure that the
                                                                             initial phase of the
                                                                             project, focused on
                                                                             addressing the key
                                                                             system requirements
                                                                             noted in the GAO
                                                                             recommendations, is
                                                                             awarded by the end
                                                                             of February, 2019..
                                                                              In the meantime,
                                                                             USAID has enhanced
                                                                             its capacity to
                                                                             monitor and assess
                                                                             costs associated
                                                                             with pre-positioned
                                                                             food aid. USAID has
                                                                             always structured
                                                                             its pre-positioning
                                                                             contracts such that
                                                                             the Agency only pays
                                                                             for the space
                                                                             utilized. In FY
                                                                             2018, USAID also
                                                                             reduced the number
                                                                             of operational pre-
                                                                             positioning
                                                                             warehouses from five
                                                                             to four based on
                                                                             improved demand
                                                                             forecasting.
                                                                             Further,.
                                                                              USAID increased the
                                                                             use of its domestic
                                                                             pre-positioning
                                                                             warehouse in
                                                                             Houston, TX,
                                                                             reducing the
                                                                             handling and ocean
                                                                             freight costs. In
                                                                             its pre-positioning
                                                                             warehouse in
                                                                             Djibouti, USAID has
                                                                             added a racking
                                                                             system to more
                                                                             effectively use the
                                                                             allotted space.
                                                                             Finally, USAID
                                                                             requires
                                                                             palletization of all
                                                                             vegetable oil in pre-
                                                                             positioning
                                                                             warehouses, which
                                                                             helps to reduce
                                                                             losses resulting
                                                                             from damage during
                                                                             transportation from
                                                                             the United States..
----------------------------------------------------------------------------------------------------------------
 
4            GAO-17-224          1                       To enhance             USAID concurred    12/31/2018
                                                      USAID's financial      with the
                                                      oversight of           recommendation. In
                                                      implementing           April 2018, USAID
                                                      partners' spending     informed GAO that
                                                      to implement and       USAID selected two
                                                      support Title II       Title II awardees/
                                                      development and        countries to be
                                                      emergency projects,    reviewed. USAID has
                                                      the USAID              conducted these
                                                      Administrator should   reviews, which
                                                      develop, document,     consisted of an
                                                      and implement a        initial desk review
                                                      process for            of documentation,
                                                      periodically           consultation with
                                                      conducting             the NGO's
                                                      systematic, targeted   headquarters staff,
                                                      financial reviews of   and a field review
                                                      Title II development   in the NGO's country
                                                      and emergency          office, to be
                                                      projects. Such         followed by the
                                                      reviews should         preparation of a
                                                      include efforts to     report. USAID is now
                                                      verify that actual     preparing reports
                                                      costs incurred for     for the reviews and
                                                      these projects align   documenting the
                                                      with planned           financial review
                                                      budgets..              process for
                                                                             consistent future
                                                                             use..
----------------------------------------------------------------------------------------------------------------
5            GAO-17-224          3                       To enhance             USAID concurred    02/19/2019
                                                      USAID's financial      with the
                                                      oversight of           recommendation. In
                                                      implementing           December 2017, USAID
                                                      partners' spending     confirmed with GAO
                                                      to implement and       that USAID will
                                                      support Title II       continue to use the
                                                      development and        updated Food for
                                                      emergency projects,    Peace development
                                                      the USAID              award template,
                                                      Administrator should   which requires
                                                      take steps to ensure   programs to provide
                                                      that it collects       quarterly reports on
                                                      complete and           cash transfers, food
                                                      consistent             vouchers, and local
                                                      monitoring data from   and regional
                                                      implementing           procurement..
                                                      partners for Title        In February 2018,
                                                      II development and     USAID provided
                                                      emergency projects     support that it has
                                                      on the use of 202(e)   developed training
                                                      funding for cash       and standardized
                                                      transfers, food        oversight staff
                                                      vouchers, and local    roles and
                                                      and regional           responsibilities to
                                                      procurement as well    ensure that complete
                                                      as data on the use     and consistent
                                                      of Title II funding    monitoring data is
                                                      for internal           collected for Title
                                                      transportation,        II development and
                                                      storage, and           emergency projects.
                                                      handling (ITSH)        The closure of this
                                                      costs, in accordance   recommendation
                                                      with established       requires a final
                                                      requirements..         report for an award
                                                                             that will not be
                                                                             issued until January
                                                                             2019. USAID has
                                                                             confirmed that it
                                                                             will provide the
                                                                             required documents
                                                                             to GAO upon their
                                                                             issuance..
----------------------------------------------------------------------------------------------------------------


                                  GAO OPEN RECOMMENDATIONS FROM 2017 OR EARLIER
----------------------------------------------------------------------------------------------------------------
                                                                                                       Target
Letter Ref.                                                                                            Action
                Report Number         Rec. No.        Recommendation Text       USAID Updates        Completion
                                                                                                        Date
----------------------------------------------------------------------------------------------------------------
6            GAO-14-22           2                       To improve the         USAID concurred    12/31/2018
                                                      efficiency and         with this
                                                      accountability of      recommendation and,
                                                      the emergency food     in 2017, provided
                                                      aid procurement        GAO with a statement
                                                      process, the           of work to develop a
                                                      Secretary of           system to track
                                                      Agriculture and        commodity inventory
                                                      Administrator of       data. USAID had
                                                      USAID should direct    planned to have a
                                                      their staffs to work   contract in place by
                                                      together to take       July 2018 but the
                                                      steps to improve       initial contract
                                                      USDA's ability to      award did not lead
                                                      account for U.S.       to a viable
                                                      Government funds by    solution. USAID is
                                                      ensuring that USAID    seeking an optimal
                                                      provides USDA with     solution that
                                                      accurate               contains rigorous
                                                      prepositioned          requirements,
                                                      commodity inventory    deliverables and
                                                      data that USDA can     timelines that will
                                                      independently          ensure an effective
                                                      verify..               and timely
                                                                             deployment of the
                                                                             system. As such,
                                                                             USAID is using a co-
                                                                             creation approach
                                                                             for this award,
                                                                             contracting with
                                                                             multiple vendors,
                                                                             each with specific
                                                                             expertise in key
                                                                             areas of the award
                                                                             including logistics,
                                                                             IT implementation
                                                                             and USAID specific
                                                                             IT security
                                                                             requirements and
                                                                             processes. USAID's
                                                                             CIO has agreed to
                                                                             this approach and is
                                                                             working closely with
                                                                             USAID/FFP and M/OAA
                                                                             to ensure that the
                                                                             contract, focused on
                                                                             addressing the key
                                                                             system requirements
                                                                             noted in the GAO
                                                                             recommendations, is
                                                                             awarded by the end
                                                                             of this calendar
                                                                             year..
                                                                                As USAID has
                                                                             worked on the design
                                                                             and procurement for
                                                                             the new pre-
                                                                             positioning tracking
                                                                             system, it has taken
                                                                             steps using existing
                                                                             systems to enhance
                                                                             its monitoring and
                                                                             assessments of its
                                                                             regularly collected
                                                                             data. Pre-
                                                                             positioning
                                                                             warehouses are
                                                                             monitored on-site on
                                                                             a monthly basis by
                                                                             an independent,
                                                                             third party
                                                                             inspection company.
                                                                             The resulting
                                                                             reports are used, in
                                                                             part, to verify the
                                                                             data provided in the
                                                                             weekly inventory
                                                                             reports submitted by
                                                                             warehouse operators.
                                                                             USAID further
                                                                             monitors the pre-
                                                                             positioned inventory
                                                                             through its own site
                                                                             visits--annual
                                                                             visits from
                                                                             Washington-based
                                                                             staff and more
                                                                             regular visits from
                                                                             country- and
                                                                             regionally-based
                                                                             Food for Peace
                                                                             Officers.
                                                                             Information on pre-
                                                                             positioned
                                                                             inventory, once
                                                                             received and
                                                                             verified, is
                                                                             uploaded into a
                                                                             Microsoft Access
                                                                             database, where it
                                                                             is analyzed and
                                                                             compiled into weekly
                                                                             reports that are
                                                                             distributed to
                                                                             staff..
----------------------------------------------------------------------------------------------------------------
7            GAO-15-102          3                       To help ensure         The rule-making    12/31/2018
                                                      agencies can more      process to define
                                                      fully implement        ``recruitment fees''
                                                      their monitoring       is an inter-agency
                                                      policy and guidance    effort which is
                                                      related to             still making its way
                                                      recruitment of         through the
                                                      foreign workers, the   regulatory process.
                                                      Secretaries of         The Office of
                                                      Defense and State      Management and
                                                      and the                Budget (OMB)
                                                      Administrator of the   submitted the final
                                                      U.S. Agency for        rule defining
                                                      International          recruitment fees as
                                                      Development should     part of the Spring
                                                      each develop, as       2018 United Agenda
                                                      part of their agency   of Federal
                                                      policy and guidance,   Regulatory and De-
                                                      a more precise         regulatory Actions.
                                                      definition of          The rule is
                                                      recruitment fees,      identified as a
                                                      including              ``significant rule''
                                                      permissible            and is expected to
                                                      components and         the published soon.
                                                      amounts..              In early October
                                                                             USAID learned that
                                                                             OMB has returned the
                                                                             draft rule to the
                                                                             FAR staff with
                                                                             comments that need
                                                                             to be addressed
                                                                             before the rule is
                                                                             issued issuance. It
                                                                             can take up to 90
                                                                             days for the
                                                                             corrections to be
                                                                             made. Once this rule
                                                                             is published, it is
                                                                             anticipated that GAO
                                                                             will close this
                                                                             audit
                                                                             recommendation..
----------------------------------------------------------------------------------------------------------------
8            GAO-15-479          3                       To improve             USAID issued a     12/31/2018
                                                      USAID's ability to     new, publicly
                                                      measure progress in    available USAID
                                                      achieving a            Education Policy--
                                                      quantitative reading   not a ``strategy''--
                                                      goal in any future     in November 2018.
                                                      education strategy,    The policy provides
                                                      the Acting USAID       general priority
                                                      Administrator should   direction for Agency
                                                      ensure that the        education programs,
                                                      future strategy        but it will not
                                                      includes targets       contain topline
                                                      that will allow        targets. Therefore,
                                                      USAID to monitor       this recommendation
                                                      interim progress       will no longer be
                                                      toward its goal in     applicable because
                                                      comparison with        it pertains to
                                                      planned performance..  targets that will
                                                                             not exist. USAID
                                                                             continues to monitor
                                                                             and evaluate the
                                                                             results of its
                                                                             education programs
                                                                             in compliance with
                                                                             standard operating
                                                                             procedures...
----------------------------------------------------------------------------------------------------------------
9            GAO-15-732          2                       To strengthen          USAID concurred    11/30/2018
                                                      USAID's ability to     with the
                                                      monitor Title II       recommendation.
                                                      conditional food aid   USAID built its
                                                      and evaluate food-     strategy and tools
                                                      for-assets             to assess the
                                                      activities' impact     effectiveness of
                                                      on reducing food       food-for-assets
                                                      insecurity, the        (FFA) activities in
                                                      USAID Administrator    development projects
                                                      should                 per GAO's
                                                      systematically         recommendation. In
                                                      assess the             June 2016, USAID
                                                      effectiveness of       submitted an initial
                                                      food-for-assets        closure request that
                                                      activities in          was supplemented
                                                      development projects   with significant
                                                      in achieving project   updates in March
                                                      goals and              2018. For example,
                                                      objectives..           USAID released
                                                                             additional Technical
                                                                             References, Guidance
                                                                             for Monitoring,
                                                                             Evaluation and
                                                                             Reporting, and
                                                                             established a new
                                                                             mechanism to
                                                                             independently
                                                                             conduct baseline
                                                                             studies and program
                                                                             evaluations In
                                                                             August 2018, USAID
                                                                             and GAO further
                                                                             discussed the
                                                                             process improvements
                                                                             USAID has made to
                                                                             address any
                                                                             outstanding issues.
                                                                             USAID followed-up
                                                                             with accompanying
                                                                             documents. Further,
                                                                             in November 2018,
                                                                             the GAO followed up
                                                                             with an additional
                                                                             document request--
                                                                             USAID plans to
                                                                             submit all requested
                                                                             documentation by
                                                                             November 30, 2018..
----------------------------------------------------------------------------------------------------------------
10           GAO-17-224          2                       To enhance             USAID concurred    Submitted for
                                                      USAID's financial      with the               closure to
                                                      oversight of           recommendation. In     GAO.
                                                      implementing           December 2017, USAID
                                                      partners' spending     confirmed with GAO
                                                      to implement and       that USAID will
                                                      support Title II       continue to use the
                                                      development and        updated Food for
                                                      emergency projects,    Peace development
                                                      the USAID              award template,
                                                      Administrator should   which requires
                                                      ensure that its        programs to provide
                                                      requirements for       quarterly reports on
                                                      implementing           cash transfers, food
                                                      partners to provide    vouchers, and local
                                                      monitoring data on     and regional
                                                      an ongoing basis on    procurement. USAID
                                                      the use of 202(e)      also developed and
                                                      funding for cash       shared the new World
                                                      transfers, food        Food Program award
                                                      vouchers, and local    template that
                                                      and regional           requires biannual
                                                      procurement are        reporting on food
                                                      consistent for Title   assistance
                                                      II development and     modalities. In June
                                                      emergency projects..   2018, USAID provided
                                                                             GAO with a signed
                                                                             development award
                                                                             that demonstrated
                                                                             use of the updated
                                                                             template..
----------------------------------------------------------------------------------------------------------------
11           GAO-17-224          5                       To enhance             USAID concurred    Submitted for
                                                      USAID's financial      with the               closure to
                                                      oversight of           recommendation. In     GAO.
                                                      implementing           December 2017, USAID
                                                      partners' spending     confirmed with GAO
                                                      to implement and       that USAID will
                                                      support Title II       continue to use the
                                                      development and        updated Food for
                                                      emergency projects,    Peace development
                                                      the USAID              award template,
                                                      Administrator should   which requires
                                                      establish a            programs to provide
                                                      requirement for        quarterly reports on
                                                      Title II development   cash transfers, food
                                                      project partners to    vouchers, and local
                                                      conduct and document   and regional
                                                      comprehensive risk     procurement. USAID
                                                      assessments and        also developed and
                                                      mitigation plans for   shared the new World
                                                      cash transfers and     Food Program award
                                                      food vouchers funded   template that
                                                      by 202(e), and take    requires biannual
                                                      steps to ensure that   reporting on food
                                                      implementing           assistance
                                                      partners adhere to     modalities. In June
                                                      the requirement..      2018 USAID provided
                                                                             GAO with a signed
                                                                             development award
                                                                             that demonstrated
                                                                             use of the updated
                                                                             template. GAO has
                                                                             confirmed receipt
                                                                             and the Agency
                                                                             expects closure..
----------------------------------------------------------------------------------------------------------------
12           GAO-17-640          3                       To help ensure         On October 13,     Submitted for
                                                      that, consistent       2017, USAID provided   closure to
                                                      with the Bellmon       a formal response to   GAO.
                                                      amendment, the         Congress on the
                                                      provision of U.S. in-  recommendations
                                                      kind food aid does     included in GAO-17-
                                                      not result in a        640. In the
                                                      substantial            response, USAID
                                                      disincentive to, or    indicated that it
                                                      interference with,     concurred with the
                                                      domestic production    recommendations in
                                                      or marketing in        the report, and
                                                      countries receiving    USAID reported that
                                                      in-kind food aid,      it is updating
                                                      the USAID              guidance and
                                                      Administrator should   procedures to
                                                      monitor markets        address the
                                                      during                 recommendations.
                                                      implementation of      USAID continues to
                                                      development projects   monitor its programs
                                                      to identify any        in compliance with
                                                      potential negative     standard operating
                                                      effects, such as       procedures and
                                                      unusual changes in     expects to close out
                                                      prices..               this recommendation
                                                                             on time..
----------------------------------------------------------------------------------------------------------------
13           GAO-17-640          4                       To help ensure         On October 13,     12/31/2018
                                                      that, consistent       2017, USAID provided
                                                      with the Bellmon       a formal response to
                                                      amendment, the         Congress on the
                                                      provision of U.S. in-  recommendations
                                                      kind food aid does     included in GAO-17-
                                                      not result in a        640. In the
                                                      substantial            response, USAID
                                                      disincentive to, or    indicated that it
                                                      interference with,     concurred with the
                                                      domestic production    recommendations in
                                                      or marketing in        the report, and
                                                      countries receiving    USAID reported that
                                                      in-kind food aid,      it is updating
                                                      the USAID              guidance and
                                                      Administrator should   procedures to
                                                      evaluate markets       address the
                                                      after development      recommendations.
                                                      projects are           USAID continues to
                                                      completed to           monitor its programs
                                                      determine whether      in compliance with
                                                      markets were           standard operating
                                                      negatively affected    procedures and
                                                      during project         expects to close out
                                                      implementation or      this recommendation
                                                      after project          on time..
                                                      completion..
----------------------------------------------------------------------------------------------------------------




    USAID Missions around the world have expressed interest in using 
development-impact bonds to help them achieve their objectives. We 
continue to collect data and evidence to identify the most appropriate 
sectoral use of impact bonds. We appreciate Congress' continued support 
for USAID's use of innovative approaches and pay-for-performance 
programming like this.
    Question. You recently traveled to Bangladesh and Burma. Do you see 
evidence that the ethnic cleansing of the Rohingya is continuing? 
Please provide specifics. How constrained is humanitarian access right 
now inside in Rakhine? What do you believe are the key messages 
Congress should be sending to the Burmese Government right now?

    Answer. When I visited Rakhine State in Burma, I saw things that 
deeply disturbed me. I saw villages divided along ethnic and religious 
lines. I saw communities relegated to camps without any freedom of 
movement or worship, or access to jobs or land. I saw parents whose 
only access to work since August 2017 was through a project funded by 
the U.S. Agency for International Development. I saw children without 
teachers; mothers without access to health care. Given such a 
situation, I have to wonder about what future people in such conditions 
have.
    As you know, the Department of State concluded that ethnic 
cleansing against the Rohingya has occurred in Rakhine State. While the 
mass violence against the Rohingya has stopped, discrimination and 
harassment against the Rohingya and members of other minority 
populations continues. These continuing negative conditions reaffirm 
our concerns. Humanitarian access in Central Rakhine was already 
constrained prior to the crisis, and continues to be a challenge, which 
could intensify as the Government of Burma moves to close camps for 
Internally Displaced Persons (IDP) in Rakhine State. Moreover, in 
Northern Rakhine, very few actors are able to provide assistance, or to 
assess needs. We continue to advocate for unfettered access to all of 
Rakhine State, and for the removal of barriers to freedom of movement, 
access to livelihoods, and basic services for the Rohingya population. 
The Burmese Government and military must lift the bureaucratic barriers 
that are preventing the assessment of needs and the provision of 
assistance.
    While the Government of Burma has taken some positive recent steps, 
such as signing a Memorandum of Understanding with the United Nations 
(UN) for the repatriation of refugees from Bangladesh and development 
issues, and welcoming a new U.N. Special Envoy to Myanmar, Christine 
Schraner Burgener, the Burmese must take additional actions.


    The administration is sending a number of key messages to the 
Government of Burma:

    First, we continue to advocate for unfettered, consistent access 
for all organizations to resume humanitarian and development assistance 
and assess local needs in Rakhine State.

    Second, we stress the need for credible and objective 
investigations that would ensure accountability and justice for 
violations of human rights. The Government of Burma has recently set up 
a Commission of Enquiry into atrocities committed in Rakhine, though we 
are waiting on more details about the specifics of this Commission and 
its membership.

    Third, we call for the Government of Burma to implement the 
recommendations of the Rakhine Advisory Commission, with a specific 
emphasis on the safe, voluntary, dignified, and sustainable 
resettlement of IDPs, freedom of movement, a path to citizenship, 
access to livelihoods and basic services, freedom for the independent 
media, and justice and reconciliation.


    Over 500,000 Rohingya remain in Rakhine State who still do not 
enjoy basic rights, such as freedom of movement and worship and access 
to livelihoods and basic services like health and education. Some will 
try to leave Burma because of the extreme hardships and fear of future 
violence. Addressing these challenges through thoughtful and conflict-
sensitive programming must be priority number one in Rakhine to prevent 
future violence. By improving the situation for Rohingya who remain in 
Rakhine State, the Government of Burma can begin to create the 
conditions that would be conducive for refugees to return from 
Bangladesh.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Hon. Mark Green by Senator Tim Kaine

        USAID has a unique contracting need in the federal government. 
        For example, USAID has a special type of partnering entity, 
        called Private Voluntary Organizations (PVOs), that assist 
        USAID's mission, a categorization that doesn't exist in other 
        facets of the Government. PVO's must be U.S.-based, charitable, 
        non-profit, and support foreign assistance. Many PVO's are 
        small entities with specialized abilities in focused areas 
        around the world. Unfortunately, unlike other places in the 
        Government, there is not a specific contracting set aside for 
        small PVO's. Because of their non-profit nature, the U.S. 
        Government's small business rules, designed for for-profit 
        entities, do not capture PVO's. Additionally, USAID does not 
        normally use its authorities to specifically contract with 
        smaller non-profits.

    Question. What limitations are there in USAID's ability to contract 
with small nonprofits?

    Answer. I have been clear that the U.S. Agency for International 
Development (USAID) should promote a level playing field for all our 
acquisition and assistance; diversify our partner base; invest more 
with faith-based organizations, local implementers, and U.S. small 
businesses and non-governmental organizations (NGOs); and expand our 
use of innovative approaches and awards. As such, the Agency is 
actively working to identify as broad a range of partners as possible, 
and develop and implement a series of interconnected and interdependent 
reforms to our processes to design programs and conduct procurements. 
We know we need to diversify our base of implementers: In Fiscal Year 
2017, just 25 organizations were responsible for 60 percent of our 
spending, and 75 groups for 80 percent. Increasing opportunities for 
U.S.-based small businesses and NGOs and local partners around the 
world is at the heart of the effort to broaden our network, and is a 
major priority for me. While the Federal Acquisition Regulations (FAR) 
has a set-aside for small businesses, regulations for assistance have 
no equivalent for small, non-profit organizations. However, we have 
broad authorities to develop new approaches towards assistance 
partners, both U.S. and international, and this is one of the stated 
goals of the procurement reform aspects of our Transformation.

    Question. What authorities does USAID have to set aside funds for 
small non-profits doing important development work? Is USAID fully 
using these authorities?

    Answer. The U.S. Agency for International Development (USAID) has 
broad authorities under its enabling legislation, the Foreign 
Assistance Act (FAA) of 1961, as amended. With regard to small non-
profits and Private Voluntary Organizations (PVOs), Section 635.22.c of 
the FAA states that the Agency has the authority to ``use to the 
maximum extent practicable the services and facilities of voluntary, 
non-profit organizations registered with, and approved by, the Agency 
for International Development.'' USAID uses this authority, along with 
others pertaining to voluntary, non-profit agencies in Sections 123 and 
607 of the FAA, to enable engagement with a broad range of partners. 
Under Transformation, we are now actively seeking to diversify our 
partner base to engage new and underutilized partners.

    Question. What, if any, changes or additions would be needed to 
current regulations and authorities for small non-profits to compete 
for more USAID contracts?

    Answer. While the Competition in Contracting Act requires the U.S. 
Agency for International Development (USAID) to use ``full and open 
competition through the use of competitive procedures unless otherwise 
authorized by law,'' this particular competition standard is only 
encouraged, not required, for assistance. A statutory and regulatory 
exception for the use of small Private Voluntary Organizations (PVOs) 
that would allow for USAID to limit competition under acquisition would 
potentially increase access for such organizations to compete more 
successfully for USAID contracts. (This would be similar to the 
exceptions listed under the Socioeconomic Programs in Part 19 of the 
Federal Acquisition Regulations [FAR]). While we don't believe many 
small non-profits will pursue contracts, the Agency would support new 
authorities for specific instruments to enable greater flexibility in 
working with non-profits as sub-awardees under contracts.
    The more immediate opportunity for the Agency is to develop a range 
of approaches and possibilities to lower barriers to competition, 
develop some programs to target small non-profit partners, and promote 
more collaborative and co-design approaches to procurements that would 
allow more such partners to compete for more USAID awards.

    Question. What percentage of USAID's contracting goes towards small 
PVOs, and how many small PVOs are awarded contracts each year?

    Answer. Over the past three years, the average percentage of new 
acquisition and assistance awards the U.S. Agency for International 
Development (USAID) made to Private Voluntary Organizations (PVOs) from 
Fiscal Year (FY) 2016 to FY 2018 was 19.3 percent. These awards 
included 45 new acquisition awards (contracts) and 845 new assistance 
awards (grants and cooperative agreements) to PVOs, for a combined 
total of 890 total new awards to PVOs over the three years.
    During the first two quarters of FY 2018, USAID issued 10 new 
acquisition awards (approximately $34 million in obligations), and 107 
new assistance awards (approximately $230 million in obligations) to 
PVOs. In FY 2017, USAID issued 18 new acquisition awards (worth 
approximately $97 million), and 341 new assistance awards (worth 
approximately $993 million) to PVOs. In FY 2016, USAID issued 17 new 
acquisition awards (worth approximately $60 million), and 397 new 
assistance awards (worth approximately $1 billion) to PVOs.

Global Development and Feed the Future Innovation Labs
        The Global Development Lab was established by the Obama 
        administration as a vehicle for attracting innovative ideas in 
        science and technology that can be applied to solving 
        development challenges. Additionally, Feed the Future 
        Innovation Labs have proven to be highly effective in 
        addressing food shortage issues around the world. The current 
        world population is about 7 billion and will exceed to 9 
        billion by 2050. Demand for food may require doubling of 
        current production without increasing land area. Pests and 
        diseases are known to cause 40% crop loss, which could be 
        avoided by adopting Integrated Pest Management (IPM) 
        technologies without adversely affecting human and 
        environmental health. Virginia Tech has been a leader in this 
        area and it has been implementing Integrated Pest Management in 
        the international arena for the past quarter of a century.

    Question. What is your view of the Global Development Lab? Do you 
support the proposed 80% cut to its FY 2019 budget from the FY 2017 
planned program level?

    Answer. The U.S. Agency for International Development (USAID), 
through the U.S. Global Development Lab (Lab), the Feed the Future 
Innovation Labs, and innovation teams in Bureaus and Missions, 
continues to build an adaptable organization focused on bringing new 
partners and the best ideas to the Agency to transform development. 
With Fiscal Year (FY) 2019 funds, the innovation hubs will work to find 
transformative solutions to accelerate measurable results, increase the 
effectiveness of our programs, engage new actors, take advantage of 
advancements in science and technology, and maximize the impact of 
taxpayer dollars.
    The Lab brings four core capabilities to the Agency: open and 
directed innovation, private-sector partnerships, digital development, 
and research and development (R&D). Through the Transformation, we plan 
to carry forward these core capabilities and maintain a space for 
discovery, testing, and experimentation around innovation, technology, 
and science for development; integrating tools and approaches that have 
proven successful in their corresponding practice areas; and 
strengthening the systems and processes necessary for applying 
innovative approaches to USAID's work.

    Question. What is the current status of Feed the Future Innovation 
Labs?

    Answer. The U.S. Agency for International Development (USAID) 
currently funds 22 Feed the Future Innovation Labs, which create a 
unique network supported by over 70 top U.S. colleges and universities 
that work with research and educational institutions in developing 
countries. The Feed the Future Innovation Labs are on the cutting edge 
of efforts to research, develop, and take to scale effective 
technologies that address challenges posed by a climactic shocks and 
the need to feed a growing global population with safe and nutritious 
food. The Feed the Future Innovation Labs also provide short- and long-
term training, which reaches the current and next generation of 
scientists in our partner countries.
    USAID recently extended or launched new Feed the Future Innovation 
Labs for Collaborative Research in Sorghum and Millet; the Reduction of 
Post-Harvest Loss; Small-Scale Irrigation; Fish; and Legume Systems 
Research. Several new Innovation Lab awards that address one or more 
goals of the U.S. Government's Global-Food Security Strategy are under 
review as part of USAID's competitive procurement process: Inclusive 
and Sustainable, Agriculture-Led Economic Growth; Strengthened 
Resilience Among People and Systems; and A Well-Nourished Population, 
Especially Women and Children. USAID continues to announce new 
opportunities for funding to Feed the Future Innovation Labs.

    Question. What do you envision to be the role of U.S. universities 
in reducing world hunger and malnutrition?

    Answer. U.S. universities contribute significantly to advancing our 
shared goal of reducing world hunger and malnutrition. The Feed the 
Future Innovation Labs funded by the U.S. Agency for International 
Development (USAID) pair the research and academic excellence of U.S. 
universities with research and educational institutions in over 30 
partner countries in the developing world. Together, they use advanced 
genomics, integrated pest-management, and other tools to create 
improved, stress-tolerant varieties of wheat, sorghum, millet, and 
legume crops, and more-efficient, sustainable cropping, livestock, 
aquaculture, and horticulture systems. These innovations improve 
nutrition, boost production, decrease post-harvest losses, and increase 
food safety. Better market connections, crop storage, and formulation 
and implementation of agricultural policy, in turn, raise incomes, 
increase food security, and improve the nutritional status of 
households in the countries in which we invest.

    Question. Will USAID continue to support Feed the Future? If so, 
should USAID allocate more resources to keep U.S. universities engaged 
in this work to battle global hunger?

    Answer. Yes, the administration, including the U.S. Agency for 
International Development (USAID), will continue to support Feed the 
Future. The initiative is showing results, and producing concrete 
evidence that ending hunger is possible with the right interventions 
and investments. Feed the Future is a proven, catalytic investment in 
food security built on engagement with the private sector in the United 
States and abroad, promoting and disseminating innovation, and 
strengthening the capacity of national governments in target countries 
to lead.
    USAID continues to look for innovative ways to bring U.S. 
universities into efforts like Feed the Future. In alignment with the 
U.S. Government's new Global Food Security Research Strategy, Feed the 
Future's Research and Development portfolio funds numerous research and 
capacity-building programs carried out by Universities, including 
partnerships with the 22 Feed the Future Innovation Labs. In addition 
to USAID, other Federal grant-making science agencies, such as the 
National Science Foundation and the National Institute of Food and 
Agriculture at the U.S. Department of Agriculture, have expanded the 
scale and scope of U.S. university research programs to address global 
hunger. Additionally, university researchers serve on advisory boards 
for, and conduct external evaluations of, the Feed the Future 
Innovation Labs. We also engage the U.S. university community through 
the presidentially appointed Board for International Food and 
Agricultural Development (BIFAD), which advises the USAID Administrator 
on issues pertinent to food security in developing countries. Of the 
seven members of BIFAD, four represent the U.S. university community. 
USAID will continue to allocate resources to U.S. universities to fund 
and support these engagements.

    Question. What are the current Feed the Future focus countries, and 
how are they selected?

    Answer. The current Feed the Future Target Countries are 
Bangladesh, Ethiopia, Ghana, Guatemala, Honduras, Kenya, Mali, Nepal, 
Niger, Nigeria, Senegal, and Uganda. ``Target Countries'' are those in 
which Feed the Future concentrates resources and technical support, and 
where we judge that our investments have the greatest potential to 
achieve sustainable improvements in food security and nutrition; build 
resilience; and promote sustainable, inclusive growth.
    Based on the requirements of the Global Food-Security Act of 2016, 
the U.S. Government selected Feed the Future's Target Countries based 
on the following criteria: Level of need, potential for our programs to 
spur growth, opportunities for partnership, opportunities for regional 
efficiencies, commitment by host governments, and the availability of 
U.S. Government resources. In addition to the 12 Target Countries, Feed 
the Future funds food-security investments in 35 Aligned Countries. 
``Aligned countries'' are responsible for meeting three of the six 
requirements for Feed the Future's Target Countries: 1) designating a 
single interagency point of contact from any Feed the Future Department 
or Agency at the U.S. Embassy; 2) aligning Feed the Future programs 
with the goals, objectives, and approaches outlined in the Global Food-
Security Strategy (GFSS); and, 3) reporting results on applicable GFSS 
indicators annually.

    Question. There was a six month delay in release of the IPM 
Innovation Lab's 2018 fiscal year funds. How do you propose to avert 
this delay in the future?

    Answer. Once Congress passes and the President signs the annual 
appropriations bill that contain funding for the U.S. Agency for 
International Development (USAID), the Agency undertakes a multi-step 
process of finalizing obligations to individual awards (grants, 
cooperative agreements, and contracts), which can take considerable 
time. We continue to pursue the most-efficient solutions to ensure we 
can make funds available for programming as quickly as possible.

    Question. What steps should USAID take to ``scale-up'' its 
successful programs?

    Answer. The Global Development Lab, the Bureau for Food Security 
(BFS), and other Operating Units across the U.S. Agency for 
International Development (USAID) fund the scale-up of successful 
programs by financing innovators, entrepreneurs and researchers to test 
and develop their solutions. The Global Development Lab is actively 
engaged in conversations with private and public partners around the 
dissemination of USAID-funded innovations, and works to remove barriers 
and create incentives around the adoption of these solutions into 
USAID's larger programming.
    In addition, through the Transformation, USAID will further 
facilitate the scale-up of successful programs. The proposed Bureau for 
Development, Democracy and Innovation (DDI) will incorporate the core 
capabilities of the Global Development Lab, and will be better-
positioned to affect the design and implementation of programs across 
the Agency. DDI's connections to the Missions would also foster the 
testing and greater adoption of promising innovative tools and 
approaches.

Competing with China and Russia
        ``China's official development assistance to African countries 
        has increased by more than 780% since 2003. Last year, 
        President Xi Jinping pledged $124 billion for a new global 
        infrastructure and development initiative called ``One Belt One 
        Road.'' Your testimony stated that you ``are shaping an Agency 
        that is capable of leveraging our influence, authority, and 
        available resources to advance U.S. interests.''

    Question. Do you agree that China has a similar goal with its 
development practices?

    Answer. The People's Republic of China is reorganizing its foreign 
assistance to align more closely with its foreign-policy objectives of 
expanding influence and securing markets, as demonstrated by the 
dramatic increase in Chinese aid and loans to Africa since 2003. 
China's development practices often create dependent relationships with 
recipients, exclude citizens from participating in decision-making, and 
are not sustainable. The U.S. Government structures its foreign 
assistance in such a way that it (i) offers strategic partnership, not 
strategic dependence; (ii) advocates for free, open, and enterprise-
driven development to build resilient market economies; (iii) promotes 
citizen-responsive governance, and advances democratic norms and 
institutions; (iv) saves lives; and, (v) strengthens the resilience of 
vulnerable communities and their environments. The difference in 
philosophy and outcomes could not be clearer.

    Question. Has China's strategy steadily improved its standing as a 
development partner of choice?

    Answer. The People's Republic of China increasingly has positioned 
itself as a friendly development partner given the flexible 
infrastructure financing and construction resources it offers. 
Recipients also know that the Chinese Government will not raise human 
rights, democracy, or corruption as concerns. However, the Chinese 
development policy is still evolving. Both China and recipient 
countries are grappling with the reputational risk of unsustainable 
Chinese investments over the long-term. Given these concerns, many 
developing countries are becoming more cautious in their engagement 
with China, and seek to continue their foreign-assistance relationship 
with the United States and other partners. Countries in which the U.S. 
Agency for International Development (USAID) operates are seeing the 
benefits of the long-term investments made by the United States and 
other donors. Our greatest successes often come with partners that 
share our approach of supporting local efforts in health, citizen-
responsive governance, transparency, and democracy to help advance 
strong economic growth and development. Given the U.S. Government's 
focus on self-reliance and strategic partnership, we expect developing 
countries to maintain strong relationships with the United States even 
after they transition out of a traditional development-assistance 
relationship.

    Question. If so, are you concerned that these U.S. cuts to 
development programs provide an opening for countries like China and 
Russia to exert additional influence?

    Answer. The People's Republic of China and the Russian Federation 
continue to seek ways to exert influence throughout the world, 
including through the use of their foreign assistance. Nevertheless, 
the U.S. Agency for International Development (USAID) retains its 
position as the world's premier development institution, with world-
class expertise and convening power that our partner countries value. 
USAID also encourages our allies and partners to promote strategic 
partnerships, citizen-responsive governance, and long-term 
sustainability in their planning, which can help counteract Chinese and 
Russian influence.

    Question. Is Chinese development strategy helped if the U.S. 
development programs are reduced abroad?

    Answer. Although the People's Republic of China is expanding and 
deepening its reach outside its borders, its foreign-assistance efforts 
are still developing, and are markedly different from those of the 
United States. Unlike the Chinese model, our assistance reaffirms a 
commitment to support nations on their Journeys to Self-Reliance, which 
results in enduring partnerships secured by shared ideals, interests, 
and mutual respect.


        This year's National Defense Strategy emphasizes strategic 
        competition with Russia and China; however, it's unclear 
        whether our foreign assistance is aligned to work in parallel 
        with this strategy. For the first time, USAID was made a 
        regular member of the National Security Council (NSC) Deputies 
        Committee in 2017.

    Question. Has China's increased practice of gaining influence 
through development projects been a topic of any interagency 
conversations USAID has been involved with in relation to national 
security, including at NSC meetings or during the formulation of the 
administration's National Defense Strategy? Do you believe that USAID's 
input and expertise is adequately being factored into implementation 
and execution of the National Defense Strategy and the administration's 
National Security Strategy?

    Answer. The U.S. Agency for International Development (USAID) 
advances a free, open, and inclusive development model that promotes 
self-reliance and partnership as a clear alternative to the often-
opaque and mercantilist transactions promoted by the People's Republic 
of China that result in dependence. USAID has been extensively engaged 
in national-security discussions related to China's attempts to 
increase influence through development projects and loans.
    USAID is committed to playing a strong role in achieving the vision 
of the President's National Security Strategy (NSS). Following the 
release of the NSS, USAID worked closely with our counterparts at the 
U.S. Department of Defense (DoD) as they developed the National Defense 
Strategy (NDS). The collaborative interagency engagement resulted in 
the incorporation into the NDS of USAID's input and equities. The NDS 
directly states that DoD will `` . . . assist the United States Agency 
for International Development (and others) . . . to identify and build 
partnerships to address areas of economic, technological and 
informational vulnerabilities.and will strive to consider ways to apply 
the military instrument differently to better enable diplomatic, 
informational, and economic elements of national power.'' USAID 
continues to engage interagency colleagues from the DoD, the U.S. 
Department of State, the National Security Council and others to align 
messaging and ensure close coordination in support of the NDS and NSS. 
USAID is also liaising closely with DoD on the recent Stabilization 
Assistance Review and the civilian-military priorities of USAID's 
Transformation.


        Your written testimony says that USAID is ``strengthening 
        democratic governance abroad. [and] .includes targeted 
        investments in Europe and Eurasia that will support strong, 
        democratic institutions and vibrant civil society, while 
        countering the Kremlin's influence in the region''. EUCOM has 
        the Russia Strategic Initiative and the Russia Influence Group, 
        which is designed to be a joint EUCOM-State Department effort 
        with State as the ``coordinator'' on countering Kremlin 
        influence. The FBI also has a separate Russian influence 
        taskforce as does DHS. In your March letter to me responding to 
        my concern about Russian interference in Latin American 
        elections, you highlighted USAID's new global strategy to 
        ``Counter Kremlin Influence.''

    Question. Is USAID participating in a State Department-led 
interagency coordination process to counter Russian influence? If so, 
at what level, and how often is such coordination taking place?

    Answer. The U.S. Agency for International Development (USAID) 
regularly coordinates with the interagency in our efforts to counter 
Russian influence in Europe and Eurasia. USAID participates in the 
Russian Influence Group's Senior Leader Steering Board, co-chaired by 
the State Department and the European Command (EUCOM) of the U.S. 
Department of Defense, regional workshops, and monthly meetings. I 
would be happy to provide a more-detailed account of the level and 
frequency of our coordination with the State Department and EUCOM in 
another setting.

    Question. What specifically is USAID doing to ensure that its 
Counter Kremlin Influence program is working in coordination with DOD 
and EUCOM's efforts?

    Answer. The U.S. Agency for International Development (USAID) 
shared our Countering Kremlin Influence (CKI) Strategy in Europe and 
Eurasia with the National Security Council, the U.S. Department of 
State, the European Command (EUCOM) of the U.S. Department of Defense 
(DoD), and the rest of the interagency. We have regular and frequent 
communications with DoD and EUCOM on this issue, and participate in the 
Russia Strategic Initiative and the Russia Influence Group.
    USAID also has a Senior Development Advisor (SDA) assigned to EUCOM 
in Stuttgart, Germany, with whom we communicate regularly. Our SDA 
participates in EUCOM's Countering and Deterring Russia Line of Effort 
Working Group, and has briefed the members on USAID's CKI Strategy and 
regularly coordinates with them on our programming in this area.
    USAID is also a formal part in EUCOM's Theater Campaign Order. The 
Order tasks USAID to ``conduct development and economic assistance 
programs in support of diplomatic engagement in the countries in 
[EUCOM's Area of Responsibility] (especially Armenia, Azerbaijan, 
Georgia, Moldova, Serbia, and Ukraine) that address corruption and 
governance issues in partner countries which make them more susceptible 
to malign influence and associated criminal elements.''
    EUCOM's Director of Operations and Director of Interagency 
Partnering, along with our SDA, addressed USAID's Mission Directors in 
Europe and Eurasia on countering Russian malign influence during 
meetings in Kyiv in June 2017.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Hon. Mark Green by Senator Edward J. Markey

        I recently introduced the International Human Rights Defense 
        Act, which would permanently establish a Special Envoy at the 
        State Department to focus on the human rights of lesbian, gay, 
        bisexual, transgender and intersex (LGBTI) persons--a position 
        that was created by the last administration, but which has 
        never been codified in law. I was pleased to hear your 
        commitment to LGBTI issues, stated repeatedly in a variety of 
        forums, but I'd like to hear more specifics:

    Question. USAID has a non-discrimination provision in all its 
grants and contracts. How does USAID enforce this non-discrimination 
provision? Will you commit to ensuring that USAID grants and contracts 
are LGBTI-inclusive? Does USAID have a funding plan for LGBTI human 
rights for the coming year or years? How does LGBTI human rights figure 
in to your plans for reorganizing your agency? Where will those issues 
fit in to the broader picture?

    Answer. As the Administrator of the U.S. Agency for International 
Development (USAID), I have made clear that inclusion is one of the 
Agency's core values, and that non-discrimination towards beneficiaries 
is a basic principle of development. As such, I commit that USAID will 
continue to implement its comprehensive non-discrimination policies for 
beneficiaries of our grants, cooperative agreements, and contracts.
    USAID will implement our non-discrimination policies for 
beneficiaries of acquisitions awards (contracts) and assistance awards 
(grants and cooperative agreements) the Agency makes to both for-profit 
and non-profit organizations. The policies, which include protections 
on multiple bases (including, but not limited to, sexual orientation 
and gender identity), are reflected in non-discrimination award terms 
included in all USAID contracts, grants, and cooperative agreements 
since late 2016. Further, contractors include the non-discrimination 
clause in all sub-contracts, and assistance awards recipients include 
the provision in all sub-awards and contracts. As is the case with 
other terms or conditions of USAID-funded acquisition or assistance 
awards, in the event of non-compliance USAID seeks appropriate remedies 
as specified in the award terms and conditions. Finally, USAID 
employees receive training on the content of, expectations for, and 
employee responsibilities related to USAID's non-discrimination 
policies, including non-discrimination policies for beneficiaries.
    In Fiscal Year (FY) 2018, USAID's Center of Excellence on 
Democracy, Human Rights and Governance within the Bureau for Democracy, 
Conflict and Humanitarian Assistance (DCHA/DRG) has a) obligated FY 
2017 funds into a global project that provides training and strategic-
messaging support for civil-society organizations (CSOs) that are 
working to address discrimination and stigma against lesbian, gay, 
bisexual, transgender and intersex (LGBTI) persons; and, b) provided 
funding to the USAID Mission in Bangladesh for a country-level project 
to help a local CSO advance protections from anti-LGBTI violence and 
discrimination.
    Subject to the availability of funds, in FY 2019 USAID has a plan 
to program $3,000,000 in FY 2018 funds to support data-collection and 
research, communications efforts to reduce stigma, context-specific 
projects in the most-difficult climates for LGBTI communities, and 
emergency-response grants to help protect LGBTI people in developing 
countries from violence and discrimination. As the implementers of 
USAID programs generally cooperate with, and leverage the financial and 
technical contributions of, other donors, the Agency is actively 
engaging with current and other potential partners to expand the impact 
of USAID's planned contributions.
    USAID's Transformation incorporates USAID's commitment to help 
protect LGBTI people from violence and discrimination. The proposed 
Bureau for Development, Democracy and Innovation (DDI) would consist of 
multiple Centers, including the Youth and Inclusive Development (YID) 
Hub and the Center for Democracy, Human Rights and Governance. DDI/YID 
would aim to maximize the impact of USAID's investments by ensuring 
that the needs of marginalized groups--including LGBTI people--are part 
of the Agency's policies, strategy-development, and programming. Agency 
coordinators for marginalized groups, including an LGBTI Coordinator, 
would be based in DDI/YID under the Transformation. DDI/DRG would lead 
the Agency's efforts to achieve self-reliant, citizen-responsive, 
democratic societies that respect human dignity, the rule of law, and 
rights (including by protecting the rights of marginalized populations 
such as LGBTI people).

                              __________

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre></body></html>
